<html>
<title> - USING SCHOOL WELLNESS PLANS TO HELP FIGHT CHILDHOOD OBESITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      USING SCHOOL WELLNESS PLANS 
                    TO HELP FIGHT CHILDHOOD OBESITY 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 10, 2007

                               __________

                           Serial No. 110-33

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

35-122 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     Dean Heller, Nevada
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 10, 2007.....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    55
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     2
    Platts, Hon. Todd Russell, ranking minority member, 
      Subcommittee on Healthy Families and Communities...........     3
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Chase, Chevy, actor/writer, co-founder, Center for 
      Environmental Education Online.............................     9
        Prepared statement of....................................    10
    Converse, Chandler, high school student......................    22
        Prepared statement of....................................    23
    Howley, Nora L., interim executive director, Action for 
      Healthy Kids...............................................    25
        Prepared statement of....................................    27
        ``Wellness Policy Fundamentals: Key Considerations as You 
          Develop Your Local Wellness Policy''...................    32
        ``Local Wellness Policies One Year Later: Showing 
          Improvements in School Nutrition and Physical 
          Activity''.............................................    33
    Lawler, Phil, director, PE4life Instruction and Outreach.....    37
        Prepared statement of....................................    38
    Marks, James S., M.D., MPH, senior vice president and 
      director, Robert Wood Johnson Foundation Health Group......    11
        Prepared statement of....................................    14
    Stallings, Virginia A., M.D. professor of pediatrics, 
      University of Pennsylvania School of Medicine..............    17
        Prepared statement of....................................    19

Additional Submissions:
    Mrs. McCarthy:
        Cloninger, Kathy, president & CEO, Girl Scouts of the 
          USA, prepared statement of.............................    56
        Garrett, Monica, senior manager, US Corporate 
          Responsibility, NikeGO programs, prepared statement of.    61
        The School Nutrition Association:
            Prepared statement of................................    63
            Proposed amendment: National Nutrition Standards for 
              School Meals.......................................    64
            ``A Foundation for the Future: Analysis of Local 
              Wellness Policies from the 100 Largest School 
              Districts''........................................    66
            ``A Foundation for the Future II: Analysis of Local 
              Wellness Policies from 140 School Districts in 49 
              States''...........................................    66
        Wechsler, Howell, Ed.D, MPH, Director, Division of 
          Adolescent and School Health, Centers for Disease 
          Control and Prevention, U.S. Department of Health and 
          Human Services, prepared statement of..................    57


                      USING SCHOOL WELLNESS PLANS
                    TO HELP FIGHT CHILDHOOD OBESITY

                              ----------                              


                         Thursday, May 10, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 3:49 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Clarke, Sarbanes, 
Yarmuth, Platts, Biggert, McKeon, and Price.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Fran-Victoria Cox, Documents Clerk; 
Jeffrey Hancuff, Staff Assistant, Labor; Lamont Ivey, Staff 
Assistant, Education; Thomas Kiley, Communications Director; 
Deborah Koolbeck, Policy Advisor for Subcommittee on Healthy 
Families and Communities; Stephanie Moore, General Counsel; 
James Bergeron, Minority Deputy Director of Education and Human 
Service Policy; Kathryn Bruns, Minority Legislative Assistant; 
Taylor Hansen, Minority Legislative Assistant; Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    Before we begin, I would like everyone to take a moment to 
make sure that your cell phones and BlackBerrys are on silent.
    I now recognized myself, following by the ranking member, 
Mr. Platts from Pennsylvania, for an opening statement.
    If everybody doesn't mind--everybody knows that I am really 
excited about having this hearing--I am going to not do my 
opening statement, so, time-wise, we can get to the witnesses. 
We are going to have another vote in an hour, so I want to get 
everybody in. I want all the information. So I am skipping my 
speech. I think that is a first, by the way.
    Thank you for joining us today, and now I yield to the 
ranking member, Mr. Platts, for his opening statement.
    [The opening statement of Chairwoman McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I am so pleased to welcome you to the Subcommittee on Healthy 
Families and Communities hearing on using school wellness plans to 
fight childhood obesity. I am even more pleased at the large level of 
interest in this hearing, both from my fellow Members of Congress and 
from those who wish to make the world a better place for our children. 
I am sorry that we could not accommodate everyone who wished to be on 
our panels, but I look forward to reviewing the submitted testimony as 
we move forward.
    Childhood obesity is not only sweeping our nation, but is found in 
other industrialized nations such as Japan and emerging nations like 
China. As a nurse and Chairwoman of the Subcommittee on Healthy 
Families and Communities, I wanted to give this issue the attention it 
deserves. There is no need to discuss whether or not childhood obesity 
has reached epidemic proportions in our nation: it has. The Centers for 
Disease Control and Prevention and the National Academies of Science, 
among many other institutions, openly discuss our nation's childhood 
obesity epidemic. In 2005, it was estimated that nearly 9 million 
children over age 6 were considered obese. Childhood obesity is found 
in all 50 States, in both young children and adolescents, affecting all 
social and economic levels. Low income communities tend to have the 
highest obesity rates due to factors such as a lack of access to 
affordable, healthy foods, lack of safe, available venues for physical 
activity, and a lack of education on nutrition and its benefits. 
Furthermore, it has been found that minority children are at greatest 
risk for obesity.
    Clearly we can see that childhood obesity is a multi-faceted 
problem, and the solution cannot come from a single change in a child's 
life. However, we can explore a single piece of every child's life: 
school. Children spend the majority of their day in school, where they 
not only study the curricula but also absorb messages from their peers, 
their teachers, and the media. In addition, for many children, two-
thirds of their meals happen at school along with the majority of their 
socialization and all too often, their lack of physical activity.
    We are here today to explore how school wellness plans, established 
in the Child Nutrition and WIC Reauthorization Act of 2004 for each 
Local Educational Agency participating in a program authorized by the 
RICHARD B. RUSSELL National School Lunch Act or the Child Nutrition Act 
of 1966, can be utilized to fight childhood obesity. Each Local 
Educational Agency was to establish a School Wellness Policy by the 
start of the 2006-2007 school year.
    School Wellness Policies needed to include goals for nutrition 
education, physical activity, and other school-based activities 
designed to promote wellness, nutrition standards for foods sold in 
schools that are not federally reimbursable meals such as the slice of 
pizzas kids grab along with a soda, nutrition guidelines for 
reimbursable meals, which cannot drop below the USDA standards, a plan 
for measuring implementation of the local wellness policy, and a 
requirement for community involvement in the development of the school 
wellness policy.
    Ideally, School Wellness Policies should look at our nation's youth 
holistically, addressing the school environment, life-skills courses, 
and physical activity. For example, for those students who struggle in 
the classroom because of learning disabilities it is important that 
they have time to participate in sports or physical activity during the 
school day, because these students tend to excel in sports or other 
physical activity. This is necessary to maintain a healthy self-esteem 
and the confidence to return to the classroom and face their personal 
challenges.
    Although we need to establish a healthy environment in the schools, 
ideally the School Wellness Policy would be expanded to establish a 
Community Wellness Policy. You see, although there is great opportunity 
to address the health and wellness of youth in schools, if we do not 
address the health and wellness environment for youth outside our 
schools then there is a good chance we could lose the fight against 
childhood obesity. There is sufficient room in the legislation 
mandating these school wellness policies so that a policy can be 
crafted to suit the particulars of the community surround the school; 
the needs and opportunities for rural students differ greatly from 
those of suburban or urban students. However, across the board, we need 
to have in place School Wellness Policies which can work to educate our 
youth through experience on nutrition, physical activity, and other 
aspects of healthy living and wellness.
    The School Wellness Policies are a piece of the culture change our 
nation is experiencing brought on in part by our nation's prosperity 
and the global knowledge economy. Today, many jobs tend to be at desks, 
sitting for hours without physical activity. The work day is long in 
this nation, leading to the abundance of fast food consumption. The 
lifestyle of citizens with multiple jobs or low-wage positions equally 
contributes to increased fast food consumption, lack of exercise, and 
other associated daily living challenges. Physical activity for health 
and recreation is often sacrificed for the basic needs of daily living. 
Change for adults is hard, but with children, if we start to educate 
our youth early, with continued reinforcement of healthy living and 
wellness, we will establish in our youth habits and values of healthy 
living and wellness for the future.
    Today we will hear from a Member of Congress, experts in the fields 
of nutrition and physical education, an Emmy-award winning actor who 
now turns his energy to healthy food in schools, and most importantly, 
I think, a young woman who has through her love of running and 
exercise, campaigned at the local, state, and now the national level, 
to ensure that all youth have the opportunity to be physically active 
in their school day or school week. Thank you all for joining us today.
                                 ______
                                 
    Mr. Platts. Mine will be equally brief.
    Madam Chair, I appreciate your holding this very important 
hearing.
    And as the parent of a 2nd-grader and 4th-grader, and as 
one who eats lunch in the cafeteria with my kids about every 2 
weeks to 3 weeks, depending on the schedule--this issue is very 
important to so many families across the country and 
ultimately, you know, and most importantly, to the long-term 
health of our children. So I appreciate it.
    I will submit my statement for the record as well. I yield 
back.
    [The opening statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Health Families and Communities

    Good Afternoon. Thank you for joining us today for this important 
hearing on the battle against childhood obesity. As we all know, 
childhood obesity has become a major health problem in the United 
States, and studies suggest that overweight children are significantly 
more likely to become overweight or obese adults.
    This is a matter of great concern to this Committee, and to society 
as a whole. Recent reports have found that our nation's children are 
increasingly suffering from health conditions traditionally associated 
with adulthood, including Type 2 diabetes, insulin resistance, high 
cholesterol, high blood pressure, sleep apnea, orthopedic 
complications, and are troubled by other effects such as low self-
esteem. These ailments can be directly traced to the fact that, among 
school-aged children, we've seen a significant increase in the 
prevalence of overweight young children and young adults.
    In addition to afflicting distress through chronic disease and 
premature death, the dramatic rise in obesity rates has had economic 
repercussions. CDC-sponsored studies report that obesity-related 
medical expenditures in the United States have reached more than $75 
billion a year. These statistics demonstrate that we as a nation must 
address the growing problem of childhood obesity if we are to promote 
child and societal well-being.
    At the onset, let me say that I believe that parents bear the 
primary responsibility for ensuring that their children eat well and 
exercise regularly. However, schools can and should play a positive 
role by giving children access to nutritious meals and snacks, 
nutrition education, and provide time and encourage students to engage 
in daily physical activity.
    Over the past several years, schools and programs providing meals 
and snacks to children have made progress in improving lunch menus to 
meet federal nutrition standards for fat and calories. And through the 
Child Nutrition and Women, Infants, and Children Reauthorization Act of 
2004, local educational agencies are developing and implementing local 
wellness policies that include a comprehensive approach to combating 
childhood obesity, which include establishing nutrition guidelines and 
education, physical activity goals, and other activities on the school 
level to promote child wellness.
    However, I believe that more can be done to provide every child 
with a school environment that promotes healthy food choices and 
regular physical activity. The decrease in the physical activity of our 
children, both in school and at home, has been shown to be a major 
factor in the rise of childhood obesity.
    In my own State of Pennsylvania, we have great organizations such 
as Just Harvest, the School Nutrition Association of Pennsylvania, and 
Pennsylvania Advocates for Nutrition and Activity all working towards 
ensuring that our schools provide healthy and nutritious foods, 
nutrition and physical education programs to help combat and prevent 
childhood obesity.
    As this Committee continues its effort to improve child nutrition 
programs and address the important and complex issue of childhood 
obesity, we will examine the available science and take into 
consideration all factors known to contribute to obesity, while 
supporting the role of local school districts to make decisions about 
the foods and activities that are available to children in school. 
We've tried to find that balance--between the role of the Federal 
government and that of local schools and school districts--from the 
reauthorization of the Child Nutrition Act to the recent efforts led by 
the Chairwoman to expand the focus of childhood obesity in the 
reauthorization of the Head Start program. It is my hope and 
expectation that we will continue to seek that balance with our efforts 
here today.
    I would also like to recognize Dr. Stallings who for a long time 
has been an important part of the Children's Hospital of Philadelphia 
and who recently was a key part of the Institute of Medicine's study on 
child nutrition which we will hear more about today.
    Thank you and all of our other distinguished witnesses for being 
here today as we focus on this important issue.
                                 ______
                                 
    Chairwoman McCarthy. I thank you, Mr. Platts.
    I also want to note that Mr. Yarmuth from Kentucky has 
joined us. And Ms. Biggert from Illinois is here, and Mr. 
McKeon.
    Today we will hear from two panels. On our first panel, we 
will hear from a member of Congress, my colleague and fellow 
member of the Committee on Education and Labor, the Honorable 
Lynn Woolsey from California.
    On the second panel, we will hear from six witnesses: the 
actor and comedian, Mr. Chevy Chase--and we thank you for being 
here; Mr. James Marks, from the Robert Wood Johnson Foundation; 
Dr. Virginia Stallings, a doctor from Philadelphia with many 
honors; Ms. Chandler Converse, a student from Georgia; Nora 
Howley, from the Action for Healthy Kids; and last but 
certainly not least, Mr. Philip Lawler, from PE4LIFE.
    Thank you all for being here today, and I appreciate your 
patience.
    In the interest of time, given the large number of 
witnesses today, I will keep the informal introductions short.
    I would like to introduce the first panel, a colleague of 
mine, the Honorable Lynn Woolsey from California. I have served 
with her since 1996. She has been here in Congress since 1993 
on the Education and Labor. She serves as the chairwoman on the 
Subcommittee of Workforce Protection.
    Congresswoman Woolsey leads her voice as a member of 
Congress and calls for action in the areas where she is deeply 
passionate. I know she cares deeply about the health and 
wellness of our young people, and I look forward to hearing her 
testimony on using school wellness policies to fight childhood 
obesity.
    You understand the light system. We are going to stay very 
tight today, 5 minutes, boom.
    So, with that, may I hear your testimony?

STATEMENT OF HON. LYNN C. WOOLSEY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you, Chairman McCarthy, and you have set 
a perfect example for doing the right thing and staying within 
time this afternoon.
    And thank you, Ranking Member Platts.
    Thank you for inviting me to testify at this important 
hearing on school wellness plans and child obesity.
    We all know the statistics. Childhood obesity has become a 
dangerous public health epidemic, and the percentage of 
overweight children has more than doubled since 1980.
    Congress, through the work of this committee, took some 
very meaningful steps to address the childhood obesity epidemic 
during the reauthorization of the school meals program in 2004.
    There was bipartisan support to help school districts 
develop school wellness policies. And those agreements included 
nutrition, education, physical activity and nutrition 
guidelines for food served at school.
    School districts and parents can use school wellness 
policies to teach their children the healthy habits that they 
need for a lifetime. But schools cannot carry out this program 
alone. With our help, school wellness programs can and must 
succeed.
    Last summer, I was honored to speak at a conference 
sponsored by the Alliance for Healthier Generations led by 
former President Clinton and the American Heart Association.
    Working with the Robert Wood Johnson Foundation and other 
groups, they successfully bring schools, they bring business 
and the health care community together to make kids healthier.
    They train staff. They help schools create wellness 
programs and check in afterwards to see how the wellness 
programs are progressing. We need more of these support systems 
for our schools, there is no question.
    At the conference, I spoke to cafeteria workers and other 
school employees who were learning about nutrition and how to 
encourage a healthy diet for their students.
    They were excited. They were there. And for many of them, 
that was the first time they were getting any real training on 
nutrition, 2 years after wellness programs were created.
    School nutrition programs face budget shortfalls because we 
are not fully funding the student lunch program or the No Child 
Left Behind program.
    In order to continue to buy new ovens or pay for health 
care for their cafeteria workers, schools often make up for 
these shortfalls by increasing the cost of the meals and by 
selling a la carte and vending machine items, food that quite 
often does not have the same nutritional guidelines that meals 
have.
    Right now, ice cream is allowed in schools but seltzer 
water isn't. Doughnuts are allowed but lollipops are not. 
Cookies are fine but breath mints are not.
    This doesn't make any sense, Madam Chairman. It undermines 
the federal nutrition standards for meals if students spend 
their money on unhealthy options.
    It also undermines the role of parents who give lunch money 
to their children expecting them to eat something wholesome and 
nutritious and their money instead is spent on unhealthy 
options.
    That is why I have introduced legislation, the Child 
Nutrition Promotion and School Lunch Protection Act, H.R. 1363, 
that will protect our children by ensuring that all food sold 
in schools during the entire school day meets sound nutrition 
standards.
    The bill would require that food sold in schools take into 
account caloric intake, saturated fats, trans fats and refined 
sugars. H.R. 1363 assesses the effect of certain foods on 
obesity.
    The bill would also allow for recommendations by leading 
scientific experts. This bill has a companion bill in the 
Senate with Senator Harkin from Iowa.
    When schools need to sell unhealthy food and drinks in 
order to make up for budget shortfalls, we are forcing them to 
abandon their school wellness programs.
    That is why, with this legislation, along with Chairwoman 
McCarthy and Chairman Miller leading the way, we have a real 
opportunity to stop the obesity epidemic.
    Working together, we will ensure that cafeteria and 
wellness programs are funded, the support and training required 
to create the wellness programs will be available, and there 
will be sound nutritional standards for all foods sold in 
schools.
    Again, I thank you, Madam Chair, for this time, and I am 
sorry I can't listen to your panel. Thank you very much.
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Thank you Chairwoman McCarthy and Ranking Member Platts for 
inviting me to testify at this important hearing on school wellness 
plans and childhood obesity.
    We've all heard the statistics:
    1. Childhood obesity has become a dangerous public health epidemic.
    2. The percentage of overweight children has more than doubled 
since 1980.
    3. The percentage of overweight adolescents has more than tripled.
    4. Only one in three high school students take part in daily 
physical activity
    If these trends continue, the next generation of adults is going to 
be at much greater risk for heart disease, type 2 diabetes, stroke, 
cancer, and other diseases.
    Congress through the work of this Committee took some steps to 
address the child obesity epidemic during the reauthorization of the 
school meals programs in 2004. There was bipartisan support to help 
school districts develop ``school wellness policies,'' which include 
nutrition education, physical activity, and nutrition guidelines for 
food served at school. School districts and parents can use School 
Wellness Policies to teach children the healthy habits they'll need for 
a lifetime, but schools cannot carry out this program alone. With our 
help, School Wellness Programs can succeed.
    Last summer, I was honored to be invited to speak at a conference 
sponsored by the Alliance for a Healthier Generation, led by former 
President Clinton and the American Heart Association. Working with the 
Robert Wood Johnson Foundation and other groups they successfully bring 
schools, businesses, and the healthcare community together to make kids 
healthier. They train staff, help schools create wellness programs, and 
check in afterwards to see how the wellness programs are progressing. 
We need more of these support systems for our schools.
    I also met with Alice Waters, who created the Edible School Garden. 
This great program shows children how to create a fruit and vegetable 
garden and serve the fruits and vegetables in the school cafeteria. 
Children learn the importance of a healthy diet and how fruits and 
vegetables are a key component, as well as seeing how fruits and 
vegetables go from garden to table.
    At the conference, I spoke to cafeteria workers and other school 
employees who were learning about nutrition and how to encourage a 
healthy diet for their students. They were excited to be there and for 
many of them, that was the first time they were getting any real 
training on nutrition--two years after Wellness Programs were created!
    The Alliance for a Healthier Generation, Alice Waters and these 
schools are doing a great job at trying to make children healthier and 
they need all the support we can give them. However, these schools are 
facing serious obstacles in order to make students healthier.
    School nutrition programs face budget shortfalls because we are not 
fully funding the student lunch program or No Child Left Behind. In 
order to continue to buy new ovens or pay for healthcare for their 
cafeteria workers, schools often make up for these shortfalls by 
increasing the cost of meals and selling a la carte and vending machine 
items, food that usually does not have the same nutritional guidelines 
that meals have.
    Right now, ice cream is allowed in schools but seltzer water isn't. 
Doughnuts are allowed but lollipops are not. Cookies are fine, but 
breath mints are not. This doesn't make sense. It undermines the 
federal nutrition standards for meals if students spend their money on 
unhealthy options. It also undermines the role of parents who give 
lunch money to their children expecting them to eat something wholesome 
and nutritious and their money is spent on unhealthy options instead.
    That is why I've introduced legislation, the Child Nutrition 
Promotion and School Lunch Protection Act, H.R. 1363 that will protect 
our children by ensuring that all foods sold in schools during the 
entire school day meet sound nutrition standards. The bill would 
require that food sold in schools take into account caloric intake, 
saturated fats, trans fats, and refined sugars. H.R.1363 assesses the 
affect of certain foods on obesity. The bill would also allow for 
recommendations by leading scientific experts.
    This is a bipartisan bill, which enjoys support from the American 
Heart Association and an array of health advocacy groups. Republican 
Chris Shays is my lead co-sponsor. There is also a Senate version, 
offered by Democrat Tom Harkin and Republican Lisa Murkowski. This idea 
isn't a new one--the Democrats on the Committee on Education and Labor 
have gone on record in support of similar legislation.
    When schools need to sell unhealthy food and drinks in order to 
make up for budget shortfalls, we are forcing them to abandon their 
School Wellness programs. That's why this legislation along with 
Chairwoman McCarthy and Chairman Miller leading the way, we have a real 
opportunity to stop the obesity epidemic. Working together, we will 
ensure that cafeteria and wellness programs are funded; the support and 
training required to create the wellness programs is available; and 
there are sound nutritional standards for all foods sold in schools.
    Again, I thank you Madame Chair for this time.
                                 ______
                                 
    Chairwoman McCarthy. Thank you. Wow, right on time. Good 
job. I want to thank you for taking the time out of your 
extremely busy day here in Congress and for the time that you 
have given us, and thank you for the information.
    If the second panel would come forward now, it would be 
great.
    I would like to thank each of you for being here today. To 
begin, we will go in the order of your introductions.
    Mr. Chevy Chase is better known to all of us for the 
laughter we have shared around his Emmy-award-winning work on 
``Saturday Night Live,'' the multiple ``National Lampoon'' 
movies and other movies such as ``Caddyshack,'' which is 
certainly a classic for all of us. Though his work as an actor 
continues, he and his wife established the Center for 
Environmental Education Online Foundation with several core 
missions, including getting healthy foods into schools.
    Dr. James Marks come to us from the Robert Wood Johnson 
Foundation, where he is a senior vice president and director of 
the health group. He has also served as an assistant surgeon 
general and was a director of the CDC National Center for 
Chronic Disease Prevention and Health Promotion. Dr. Marks will 
describe the Robert Wood Johnson Foundation work to address 
childhood obesity today.
    Dr. Virginia Stallings holds an endowed chair and several 
directorships at the Joseph Stokes Jr. Research Institute at 
the Children's Hospital of Philadelphia. She joins us today for 
her role as chair of the National Academy of Sciences Institute 
of Medicine's committee on nutritional standards for foods in 
schools, which is charged with making recommendations about 
nutrition standards for foods offered in competition with 
federally reimbursable meals and snacks.
    Chandler Converse comes to us believing that physical 
education, also known as--you might see it as P.E. here, should 
be made available to all students. Chandler launched AKA, 
Athletics Plus Kids Equals Academics, her own grassroots 
student fitness initiative in Georgia, linking physical fitness 
to academic success.
    As a voice for physical education and fitness for youth, I 
am looking forward to hearing her testimony because I believe 
our young know more about what we can do to help them live 
healthy and more active lives.
    I will now yield to my distinguished colleague, 
Congresswoman Judy Biggert from Illinois, to introduce Mr. 
Lawler.
    Mrs. Biggert. Thank you very much, Madam Chairman.
    I am very excited to have Phil Lawler here today. He is the 
director of PE4LIFE, of instruction and outreach. He serves as 
the director of the PE4LIFE Academy in Naperville, Illinois, a 
role that he has had since 2001. He has been a physical 
education teacher for 35 years, but he came up with a new 
concept of how to teach P.E. And because of that, he was named 
the Illinois Middle School Physical Education Teacher of the 
Year in 1999.
    He has been inducted into the Illinois High School Baseball 
Coaches' Hall of Fame. In 2002, he was named to the USA Today 
First Team All-American Teaching Team, the first physical 
education teacher to make the first team.
    The PE4LIFE program at Madison Junior High School has been 
featured in the Wall Street Journal, USA Today, Time, Newsweek, 
U.S. News & World Report, The Washington Post, PBS, CBS News 
and other media.
    So we look forward to hearing his testimony. I am delighted 
that he is here from my district.
    Chairwoman McCarthy. Thank you.
    Tom Price from Georgia would like to say a few words.
    Mr. Price. Thank you so much, Madam Chair, and I appreciate 
the indulgence. I am not on the subcommittee, but I--and 
because of our schedule, I haven't had the opportunity to 
welcome one of my constituents, Chandler Converse, here from 
Pebblebrook High School in Georgia.
    She is the National Youth Service award winner, and I just 
wanted to commend her for her activity and commend her 
testimony to the entire subcommittee.
    Welcome.
    Chairwoman McCarthy. Thank you.
    Ms. Clarke from New York has also joined us, and Mr. 
Sarbanes from Maryland has also joined us.
    For those who have not testified before the subcommittee, 
let me explain the lighting system. You all have that in front 
of you. When you start, the green light is going to go on. When 
the yellow light goes on, that means you have to start 
finishing up. When the red goes on, you are going to hear from 
me to finish up, you are over, okay?
    You are in the movies; you know how to do this.
    We will now hear from our first witness, Mr. Chevy Chase.

STATEMENT OF CHEVY CHASE, ACTOR/WRITER, CO-FOUNDER, CENTER FOR 
                 ENVIRONMENTAL EDUCATION ONLINE

    Mr. Chase. Good afternoon. Thank you for the opportunity to 
testify before your subcommittee.
    My name is Chevy Chase. In addition to my work as an actor, 
I also have worked, along with my wife, Jayni, sitting behind 
me, to improve children's health.
    Together, we founded the Center for Environmental 
Education, a resource for educators and students on health, 
environmental and nutritional issues. School nutrition is one 
of three priority areas of our center.
    As you know, rates of obesity among U.S. children and teens 
tripled between 1980 and 2002. Of the children born in 2000, 
almost 40 percent of girls and one-third of boys are on track 
to develop diet-related diabetes during their life period. This 
is no laughing matter.
    For the first time in history, our nation's children have a 
shorter life expectancy than their parents.
    With the growing concern about childhood obesity, many 
schools are realizing how important it is for children to have 
access to healthy foods. Vending machines and processed meals 
are being replaced with fresh, healthy food that is also 
serving as a central part of student learning each day.
    Jayni and I applaud school districts' efforts to implement 
strong school wellness plans during this past school year. 
These plans support parents' ability to feed their children a 
healthy diet.
    Parents should not have to worry that their children will 
spend their lunch money on low-nutrition foods from vending 
machines.
    It is time to return parental control of their children's 
diets to parents, and that means setting strong nutrition 
standards for schools.
    Nationally, more than 80 percent of schools at all grade 
levels sell foods and beverages out of vending machines, school 
stores, or a la carte in the cafeteria.
    Unfortunately, too many of the choices offered to the 
children are chips, candy, cookies, sugary beverages and other 
foods of poor nutritional value.
    Too many children are building lunches out of cookies and 
french fries, which is contributing to the nation's obesity 
epidemic.
    I was surprised to learn that the U.S. Department of 
Agriculture nutrition standards for foods sold in cafeteria 
snack lines were set in the 1970s and have never been updated.
    USDA's current standards allow the sale of doughnuts and 
ice cream but prohibit the sale of seltzer water and breath 
mints. This standard doesn't make a lot of sense, although 
given the choice, I would go for a newspaper sandwich and a 
glass of smoke. It is outrageous.
    Outside of the cafeteria, no nutrition standards are in 
place for foods sold through vending machines and school 
stores.
    Congress needs to call on the USDA to update its outdated 
standards and apply them to the whole campus during the whole 
school day. Jayni and I strongly support Representatives 
Woolsey's and Shea's Child Nutrition Promotion and School Lunch 
Protection Act, H.R. 1363, which we urge Congress to pass this 
year.
    While some might say that school nutrition should be solely 
addressed at the local level, since the Truman administration 
the school meal programs have been federal programs.
    The federal government invested $10 billion in fiscal year 
2006 in school lunches and breakfasts. Selling chips, candy and 
sugary drinks in schools undermines that taxpayer investment.
    Last year, the Alliance for a Healthier Generation, the 
nation's largest soft drink companies and several snack food 
companies announced voluntary guidelines for nutrition 
standards for foods and beverages sold in stores.
    While their efforts are laudable, these voluntary 
guidelines are unenforceable. And it remains to be seen whether 
and to what extent schools will accept and comply with them.
    Child nutrition is too important to leave to chance and 
voluntary efforts. As the USDA and Centers for Disease Control 
and Prevention documented in their report, Making it Happen, 
students will buy and consume healthy beverages and schools can 
make money from selling healthy options.
    Of 17 schools and school districts they surveyed that 
tracked income after switching to healthier options, 12 
increased revenue and four reported no change. The one school 
district that did lose revenue in the short term experienced a 
subsequent revenue increase after the study was completed.
    School beverage vending contracts raise only a 
comparatively small amount of funds. District contract revenues 
amount to less than .5 percent of annual district per-student 
spending.
    Moreover, the money generated from school vending contracts 
comes from the pockets of students and their parents. Through 
vending contracts, soft drink companies gain exclusively 
advertising rights to promote and increase the sale of products 
in schools.
    In closing, Jayni and I would like to encourage school 
districts across the country to continue to strengthen their 
wellness plans.
    In addition, we urge Congress to strengthen the national 
nutrition standards for foods and beverages sold out of vending 
machines, school stores and a la carte in schools by passing 
Representative Woolsey's bill.
    The health crisis posed by the childhood obesity epidemic 
deserves all of our best efforts and attention. Again, I thank 
you.
    [The statement of Mr. Chase follows:]

Prepared Statement of Chevy Chase, Actor/Writer, Co-Founder, Center for 
                     Environmental Education Online

    Thank you for the opportunity to testify before your Subcommittee. 
My name is Chevy Chase. In addition to my work as an actor, I also have 
worked along with my wife, Jayni, to improve children's health. 
Together, we founded the Center for Environmental Education Online, a 
resource for educators and students on health, environmental, and 
nutrition issues. School nutrition is one of three priority areas of 
our Center.
    As you know, rates of obesity among U.S. children and teens tripled 
between 1980 and 2002. For individuals born in 2000, the chance of 
developing diabetes during their lifetime is 39% for females and 33% 
for males. Almost 40% of girls and one-third of boys are on track to 
develop diet-related diabetes. This is no laughing matter.
    With the growing concern about childhood obesity, many schools are 
realizing how important it is for children to have access to healthy 
foods. Vending machines and processed meals are being replaced with 
fresh, healthy food that is also serving as a central part of student 
learning each day.
    Jayni and I applaud school districts' efforts to implement strong 
school wellness plans during this past school year. These plans support 
parents' ability to feed their children a healthful diet. Parents 
should not have to worry that their children will spend their lunch 
money on low-nutrition foods from vending machines instead of on 
balanced school meals. It is time to return parental control of their 
children's diets to parents, and that means setting strong nutrition 
standards for schools.
    Nationally, more than 80% of schools at all grade levels sell foods 
and beverages out of vending machines, school stores, or a la carte in 
the cafeteria. Unfortunately, too many of the choices offered to 
children are chips, candy, cookies, sugary beverages and other foods of 
poor nutritional value. Too many children are building lunches out of 
HoHos and French fries, which is contributing to the nation's obesity 
epidemic.
    I was surprised to learn that the U.S. Department of Agriculture's 
(USDA) nutrition standards for foods sold in cafeteria snack lines were 
set in the 1970s and have never been updated. USDA's current standards 
allow the sale of doughnuts and ice cream but prohibit the sale of 
seltzer water and breath mints. This standard does not make sense. 
Outside of the cafeteria, no nutrition standards are in place for foods 
sold through vending machines and school stores. Congress needs to call 
on USDA to update its outdated standards and apply them to the whole 
campus and the whole school day. I strongly support Representatives 
Woolsey's and Shays' Child Nutrition Promotion and School Lunch 
Protection Act (H.R. 1363), which I urge Congress to pass this year.
    While some might say that school nutrition should be solely 
addressed at the local level, since the Truman administration, the 
school meal programs have been federal programs. The federal government 
invests huge amounts of money--$10 billion in fiscal year 2006 alone--
in school lunches and breakfasts. Selling chips, candy, and sugary 
drinks in schools undermines that taxpayer investment.
    Last year, the Alliance for a Healthier Generation, the nation's 
largest soft drink companies, and several snack food companies 
announced voluntary guidelines for nutrition standards for foods and 
beverages sold in schools. While their efforts are laudable, these 
voluntary guidelines are unenforceable and it remains to be seen 
whether and to what extent schools will accept and comply with them. 
Child nutrition is too important to leave to chance and voluntary 
efforts.
    As the USDA and Centers for Disease Control and Prevention 
documented in their report ``Making It Happen,'' students will buy and 
consume healthful beverages--and schools can make money from selling 
healthful options. Of 17 schools and school districts they surveyed 
that tracked income after switching to healthier options, 12 increased 
revenue and four reported no change. The one school district that did 
lose revenue in the short term experienced a subsequent revenue 
increase after the study was completed.
    School beverage vending contracts raise only a comparatively small 
amount of funds. District contract revenues amount to less than half a 
percent of annual district per-student spending. Also, most of the 
money generated from school vending contracts comes from the pockets of 
students and their parents. Through vending contracts, soft drink 
companies gain exclusive advertising rights to promote and increase the 
sale of products in schools.
    In closing, Jayni and I would like to encourage school districts 
across the country to continue to strengthen their wellness plans. In 
addition, we urge Congress to strengthen the national nutrition 
standards for foods and beverages sold out of vending machines, school 
stores, and a la carte in schools by passing Representative Woolsey's 
bill. The health crisis posed by the childhood obesity epidemic 
deserves all of our best efforts and attention. Thank you.
                                 ______
                                 
    Chairwoman McCarthy. I thank you for your testimony.
    Dr. Marks?

 STATEMENT OF JAMES S. MARKS, M.D., MPH, SENIOR VICE PRESIDENT 
   AND DIRECTOR, ROBERT WOOD JOHNSON FOUNDATION HEALTH GROUP

    Dr. Marks. Thank you, Madam Chair and other members of the 
subcommittee, for the opportunity to testify this afternoon.
    The Robert Wood Johnson Foundation has committed $500 
million over the next 5 years in an effort to reverse the 
childhood obesity epidemic by 2015, only 8 years away.
    We will focus on improving access to affordable, healthy 
foods and opportunities for safe physical activity in schools 
and communities. Our goal is to reach the children at greatest 
risk for obesity across the nation.
    We have already heard that childhood obesity is one of the 
most pressing threats to the physical health of our country and 
our children. It truly is an epidemic.
    It is also an enormous fiscal and financial threat. In 
addition to the diabetes that we have already heard about, 
children are also at higher risk for heart disease, stroke and 
several forms of cancer as they age.
    These diseases and their costs are a debt that we will have 
to pay as a nation in the near future.
    The current direct and indirect costs associated with 
obesity in the U.S. are already estimated at $117 billion 
annually, and growing substantially each year.
    As a nation, we simply can't afford to continue to hope 
that more expensive treatment and more intensive technology is 
the way to solve our medical problems.
    What has caused the epidemic? As a society, we have 
dramatically altered the way we live, learn, eat, work and 
play. A generation ago, most children walked or biked to 
school. Today, only about 10 percent do.
    A generation ago, most schools required daily physical 
education. Today, less than 10 percent do.
    A generation ago, most kids went out to play games. Today, 
playing a game means on a video screen. And as we have heard, 
they are eating more unhealthy food in ever-larger portion 
sizes.
    How do we reverse this epidemic? Schools are a central and 
critical place to start. Many kids, especially of low income, 
consume most of their calories at school and spend the majority 
of their waking hours there.
    We need policies that make the types of foods and beverages 
offered much healthier and greatly limit the access to soda and 
junk food and that promote physical activity for students.
    In my written testimony, I have described several of the 
foundation's supported initiatives in schools and communities 
but I can only touch on them briefly here.
    Congresswoman Woolsey described her experience with the 
Alliance for a Healthier Generation's Healthy Schools Program, 
which is working to improve nutrition and physical activity in 
schools.
    To date, the program has reached nearly 500,000 children in 
about 900 schools. You have heard about the hands-on assistance 
and support. We hope to expand its reach even further in coming 
years.
    How do we know that strengthening school policies will 
work? In fact, we are already seeing signs of progress.
    In 2003, several years before the federal-level support, 
Arkansas passed a comprehensive law to address childhood 
obesity through school changes like those we are discussing 
here.
    An analysis that we funded of the Arkansas body mass index 
data found that in just 3 years, Arkansas halted the 
progression of the childhood obesity epidemic in that state.
    We hope to see similar comprehensive efforts take hold 
across the country and that you as policymakers would provide 
the support to help make that happen.
    We know schools don't exist in silos, and we must consider 
the communities in which the children and families live, and we 
are also supporting community programs to bring healthy foods 
in grocery stores, especially, back to low-income communities 
where they are often not available.
    What else can government do? As the Institute of Medicine 
pointed out last year, our nation's efforts to prevent 
childhood obesity have been too small, too slow and too 
fragmented. Missing is a sense of national urgency.
    To put it more bluntly, as the problem has grown, our 
federal resources have shrunk. In recent years, funding for a 
number of CDC prevention programs and other similar efforts 
have been cut dramatically or limited.
    Although as a foundation we are committing $500 million to 
fight this epidemic, those cuts are cumulatively larger than 
our $500 million contribution. There is no way philanthropy can 
replace what government can and should do.
    For example, at CDC the highly effective VERB media 
campaign, which reached millions of children and encouraged 
them to be, and was successful in getting them to be, 
physically active, was cut to zero last year.
    The Steps Community Grants from CDC aimed at communities to 
prevent obesity and diabetes, is slated for a nearly 50 percent 
cut this year. We are moving in the wrong direction.
    When I visited Texas in the past, I heard a saying used 
that a person was all hat and no cattle, meaning all talk and 
no action. We can't succeed if that criticism can be leveled at 
our government.
    We need action that only government can provide. 
Congresswoman Woolsey's bill is a big step in the right 
direction, but only a step.
    And Congress could take another step as it considers 
reauthorization of No Child Left Behind. We urge you to put 
physical education back into schools.
    It has taken us over 30 years for this epidemic to occur 
and for us to begin to grapple with it. And it will take years, 
and many steps, to reverse it.
    We also know that this problem will require the efforts 
from the private sector, state and local level government, 
community groups, and from parents and families.
    There is an African proverb that says the best time to 
plant a tree is 20 years ago. The second best time is now.
    Twenty or 30 years ago was the best time to address this 
childhood obesity epidemic, when we could have prevented it. 
Now we must, all of us, work hard to reverse it. But this is 
the second best time.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Marks follows:]

Prepared Statement of James S. Marks, M.D., MPH, Senior Vice President 
       and Director, Robert Wood Johnson Foundation Health Group

    I want to start by thanking the Chair and the other members of the 
Subcommittee for the opportunity to testify. I applaud your efforts to 
create policies and programs to promote healthy communities, especially 
for our children, and I would like to thank you for creating this forum 
to discuss school wellness policies and their role in reversing the 
childhood obesity epidemic.
    I'd also like to take this opportunity to commend you and your 
colleagues in Congress for requiring all schools to have wellness 
policies in place by this--the 2006/2007--school year. Over the years, 
Congress consistently has recognized that schools are not just places 
where children learn the basics and how to think critically and lead, 
but also places where we must foster the health that permits them to 
learn. School breakfast and lunch programs and school-based health 
clinics--which our Foundation has long supported--are key examples of 
deep congressional interest and foresight. More recently, critical 
nutrition provisions in the Head Start Act continue on this path.
    As the nation's largest philanthropy devoted to improving health 
and health care, the Robert Wood Johnson Foundation (RWJF) shares your 
commitment to improving the health and well-being of our communities. 
Our goal is to reverse the childhood obesity epidemic by 2015. In fact, 
we recently announced a commitment of at least $500 million over the 
next five years to tackle this problem. We're pleased that this 
Subcommittee and your colleagues in Congress recognize the depth of the 
challenge and are seeking to develop policies that will help turn back 
the tide.
    RWJF's approach is direct and practical:
    <bullet> Make the case--with solid research and objective 
evidence--for the problem, what works to roll it back and what doesn't.
    <bullet> Widely apply the most promising and effective models--both 
as a firewall against the epidemic's further spread and as a means to 
turn things around.
    <bullet> Educate and motivate leaders to foster large-scale change 
in the communities for which they have responsibility.
    Our commitment will focus on these three areas simultaneously. We 
must act now, based on the best available evidence, while we continue 
to build the best possible evidence about what works. We want to serve 
as a resource to you and to other policy-makers at all levels and to 
inform the nation's collective efforts.
    As we forge ahead, RWJF will focus on improving access to 
affordable healthy foods and opportunities for safe physical activity 
in schools and communities. Our goal is to reach children at greatest 
risk for obesity and related harms, Latino, African-American, Native 
American, Asian American and Pacific Islander children living in lower-
income communities.
    To that end, we will support efforts to expand school-based 
programs and help states and communities coordinate their efforts, 
advocate for change, and evaluate impact. We also will encourage food 
and beverage companies to offer healthier products and change their 
marketing practices.
    The task at hand is daunting, and we're not taking it on alone. 
Many partners, organizations and funders already have joined forces. 
And many more are needed still. We hope RWJF's investment will serve as 
a call to action, catalyzing additional efforts and funding support to 
build the evidence, spread best practices and install effective public 
policies that will promote wide-scale change in kids' nutrition and 
physical activity levels.
    In particular, RWJF is collaborating with the National Institutes 
of Health, the Centers for Disease Control and Prevention, the United 
States Department of Agriculture (USDA) and other agencies to prevent 
childhood obesity and develop real measures of progress. We urge you to 
provide these agencies with adequate resources to support these 
efforts.
    As you well know, childhood obesity is one of the most pressing 
threats facing our nation. It threatens the physical and financial 
health of our country--well beyond our current capacity to respond. I'm 
not going to review all of the alarming statistics, but I will give you 
a brief snapshot. Is it truly an epidemic? Absolutely!
    <bullet> Over the past four decades, obesity rates have skyrocketed 
among children of all ages, increasing nearly fivefold among children 
ages 6 to 11.
    <bullet> Today, one-third of our children and adolescents are obese 
or overweight--that's about 25 million kids.
    <bullet> America's adolescents are now the most obese teenagers in 
the world.
    <bullet> An obese teenager's risk of becoming an obese adult is as 
high as 80 percent.
    What do these numbers mean for the health of our children? Obese 
children are at much higher risk for terribly debilitating chronic 
conditions like type 2 diabetes and high blood pressure. Just a short 
time ago, these were considered ``adult'' illnesses. Besides diabetes, 
serious illnesses related to obesity include many of the top 10 causes 
of death--heart disease; stroke; breast, colon and kidney cancers--plus 
musculoskeletal disorders and gall bladder disease. It's as if millions 
of our kids have their medical charts for adult chronic care prepared 
in advance, just waiting for them to come of age and mature into obese 
and sick seniors.
    Financially, the prospects are equally foreboding. The direct and 
indirect health costs associated with obesity in the U.S. are estimated 
at $117 billion annually--and escalating. We can't afford to continue 
down our current path. What we need is less disease than we have now.
    What has caused the childhood obesity epidemic? The reality is that 
our environments have changed dramatically. In recent years, our 
society has altered the way we live, eat, work and play. One immediate 
example: a generation ago, nearly half of all school-age children 
walked or biked to school. Today, nearly nine out of 10 kids catch a 
ride to school. And once at school, kids aren't very physically 
active--less than 10 percent of elementary schools require daily 
physical education.
    At the same time, children are eating more unhealthy processed 
foods in larger-than-ever portion sizes. More than 80 percent of 
children and adolescents eat too much total fat. In recent decades, 
spending at fast-food restaurants has increased eighteen-fold, and 
serving size and caloric content for menu items like French fries and 
soda have increased nearly 50 percent. Children consume these high-
calorie, low-nutrient foods not only in restaurants, but also at home 
and in school.
    As awareness of childhood obesity has grown, so, too, has our 
understanding of the many factors that contribute to the epidemic and 
what we'll need to do to reverse it. While individual choice and 
behavior are important, the world we live in plays a big role, too. As 
a nation, we must focus on more than just personal responsibility. We 
must address the social and environmental factors that contribute to 
our nation's weight problem. The default settings that surround our 
kids should make it easier--not harder--for them to eat well and move 
more.
    Schools are a central place to start. They play a vital role in 
shaping children's behaviors and life-long habits. Today, children 
consume an estimated 35 to 50 percent of their daily calories in 
school. And children from low-income families likely consume an even 
larger percentage of their calories there since they often rely on the 
National School Breakfast and Lunch Programs. Bottom line: it is 
crucial that schools offer easy access to affordable, healthy, and 
appealing foods and beverages.
    We know the critical steps that can and must be taken to improve 
school wellness. We can start by developing policies to improve the 
types of foods and beverages offered, restrict access to soda and junk 
food, and promote more physical activity for students.
    RWJF's three major research initiatives in childhood obesity--
Active Living Research, Healthy Eating Research and Bridging the Gap--
are exploring the impact of school wellness policies and comparing 
their relative effectiveness versus state-level legislation and 
regulation. A fourth major program, Leadership for Healthy Communities, 
works directly with policy-making organizations, like the National 
Governors Association, National Conference of State Legislatures and 
the U.S. Conference of Mayors, to convey what we're learning about the 
most effective approaches so the members of these groups are armed to 
do what they must as civic leaders.
    RWJF also supports the Alliance for Healthier Generation's Healthy 
Schools Program. The Alliance, a joint initiative of the American Heart 
Association and the William J. Clinton Foundation, is working to 
implement stronger policies for nutrition, physical activity and staff 
wellness in schools. In its first year, the Healthy Schools Program is 
providing hands-on assistance to 230 pilot schools in 13 states. More 
than 900 schools have signed up to use the program's online tools. To 
date, the program has reached nearly half a million children, and we 
hope to expand its reach even further in coming years. We also are 
carefully evaluating the program's efforts to identify effective 
policies that can be widely replicated.
    How do we know that strengthening school policies will work? We're 
already seeing signs of progress.
    In 2003, Arkansas passed a comprehensive law to address the growing 
epidemic of childhood obesity in public schools across the state. Among 
other things, the law required: a statewide Child Health Advisory 
Committee and local committees at the school level; nutrition 
standards, including things like eliminating access to vending machines 
in all elementary schools; physical education and physical activity 
standards; and body mass index (BMI) measurement of all public school 
students, with confidential child health reports and helpful health 
tips provided to parents. RWJF supported an independent evaluation of 
efforts to implement Act 1220. The Foundation also funded a separate 
initiative to analyze the BMI data for Arkansas public school students. 
The BMI analysis indicated that, in just three years, Arkansas halted 
the progression of the childhood obesity epidemic in the state.
    We hope to see similarly comprehensive efforts take hold across the 
country, and you, as policy-makers, can and should help to make that 
happen.
    While we have made some limited progress in this fight, we still 
have a long way to go. In 2005, RWJF co-sponsored an Institute of 
Medicine (IOM) report titled Preventing Childhood Obesity: Health in 
the Balance. The report provided a comprehensive roadmap for national 
action, calling on federal, state and local governments to provide the 
leadership and resources for a sustained effort to prevent childhood 
obesity. Among its recommendations, the committee urged the USDA to 
develop nutritional standards for competitive foods and beverages 
available in schools. We have yet to see that happen. We urge Congress 
to see that it does.
    RWJF was the sole sponsor of a more recent IOM report, Progress in 
Preventing Childhood Obesity: How Do We Measure Up? That follow-up 
report highlights how we, as a nation, are still not moving quickly 
enough. Efforts are often small in scale, fragmented, under-funded and 
not adequately evaluated. When it comes to measuring up--without 
sufficient leadership from policy-makers--we will continue to fall far 
short.
    There is no question that personal behavior is important. But 
government policies, implemented at all levels, often determine the 
choices in front of us in our daily lives, and this choice-setting has 
a huge impact on behavior, including health behavior.
    The tide will not turn on this epidemic until the effort is 
energetically and strategically embraced with the full force of a 
responsive government and motivated elected leaders. But it's not as if 
we expect you to get there alone. This effort will require partnership 
with industry, the best efforts of schools, and the on-the-ground 
energies of non-governmental agencies, community groups and hometown 
leaders.
    Clearly, states need to do more, but the federal government cannot 
sit on the sidelines. Public policies help shape food environments for 
children, as well as environments for physical activity. The Federal 
government demonstrated vision and leadership by implementing the Safe 
Routes to Schools Program, a federally funded program designed to 
create safe, convenient and fun opportunities for children to walk and 
bicycle to and from schools. The Foundation is supporting this effort, 
but we need a sustained commitment and ongoing support from the Federal 
government to ensure that innovative programs like Safe Routes to 
School continue and expand.
    While primarily outside this committee's jurisdiction, we must also 
look at our agricultural policies, and nutrition and food assistance 
programs affecting child nutrition. We need to examine everything from 
how food prices impact consumption to how commodity prices influence 
what's sold, served and marketed to children. The Federal government is 
responsible for the National School Breakfast and Lunch Programs, as 
well as the Summer Food Service Program. By investing in child 
nutrition programs that promote rather than hinder health, our federal 
government can help children and their families eat healthier and 
prevent obesity, while also realizing enormous potential savings in 
averted healthcare and environmental costs. We urge that agricultural 
policies, in particular, must be realigned to help make the American 
diet consistent with the 2005 Dietary Guidelines, while supporting 
broader public health goals of preventing disease and obesity.
    In closing, I would again like to thank the committee for the 
opportunity to testify on this critical issue. While philanthropy can 
foster national dialogue, and pursue and test new ideas, it is the 
federal government that has the power and the resources to spur large-
scale change.
    If we do not act now to reverse the alarming trend of childhood 
obesity, we are in danger of raising the first generation of American 
children who will live sicker and die younger than the generation 
before them. By working to prevent obesity in childhood, we can reduce 
disease and illness, save countless dollars, spare millions of 
Americans from needless suffering, and ensure that our children have a 
promising future.
    We already know how to change behavior to save lives. Through 
education, advocacy, leadership and good public policy, we've reduced 
drunk driving and protected millions of Americans from the harm of 
tobacco. And it's hard to imagine getting behind the wheel of a car 
today without buckling up. These success stories provide examples of 
how a national commitment to policy and social change can transform 
individual behavior.
    With childhood obesity, past efforts have been too small, too slow 
and too fragmented--a jumble of unconnected state, school, community, 
business and philanthropic efforts. Missing is a sense of national 
urgency to act and the resources to help communities, states and the 
nation coordinate efforts, advocate for change and evaluate impact.
    There is an African proverb that says, ``The best time to plant a 
tree is 20 years ago. The second best time is now.'' Twenty or 30 years 
ago was the best time to address this epidemic--when we could have 
prevented it. Now we must work hard to reverse it.
    And it will be hard, but delay is something our nation and children 
can't afford. That is why our Foundation made the biggest commitment in 
our history. But we know it won't be enough without leadership from our 
government at all levels, and from education, public health and 
industry.
    We look forward to working with you. We can't afford to wait. To 
wait is to fail our current generation of children. We must make a 
difference in their lifetime.
                                 ______
                                 
    Chairwoman McCarthy. Thank you for your testimony.
    Dr. Stallings?

  STATEMENT OF VIRGINIA A. STALLINGS, M.D., JAMES A. CORTNER 
   ENDOWED CHAIR IN PEDIATRIC GASTROENTEROLOGY, PROFESSOR OF 
  PEDIATRICS, UNIVERSITY OF PENNSYLVANIA SCHOOL OF MEDICINE, 
  DIVISION OF GASTROENTEROLOGY AND NUTRITION, THE CHILDREN'S 
                    HOSPITAL OF PHILADELPHIA

    Dr. Stallings. Good afternoon. My name is Virginia 
Stallings. I am a pediatrician and director of the nutrition 
center at the Children's Hospital of Philadelphia.
    I had the honor of serving as chair of the Committee on 
Nutrition Standards for Foods in Schools of the Institute of 
Medicine.
    In 2005, Congress directed the Centers for Disease Control 
and Prevention to undertake a study with the Institute of 
Medicine to review the evidence and make recommendations about 
appropriate nutrition standards for the availability, sale, 
concept, consumption of foods and beverages that are offered 
outside the federally funded reimbursable school meal and snack 
program.
    The need for such a standard was simple. While the federal 
school meals meet some nutritional guidelines, the competitive 
foods and beverages are not necessarily required to conform to 
any nutritional or health standards, except for the very 
limited USDA requirements disallowing foods of minimal 
nutritional value during the meal periods.
    To begin the process, the committee developed a set of 
guiding principles that would result in creation of healthful 
environment for children in U.S. schools and to guide the 
deliberations for the development of the standards.
    The guiding principles are listed in detail in Annex 1 of 
my written testimony.
    The committee also reviewed pertinent scientific evidence 
and was guided by the 2005 dietary guidelines for Americans.
    Using the dietary guidelines and the scientific data 
describing the dietary intake of school-age children, the 
committee identified that fruits, vegetables, whole grains and 
low-fat dairy foods are the foods that need to be increased.
    Then these foods and beverages should be encouraged if the 
school decides to have a program offering competitive foods and 
beverages.
    For the issue of calorie portion size, the committee 
considered the fact that once a healthful breakfast and lunch 
are consumed, for many children there are relatively few 
calories remaining for snacking.
    The committee also considered the efficiency and simplicity 
of a system with one maximum portion control for the school 
setting to encourage industry to develop a variety of healthful 
foods and beverages.
    The committee then organized competitive foods and 
beverages in schools into two tiers according to their 
consistency with the guiding principles.
    Tier 1 foods and beverages are those foods to be 
encouraged. They are a serving of fresh or minimally processed 
foods such as apples, carrot sticks, raisins, 1 percent skim 
milk and some multigrain chips and snack bars, yogurt.
    Tier 2 are foods and beverages that differ from Tier 1 in 
that they do not necessarily offer a full serving of a fruit, 
vegetable, whole grain or nonfat dairy, but they do continue to 
meet other nutrition criteria.
    Tier 2 foods include things such as baked potato chips, 
low-sodium whole wheat crackers, animal crackers and other 
products.
    Tier 2 beverages are non-caffeinated and non-fortified 
beverages with less than 5 calories per serving, and they may 
or may not be artificially sweetened, or carbonated, or have 
flavoring.
    The committee's standards are intended to ensure that 
competitive snacks, foods and beverages complement the school 
lunch and breakfast meals, and they contribute to developing a 
lifelong healthy eating pattern.
    Together, the guiding principles and the two tiers form the 
basis of the committee's recommendation for nutrition standards 
for competitive foods.
    These standards have two objectives, one to encourage the 
consumption of healthful foods and beverages, and the other to 
limit consumption of dietary components that are not optimal 
for the health or diet of school-age children.
    In the interest of time, I am not going to go through the 
details. I think you can find those in our written statement.
    But you will see that they are in relation to the food 
contents related to fat, sodium and added sugar, and then that 
there are some very specific recommendations related to time of 
day.
    Tier 1 foods, which are those that offer a serving of 
fruits, vegetables, whole grain and low-fat dairy, are offered 
to all children of all ages during the school day.
    Tier 2 foods are really offered only to high-school-age 
students after the school day.
    The committee also made recommendations for actions to 
implement the nutrition standards, and these are discussed in 
our Chapter 6.
    In conclusion, the traditional school breakfast and lunch 
nutrition programs are to ensure that children have access to 
healthy foods. These programs are the main source of nutrition 
provided at schools.
    However, when the opportunity arises for students to select 
competitive snack foods and beverages, it should be from items 
that will increase the consumption of fruits, vegetables, whole 
grains and nonfat or low-fat dairy.
    The recommendations from the committee ensure that 
competitive fruits and beverages are consistent with the 
dietary guidelines and encourage children and adolescents to 
develop lifelong healthy eating patterns.
    Thank you, Madam Chairman.
    [The statement of Dr. Stallings follows:]

    Prepared Statement of Virginia A. Stallings, M.D. Professor of 
       Pediatrics, University of Pennsylvania School of Medicine

    Good morning, Madame Chair and members of the Committee. My name is 
Dr. Virginia Stallings. I am a pediatrician, Director of the Nutrition 
Center at the Children's Hospital of Philadelphia, and Professor of 
Pediatrics at the University of Pennsylvania, School of Medicine. I 
served as chair of the Committee on Nutrition Standards for Foods in 
Schools of the Institute of Medicine which produced the report, 
Nutrition Standards for Foods in Schools: Leading the Way Toward 
Healthier Youth. Established in 1970 under the charter of the National 
Academy of Sciences, the Institute of Medicine provides independent, 
objective, evidence-based advice to policymakers, health professionals, 
the private sector, and the public.
    In FY 2005, Congress directed the Centers for Disease Control and 
Prevention to undertake a study with the Institute of Medicine to 
review evidence and make recommendations about appropriate nutrition 
standards for the availability, sale, content, and consumption of foods 
and beverages at school, with attention to those offered outside the 
federally reimbursable meals and snacks. The need for such standards is 
simple: While federal school meals meet some nutrition guidelines, 
these ``competitive'' foods and beverages are not necessarily required 
to conform to any nutritional or health standards except for the very 
limited USDA requirements that no foods of minimal nutritional value 
are allowed during meal periods.
    To begin the process of developing recommendations, the committee 
established a set of Guiding Principles that would result in the 
creation of a healthful eating environment for children in U.S. schools 
and to guide deliberations and development of the standards. The 
Guiding Principles are listed in Annex 1 of my written testimony. The 
committee was guided by the 2005 Dietary Guidelines for Americans 
(DGA), and also reviewed pertinent scientific evidence.
Key Premises
    Using the Dietary Guidelines for Americans and the scientific data 
describing the current dietary intake of school-age children, the 
committee identified fruits, vegetables, whole grains, and low-fat 
dairy as foods and beverages to be encouraged if competitive foods and 
beverages are allowed in the individual school.
    In regard to the issue of calories and portion size, the committee 
considered the fact that once a healthful breakfast and lunch are 
consumed, for many children there are relatively few calories remaining 
for consumption as snacks. The committee also considered the efficiency 
and simplicity of a system with one maximum calorie portion size for 
the school setting, to encourage industry to develop a variety of 
healthful food and beverage products for the school setting.
Hierarchy of Foods
    The committee organized competitive foods and beverages in schools 
into two Tiers, according to the extent of their consistency with the 
Guiding Principles. Tier 1 foods and beverages provide at least one 
serving of ``foods to be encouraged'' as defined in the Guidelines, and 
include fresh or minimally processed foods such as apples, carrot 
sticks, raisins, some multigrain tortilla chips, granola bars, and 
nonfat yogurt with limited added sugars. Tier 1 beverages are 1 percent 
or skim milk, 100 percent fruit or vegetable juices and plain water. 
Tier 2 foods and beverages are different from Tier 1 in that they do 
not necessarily offer a full serving of fruits, vegetables, whole 
grains, or low-fat or nonfat dairy, but they do meet certain nutrient 
criteria. Tier 2 includes foods such as baked potato chips, low-sodium 
whole-wheat crackers, animal cracker cookies, graham crackers, and low-
salt pretzels. Tier 2 beverages are non-caffeinated, non-fortified 
beverages with less than 5 calories per serving and they may or may not 
be artificially sweetened, carbonated, or flavored. Tier 1 foods and 
beverages are offered at all grade levels at all times in the school 
day. Tier 2 foods and beverages are offered only at the high school 
level after the end of the school day.
    The committee's standards are intended to ensure that competitive 
snacks, foods, and beverages complement the school lunch and breakfast 
meals, and that they contribute to the development of lifelong healthy 
eating patterns. Together, the Guiding Principles and the two Tiers 
form the basis of the committee's recommended nutrition standards for 
competitive foods and beverages in schools. These standards have two 
objectives: to encourage consumption of healthful foods and beverages 
and to limit consumption of dietary components that either fall outside 
the recommendations of the Dietary Guidelines or are not optimal for 
the diets or health of school-age children.
Recommended Standards
            Standards for Nutritive Food Components
    The standards contain specified ranges for fat, energy, added 
sugars, and sodium, and are the committee's recommendation based on 
available scientific evidence: Snacks, foods, and beverages meet 
criteria for dietary fat per portion: no more than 35 percent of total 
calories from fat; less than 10 percent of total calories from 
saturated fat; and zero trans fat. Snacks, foods, and beverages provide 
no more than 35 percent of calories from total sugars per portion with 
the exception of: 100 percent fruits and juices and 100 percent 
vegetables and juices, with juice portions being 4-ounce servings for 
elementary and middle schools and 8-ounce servings for high schools; 
unflavored nonfat and low-fat milk and yogurt. Snack or a la carte side 
items are 200 calories or less per portion and a la carte entree items 
do not exceed calorie limits on comparable school meal program items. 
Snack items meet a sodium content limit of 200 mg or less per portion 
or 480 mg or less per entree portion as served a la carte.
            Standards for Nonnutritive Food and Beverage Components
    Beverages containing nonnutritive sweeteners (sugar substitutes) 
are only allowed in high schools after the end of the school day. 
Because of the uncertainties and limitations in evidence, especially 
concerning safety and benefits for weight control, the committee does 
not recommend a standard for sugar substitutes in foods. Foods and 
beverages are caffeine-free, with the exception of trace amounts of 
naturally occurring caffeine-related substances, such as may be present 
in chocolate.
            Standards for the School Day
    Foods and beverages offered during the school day are limited to 
those in Tier 1. Plain, potable water is available throughout the 
school day at no cost to students. Sport drinks are not available in 
the school setting except when provided by the school for student 
athletes participating in sport programs involving vigorous activity of 
more than one hour's duration.
    Foods and beverages are not used as rewards or discipline for 
academic performance or behavior. Marketing of Tier 2 snacks, foods, 
and beverages in the high school setting is minimized by locating Tier 
2 distribution in low student traffic areas and ensuring that the 
exterior of vending machines does not depict commercial products or 
logos or suggest that consumption of items conveys a health or social 
benefit.
            Standards for the After-School Setting
    Tier 1 snack items are allowed after school for student activities 
for elementary and middle schools. Tier 1 and 2 snacks, foods, and 
beverages are allowed after school for high school. For on-campus fund-
raising activities during the school day, Tier 1 foods and beverages 
are allowed for elementary, middle, and high schools; Tier 1 and 2 
foods and beverages are allowed for high schools after school. For 
evening and community activities that include adults and students, Tier 
1 and 2 foods and beverages are encouraged.
    The committee also made recommendations for actions to implement 
the nutrition standards and these are discussed in chapter 6 of the 
report.
Conclusion
    In conclusion, the traditional school nutrition programs ensure 
that students have access to healthful foods. These programs are the 
main source of nutrition provided at school. However, when an 
opportunity arises for students to select competitive snacks, foods, 
and beverages, it should encourage greater consumption of fruits, 
vegetables, whole grains, and nonfat or low-fat dairy products. The 
recommendations from the committee ensure that competitive foods and 
beverages are consistent with the DGA and encourage children and 
adolescents to develop life-long healthful eating patterns.
    Thank you for the opportunity to testify. I would be happy to 
address any questions the Committee might have.
         annex 1: guiding principles and recommended standards
Guiding Principles
    The committee recognizes that:
    1. The present and future health and well-being of school-age 
children are profoundly affected by dietary intake and the maintenance 
of a healthy weight.
    2. Schools contribute to current and life-long health and dietary 
patterns and are uniquely positioned to model and reinforce healthful 
eating behaviors in partnership with parents, teachers, and the broader 
community.
    3. Because all foods and beverages available on the school campus 
represent significant caloric intake, they should be designed to meet 
nutrition standards.
    4. Foods and beverages have health effects beyond those related to 
vitamins, minerals, and other known individual components.
    5. Implementation of nutrition standards for foods and beverages 
offered in schools will likely require clear policies; technical and 
financial support; a monitoring, enforcement, and evaluation program; 
and new food and beverage products.
    The committee intends that:
    6. The federally reimbursable school nutrition programs will be the 
primary source of foods and beverages offered at school.
    7. All foods and beverages offered on the school campus will 
contribute to an overall healthful eating environment.
    8. Nutrition standards will be established for foods and beverages 
offered outside the federally reimbursable school nutrition programs.
    9. The recommended nutrition standards will be based on the Dietary 
Guidelines for Americans, with consideration given to other relevant 
science-based resources.
    10. The nutrition standards will apply to foods and beverages 
offered to all school-age children (generally ages 4 through 18 years) 
with consideration given to the developmental differences between 
children in elementary, middle, and high schools.
Recommended Standards
            Standards for Nutritive Food Components
    Standard 1: Snacks, foods, and beverages meet the following 
criteria for dietary fat per portion as packaged:
    <bullet> No more than 35 percent of total calories from fat;
    <bullet> Less than 10 percent of total calories from saturated 
fats; and
    <bullet> Zero trans fat. Standard 2: Snacks, foods, and beverages 
provide no more than 35 percent of calories from total sugars per 
portion as packaged.
    Exceptions include:
    <bullet> 100-percent fruits and fruit juices in all forms without 
added sugars;
    <bullet> 100-percent vegetables and vegetable juices without added 
sugars; and
    <bullet> Unflavored nonfat and low-fat milk and yogurt; flavored 
nonfat and low-fat milk with no more than 22 grams of total sugars per 
8-ounce serving; and flavored nonfat and low-fat yogurt with no more 
than 30 grams of total sugars per 8-ounce serving.
    Standard 3: Snack items are 200 calories or less per portion as 
packaged and a la carte entree items do not exceed calorie limits on 
comparable NSLP items. Standard 4: Snack items meet a sodium content 
limit of 200 mg or less per portion as packaged or 480 mg or less per 
entree portion as served for a la carte.
            Standards for Nonnutritive Food Components
    Standard 5: Beverages containing nonnutritive sweeteners are only 
allowed in high schools after the end of the school day. Standard 6: 
Foods and beverages are caffeine free, with the exception of trace 
amounts of naturally occurring caffeine-related substances.
            Standards for the School Day
    Standard 7: Foods and beverages offered during the school day are 
limited to those in Tier 1. Standard 8: Plain, potable water is 
available throughout the school day at no cost to students. Standard 9: 
Sports drinks are not available in the school setting except when 
provided by the school for student athletes participating in sport 
programs involving vigorous activity of more than 1 hour's duration. 
Standard 10: Foods and beverages are not used as rewards or discipline 
for academic performance or behavior. Standard 11: Minimize marketing 
of Tier 2 foods and beverages in the high school setting by:
    <bullet> Locating Tier 2 food and beverage distribution in low 
student traffic areas; and
    <bullet> Ensuring that the exterior of vending machines does not 
depict commercial products or logos or suggest that consumption of 
vended items conveys a health or social benefit.
            Standards for the After-School Setting
    Standard 12: Tier 1 snack items are allowed after school for 
student activities for elementary and middle schools. Tier 1 and 2 
snacks are allowed after school for high school. Standard 13: For on-
campus fundraising activities during the school day, Tier 1 foods and 
beverages are allowed for elementary, middle, and high schools. Tier 2 
foods and beverages are allowed for high schools after school. For 
evening and community activities that include adults, Tier 1 and 2 
foods and beverages are encouraged.
            Actions for the Implementation of Nutrition Standards in 
                    Schools
    Action 1: Appropriate policy-making bodies ensure that 
recommendations are fully adopted by providing:
    <bullet> Regulatory guidance to federal, state, and local 
authorities;
    <bullet> Designated responsibility for overall coordination and 
oversight to federal, state, and local authorities; and
    <bullet> Performance-based guidelines and technical and financial 
support to schools or
    school districts, as needed. Action 2: Appropriate federal agencies 
engage with the food industry to:
    <bullet> Establish a user-friendly identification system for Tier 1 
and 2 snacks, foods, and beverages that meet the standards per portion 
as packaged; and
    <bullet> Provide specific guidance for whole-grain products and 
combination products that contain fruits, vegetables, and whole grains.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Converse?

      STATEMENT OF CHANDLER CONVERSE, HIGH SCHOOL STUDENT

    Ms. Converse. Good afternoon, Madam Chairwoman and members. 
My name is Chandler Converse. I am 15 years old, and I am a 
freshman at Pebblebrook High School in Cobb County, Georgia. As 
a public school student, a young woman and an American citizen, 
I am honored to be speaking to you today.
    I am here on behalf of all of America's children. You see, 
I believe that kids have a voice.
    Since I began own grassroots student fitness initiative in 
2004, I have been trying to encourage everyone to take 
seriously the health and well-being of this country's youth.
    I call my initiative AKA, Athletics Plus Kids Equals 
Academic. The link I am trying to get policymakers to see is 
simple, that increased physical activity, even 30 minutes a 
day, and better nutrition can lead to increased energy, 
improved self-confidence, better sleep, less absenteeism, and, 
yes, we do better on tests, too.
    I have done my homework on this. I have spoken with my 
peers, and this may sound surprising. I found that most 
students want more exercise.
    But for most American students, the children of working 
families, for latchkey kids and others, school is the only 
place they have for exercise.
    I have also spoken with many of our nation's leading health 
and education experts, elected officials and the media. I have 
told them all that childhood obesity often leads to life-
threatening illnesses like heart disease, cancer, diabetes and 
depression.
    I have written to most of my state's 181 school 
superintendents. I have convinced the principals in my school 
to switch some of the junk food in vending machines to 
healthier choices. And I have served on my school district's 
wellness policy committee.
    All of the above is a start, but it is not enough, as you 
will hear. During the course of the planning process during the 
last school year, I heard comment upon comment from 
administrators on the committee, ``We don't have the time or 
the money to add more P.E. classes, or to build a track or a 
new playground. We need to get our test scores up.''
    I also heard that many schools believe they will lose money 
if they lose their vending machines.
    I ended up being the only member to attend off-site policy 
training workshops. I became the only member to address the 
first administrative training workshop in our district last 
October.
    We developed our policy by last summer's deadline. It 
includes a recommendation for 30 minutes of exercise a few 
times a week for students. Since that time, I have heard very 
little about our wellness policy.
    I have found that most students and teachers in many parts 
of the country are completely unaware that schools have 
wellness policies.
    For example, last November, as I addressed the state 
educators' conference, I asked how many in the room knew that 
their schools had new wellness policies. I asked for a show of 
hands. I was amazed to see that from a room of 40 physical 
education teachers only two hands were raised.
    While there are some schools across the country which have 
made positive changes, I believe the situation I have just 
described is representative of what is really going on.
    Let's face it. Just like in traditional school cafeteria 
food, it is hard to find the real meat in existing school 
wellness policies.
    The longest lines in my school cafeteria are for pizza and 
french fries. I still see students spending their lunch money 
on ice cream and soda. As a kid, I know that if healthy foods 
were made available that my peers would line up for them.
    My generation may be the first one to have a shorter life 
expectancy than our parents. How can a nation that has prided 
itself on medical research which extends the lives of its 
citizens allow the reverse to happen with its children?
    My goodness. As children, we must learn everything. But 
while we are learning reading, writing and arithmetic, please 
teach us how to lead healthy lives, too.
    I understand that this is not a quick fix. However, it took 
40 years to get effective tobacco legislation passed. My 
generation does not have 40 years.
    In 3 short years, I will be voting. [Laughter.]
    My generation is going to lead this country one day, soon. 
America cannot be strong if it does not have strong, healthy, 
self-confident citizens, both adults and children.
    I believe kids have a voice. Please make the wellness 
policy stronger at the federal level so that all schools must 
comply. That way, kids will receive enough exercise to fill our 
lungs, to raise our voices.
    Kids do have a voice, and I thank you for listening to 
mine.
    [The statement of Ms. Converse follows:]

      Prepared Statement of Chandler Converse, High School Student

    Good afternoon Madam Chairwoman and other Members of Congress.
    My name is Chandler Converse. I am a freshman at Pebblebrook High 
School in Cobb County, Georgia. As a public school student, a young 
woman, and especially, as an American, I am honored to be speaking to 
you today.
    I am here to briefly offer the youth perspective on an issue that 
won't quickly go away--a very real crisis for my generation--the 
epidemic of childhood obesity in the United States.
    Last August, when I entered high school for the first time, the 
School Wellness Policy (required under the Child Reauthorization Act of 
2004) was implemented for the first time. I was perhaps more aware than 
many of my peers, that the Policy was to take effect at the opening 
bell of the 2006-2007 school year--I am a person who helped to develop 
that same Policy.
    As the student representative on my school district's Wellness 
Policy Committee, I looked forward to what I had anticipated to be an 
exciting new change, stemming from something for which I had worked so 
hard. However; when no official announcement of a new School Wellness 
Policy was made to students, I quickly discovered there perhaps was not 
much to become excited about.
    Not only had most students been unaware of the newly developed 
guideline, I was astonished to witness evidence of the same oblivion at 
a physical education conference a few months later (November 2006). 
When I asked how many had heard that their various schools had a School 
Wellness Policy--only two hands in a room filled with 40 physical 
education teachers were raised!
    I had been invited to serve--and still serve--on the Committee 
following news of the grass-roots initiative I had launched in 2004 to 
encourage schools to reinstate more physical education into the school 
day and to offer more nutritious food in school cafeterias and vending 
machines. I had begun the project I call ``A.K.A.'' (Athletics plus 
Kids equals Academics) because the link that I am trying to get 
educators, law makers, parents and health leaders to see is this: That 
increased physical activity (even 30 minutes a day) and better 
nutrition can, among other benefits, increase energy, selfconfidence--
possibly even test scores.
    I had been informed in middle school that because (and I quote), 
``there is no room in the school day for a full year of Phys Ed,'' (end 
quote) my fellow classmates and I only would be permitted one, nine-
week grading period for Physical Education during the entire school 
year. Most of the students had very busy academic schedules and no 
matter how much I wanted a full school year of quality P.E.; I decided 
to try to evoke change through the system.
    I am a runner. I like the energized feeling I get coming out of 
exercise and going into class. I believe that I am more alert because 
my circulation has increased and there is fresh oxygen in my brain.
    I began talking with other students, health professionals and more 
teachers. I've seen too many school lunch periods in which the longest 
lines are for the pizza, chicken wings and French fries. I've seen too 
many days in which students buy ice cream and chips instead of bringing 
a healthy lunch. This is a nationwide problem--it is not just my school 
district.
    I decided to try to take my concerns and ideas for improvement 
before my district school board. I was not certain that a child would 
be permitted to speak to the board, but my mother agreed to take me to 
the next school board meeting and I did have the opportunity to address 
its members. I told them about the increased risk for children 
regarding life-threatening diseases like diabetes, heart disease and 
mental illness that are directly linked to overweight and obesity.
    I told them that my generation may easily be the first to have a 
shorter life expectancy than our parents.
    These are facts--supported by almost every major health 
organization in the United States, former and deputy Surgeons General, 
and leadership in the Department of Health and Human Services, among 
others.
    These facts are scary. It's going to take the adults of today--and 
possibly those of my generation--to stop the epidemic. This is not a 
quick fix--but it must begin now.
    As a student, I am doing my best to try to understand the delay on 
the part of some schools, but it is difficult. I became the committee 
member that attended state and regional Wellness Policy teleconferences 
and other meetings and brought back reports to the committee. I was the 
member who addressed the first Wellness Policy Administrative Training 
for our district last October. Since then, I've heard very little about 
enforcement of the policy.
    During the course of the Wellness Policy planning meetings I heard 
comments such as, ``We don't have time for recess. We don't have room 
or the money to add more classes or build a track or a playground--we 
need to get our test scores up.'' I must share with you that I came 
away from many meetings thinking, ``They just don't get it. As 
students, we can sit still in class and be taught all of the core 
subjects in the world, but if we are not healthy enough to enjoy our 
lives, we can't be all that we can be.''
    I need to convey very strongly that the bureaucracy surrounding 
this crisis not only is chipping away at our health, it's chipping away 
at our dreams.
    I realize that the federal government has not dictated much to 
local school systems in the past, but the children of today cannot wait 
for state legislatures and individual school districts to hash out what 
should be obvious.
    There is hope: my principals have agreed to replace some of the 
vending machine junk food with healthier snacks and my school 
superintendent appears to be a supporter of the Wellness Policy. Yet--
like most traditional school cafeterias, most School Wellness Policies 
do not have enough REAL meat!
    I have lots of ideas for improvement: I propose a national 
corporate and education summit during which schools, cafeteria vendors, 
soft drink and snack food companies could come together to improve the 
health of students and still allow for additional revenue for schools. 
I suggest smaller improvements such as opening school gyms a few 
evenings a week so that communities and families can come together for 
fitness in a fun and safe environment. ``Brown Bag Lunch Days'' to 
educate students, teachers and parents is another small idea, but it 
could help make students more aware of good nutrition.
    I believe that kids have a voice. I am using my voice on behalf of 
America's children to encourage everyone to take seriously, the well-
being of this country's children. I have written to almost all of 
Georgia's 181 school superintendents. I have taken my words to health 
policy conferences, the media, state houses, and Capitol Hill.
    I am calling upon educators, health leaders and policy makers. I 
also am issuing a challenge to the parents of America: We don't raise 
ourselves! We need your guidance and your good example. Take a good 
look at your children. Those not old enough to command the steering 
wheel of a car certainly cannot drive themselves to the fast food 
joint!
    We are your children! We are the products of our parents, our 
schools and our nation! While we are little, while we are growing, 
while we are in your care, we can only be as healthy as you allow us to 
be.
    My generation is going to lead this country one day--soon. America 
cannot be strong if it doesn't have strong, healthy, intelligent, and 
self-confident citizens--adults and children.
    I believe that kids have a voice. Please make the Wellness Policies 
strong at the federal level so that school systems must comply. That 
way, kids will receive enough exercise in the safe environment they 
deserve. We will receive enough exercise to fill our lungs to raise our 
voices.
    Yes, kids do have a voice.
    I thank you for listening to mine.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, and young people do have a 
voice. Unfortunately, nobody listens.
    Ms. Howley?

STATEMENT OF NORA L. HOWLEY, INTERIM EXECUTIVE DIRECTOR, ACTION 
                        FOR HEALTHY KIDS

    Ms. Howley. Yes, good afternoon. My name is Nora Howley. I 
am the interim executive director of Action for Healthy Kids. I 
want to thank the chair and the members of the committee for 
this opportunity to testify, and we have provided a written 
statement.
    Action for Healthy Kids is a national organization with 
over 9,000 volunteers in every state and the District of 
Columbia. We also have 60 national partner organizations who 
work with us.
    Former Surgeon General David Satcher served as our founding 
chair and still serves on our board of directors. And since our 
founding at the 2002 Healthy Schools Summit, we have worked to 
create systemic, sustainable changes of sound nutrition and 
good physical activity in all schools.
    In other words, we have worked to implement the surgeon 
general's call to action to prevent overweight and obesity.
    Since the mandate for local school wellness policies was 
passed in 2004, our volunteer team members have worked at the 
state, district and building level to support schools in the 
development and now in the implementation of good policies that 
put into practice the call to action and ensure that families 
and communities are engaged in creating and sustaining these 
changes.
    Local wellness policies are part of an effort that includes 
federal, state and local action and are critical catalysts for 
creating or expanding links with other community agencies and 
organizations to create healthy communities for all.
    Four things stand out about the mandate. One, it recognizes 
the critical roles that schools can and should play in creating 
comprehensive approaches.
    Second, the policy mandate recognizes that both sound 
nutrition and physical activity are necessary to address this 
epidemic.
    Third, the requirement that districts establish committees 
that include parents, students, school food personnel, school 
administrators, school board members and the community, as well 
as any other who will be affected, is an important part of 
creating springboards for sustained implementation.
    The final item, though, that stands out is the fact that 
the requirement came with no financial support. Some of the 
necessary changes will be easy and low-cost, but others will 
take resources.
    Action for Healthy Kids has worked with our partners, 
including the Centers for Disease Control and the U.S. 
Department of Agriculture, to provide a variety of resources 
and supports for our volunteers and others to use.
    This includes our wellness policy tool, a variety of 
publications, ongoing technical assistance and phone symposia, 
as well as a small grant program to our volunteers.
    CDC-supported resources, such as the school health index, 
and USDA-supported resources, such as Changing the Scene, have 
been part of the efforts of may districts nationwide, and we 
know they have been a critical part of their efforts to create 
these changes.
    As we look at this first year of policy implementation, we 
are heartened by a number of things. First, in our review of a 
sample of enacted policies, we found that most of the policies 
actually included the mandatory areas of nutrition education, 
nutrition standards, physical activity and monitoring and 
evaluation.
    In addition, many of the policies went beyond those minimal 
mandates to address critical and fundamental areas, including 
the provision of physical education.
    However, the contents of the policy are only the first 
step. For these policies to achieve their potential, they must 
be implemented. And here, we do have some causes for concern.
    While 73 percent of the policies we looked at did provide 
information on the implementation process, many came up short 
in the details. And while this lack of detail is not an 
insurmountable barrier, it may make implementation more 
difficult.
    We know from practice and research that there are a number 
of things that are critical to successful implementation of 
policies in schools.
    I won't go through my entire list in the interest of time--
it is in my written testimony--but it is important to recognize 
that a policy must be well written and comprehensive. The right 
people must be at the table for development and implementation. 
The policy must be understood. And there must be support and 
commitment from all constituencies.
    Additionally, we know from the same research and practice 
that there are a number of things that may impede successful 
implementation of policies--costs that are not offset or 
addressed, a lack of commitment and understanding on the part 
of key stakeholders, logistical challenge, such as space and 
time, and a lack of clarity.
    Action for Healthy Kids and our partners have worked hard 
during the development stage and are now working hard to 
support implementation.
    In our written testimony, we have provided a list of some 
of the numerous things that our teams are doing with their 
partners to provide those kinds of supports and changes.
    Some have asked if these policies are making a difference. 
While it is too early to tell what effect they will have on the 
rates of childhood obesity and over what time, we do have some 
reason to be hopeful, as Dr. Marks noted.
    But we know, more importantly, that they are catalyzing 
changes in school practice which will be necessary if 
children's behaviors are to change.
    They are also catalyzing continued public attention on this 
issue and causing parents and educators to take a hard look at 
what they want from their schools.
    An article in yesterday's Great Falls, Montana Tribune 
described the 33,000 apples that will be given away to children 
in that school district as part of promotional efforts to 
inform parents about the policy.
    Of course, one apple is not the magic bullet for behavior 
change, but I like to think that it is the beginning of a 
cascade of bushels of apples of other healthy choices and 
opportunities for our kids.
    Most importantly, the policies have brought together school 
communities, teachers, parents, school food staff, 
administrators and others to create change.
    And Action for Healthy Kids is pleased to be part of that 
effort, and we thank the subcommittee and the larger committee 
as a whole for your continued interest and support on this 
issue.
    [The statement of Ms. Howley follows:]

   Prepared Statement of Nora L. Howley, Interim Executive Director, 
                        Action for Healthy Kids

    Action for Healthy Kids was founded in 2002 at the first Healthy 
Schools Summit. We are the only nonprofit organization formed 
specifically to address the epidemic of overweight, undernourished and 
sedentary youth by focusing on changes at school. We work in all 50 
states and the District of Columbia to improve children's nutrition and 
increase physical activity, to improve their readiness to learn. We 
seek to create the systemic and sustainable changes detailed in the 
schools chapter in the Surgeon General's Call to Action to Prevent and 
Decrease Overweight and Obesity (2001).
    Action for Healthy Kids has over 9000 volunteers and 60 national 
partner organizations. These volunteers and partners help us to 
undertake our mission to engage diverse organizations, leaders and 
volunteers in actions that foster sound nutrition and good physical 
activity in children, youth, and schools. To do this, we have set three 
goals:
    <bullet> Systemic, sustainable changes of sound nutrition and good 
physical activity occur in all schools;
    <bullet> Schools, families, and communities engage to improve 
eating and physical activity patterns in youth;
    <bullet> Action for Healthy Kids is the trusted, recognized 
authority and resource on creating health-promoting schools that 
support sound nutrition and good physical activity.
    (More information about Action for Healthy Kids can be found at our 
website: www.ActionForHealthyKids.org.)
    Our volunteers work through Teams in each of the states. Our Teams 
include representatives from state and local education and health 
agencies, bringing together the public and private sectors. They are 
parents, teachers, nurses, school administrators, school board members, 
school food staff and other members of the community. Twelve Action for 
Healthy Kids Teams have created regional teams within their state to 
work at a grassroots level in their communities. Each Action for 
Healthy Kids Team develops an action plan that sets the agenda for 
their work.
    Action for Healthy Kids predates the adoption of the federal 
mandate for Local Wellness Policies. Since the passage of the 
requirement we have made it a top priority for the work of Action for 
Healthy Kids Teams. In the 2005-2006 school year, 80 percent of Action 
for Healthy Kids Teams worked to support school districts in the 
development of Local School Wellness Policies. During this current 
school year, all of our Teams are working to support districts and 
school buildings with the challenges of implementation.
    Recognizing that schools are a critical component of the efforts to 
address the epidemic of childhood overweight and obesity, we have seen 
Local Wellness Policies as a critical part of the efforts to create the 
healthy school environment that all children deserve. Local Wellness 
Policies are part of an effort that includes federal, state, and local 
activities and can be a critical catalyst for creating or expanding 
links with other community agencies and organizations to create healthy 
communities for all.
    Among Action for Healthy Kids national partners, are the United 
States Department of Agriculture's Division of Food and Nutrition 
Services and the Centers for Disease Control and Prevention's Division 
of Adolescent and School Health. Working with these two partners, other 
partners, and members of our volunteer Teams, Action for Healthy Kids 
developed our Local Wellness Policy Fundamentals (see attached) and our 
Wellness Policy Tool (http://www.actionforhealthykids.org/wellnesstool/
index.php). The Local Wellness Policies Fundamentals identifies key 
topics under each of the required areas that a sound policy should 
address. The Wellness Policy Tool walks users through the stages of 
policy development and access to expert advice at each step of the 
process. These tools provide continued guidance for districts wellness 
committees in putting together strong and comprehensive policies.
    Action for Healthy Kids Teams have provided assistance to school 
districts in a variety of ways: Seventy eight percent provided 
guidelines or recommendations, 62 percent conducted trainings, 74 
percent produced tool kits or model policy language,31 percent hosted 
conferences or events, and 24 percent offered mini-grants to support 
development.
    In addition to our own resources, Action for Healthy Kids has 
promoted and distributed the resources of our partners. This includes 
the CDC's School Health Index, which many Teams offering mini-grants to 
schools use as the tool for baseline needs assessment by the districts 
to support policy development. Other partner tools used included USDA's 
Changing the Scene, and Fit, Healthy, and Ready to Learn from the 
National Association of State Boards of Education, and the resources of 
the School Nutrition Association and the American School Health 
Association.
Local Wellness Policies: A Critical Part of the Solution
    Schools play a critical role in preventing the increase in 
childhood overweight and in helping children to develop lifelong habits 
of good nutrition and physical activity. The mandate for Local Wellness 
Polices recognizes this important role. While schools cannot and should 
not be the only societal institution held responsible for addressing 
overweight and obesity, schools can be at the center of the discussion. 
Local Wellness Policies, by requiring the input of parents, school 
administrators, school staff, and students can begin the process of 
creating system wide solutions that will last over time.
    Wellness Policies, like all school policies, may need to be 
implemented incrementally. As we show below, much progress is being 
made, but as we also show, there is still much to be done. We encourage 
this committee and your colleagues in both houses to recognize this 
incremental progress and the need for schools and districts with 
support to achieve the potential of these policies.
What We Know About Wellness Policies
    Because the development and adoption by the local school board of 
the Local Wellness Policy is only the first stage in the process, 
Action for Healthy Kids has worked on providing support for the 
implementation and monitoring stages. As an initial step, we have 
completed two ``Snapshot'' policy collection and content analyses. The 
purpose of these snapshots was to begin to gain a better understanding 
of the contents of the almost board-approved 15,000 policies and to 
identify areas where support and technical assistance is needed to 
ensure the policies achieve their potential.
    Starting last summer and continuing into the beginning of the 
school year, Action for Healthy Kids collected a non-random sample of 
policies. We collected 256 approved policies and, where possible, the 
supporting regulations or implementation guidelines. We sought a sample 
of policies from every state and the District of Columbia and from 
districts of all sizes. Because minority children are 
disproportionately at risk and are overrepresented in the nation's 
urban school districts, we also made a special effort to collect 
policies from the largest school districts. Policies were collected 
through submissions from Action for Healthy Kids Teams and partners and 
direct requests from districts via email or the district website.
    When the collection period closed we had the following distribution 
of policies.
    <bullet> At least one policy from each state (except Hawaii, which 
had not completed the policy adoption)
    <bullet> A distribution of policies from all states, taking into 
account that not every state has districts in each of the size 
categories
    <bullet> 67 from small districts (up to 2,500 students)
    <bullet> 90 from medium districts (2,501-20,000 students)
    <bullet> 99 from large districts (over 20,000)
    Following the collection, Action for Healthy Kids conducted an 
analysis of the policies against each of the areas required by law and 
the topics addressed in our Local Wellness Policy Fundamentals. (See 
attached report on the analysis)
    The good news from this analysis:
    <bullet> Eighty percent of the policies addressed the required 
areas of nutrition education, nutrition standards and physical 
activity;
    <bullet> Seventy-seven percent of the policies addressed the 
important issue of access to school meals and after-school snacks;
    <bullet> Eighty-nine percent of the policies addressed other 
school-based activities to promote student health and wellness as 
allowed by the law. Among these policies, 82 percent specifically 
addressed efforts to continue to involve families and communities and 
60 percent called for the establishment of an ongoing school health 
council or committee (an important vehicle for community involvement).
    Of some concern are the areas of implementation and monitoring/
evaluation. Policies were often less specific in these areas:
    <bullet> Seventy-three percent provided some detail on 
implementation;
    <bullet> Sixty-seven percent identified who is responsible;
    <bullet> Fifty-one percent provided a time line for implementation;
    <bullet> Forty-nine percent addressed how policy implementation 
will be tracked;
    <bullet> Fifty-nine percent addressed evaluation, but did not 
provide detail.
    It is important to note the lack of specificity does not mean that 
the policy will not be implemented. However, it may suggest that 
implementation has not received the full support needed to make these 
types of changes. We know from other areas of education research that a 
number of factors contribute to the successful implementation of new 
policies at the district and building level:
    <bullet> The policy is well written and comprehensive;
    <bullet> The right people are at the table for development AND 
implementation;
    <bullet> The policy is understood by all constituencies;
    <bullet> Support and commitment from school leaders who are willing 
to ``walk the walk'';
    <bullet> Support from school staff and community members;
    <bullet> Where changes in practice are called for, staff and 
families are offered alternatives (i.e. for parties or fundraisers);
    <bullet> Plan for monitoring the implementation and a plan for 
improvement;
    <bullet> Person with sufficient authority who is responsible for 
overseeing implementation.
    We also know that there can be barriers to successful 
implementation:
    <bullet> Costs that not offset or addressed;
    <bullet> Lack of commitment and understanding on the part of key 
stakeholders;
    <bullet> There are logistical challenges, such as space, time etc.;
    <bullet> Lack of clarity, so school personnel and others do not 
know what is expected.
What Action for Healthy Kids is Doing to Support Implementation
    Action for Healthy Kids at the national level and through our Teams 
is committed to working with our partners to address the challenges of 
implementation so that these policies can be part of a comprehensive 
school and community effort.
    Action for Healthy Kids Teams continue to provide mini-grants and 
technical assistance to districts and schools. Among the Teams doing 
this work are:
    <bullet> Arizona where the Action for Healthy Kids Team developed 
model policies and participated in a state-wide pilot effort to change 
the mix of foods and beverages offered in vending.
    <bullet> California where the Action for Healthy Kids Team is 
working as part of a partnership with California School Boards 
Association, Project Lean, and others to provide targeted assistance in 
high poverty districts. The Team and their partners have provided 
workshops in five high need districts.
    <bullet> Colorado as been working and will continue to work with 
parents to train them to advocate for continued improvement in the 
school environment.
    <bullet> District of Columbia where the Action for Healthy Kids 
Team helped to develop a model policy used by the DC public schools 
(and charter schools) and will be working to expand a healthy vending 
program through peer education and outreach.
    <bullet> Georgia where the Action for Healthy Kids Team created a 
web-based technical assistance question and answer site and provided 
training via distance learning.
    <bullet> Kentucky was one of several Action for Healthy Kids Teams 
that worked closely with the state school board association in the 
development of model policies. The Team is also part of the Partnership 
for a Fit Kentucky. Team members developed and implemented action plans 
to provide workshops for administrators, trainings for youth league 
coaches, and the dissemination of tools, resources, and materials to a 
range of audiences.
    <bullet> Maryland where the Action for Healthy Kids Team is working 
to identify technical assistance needs and provide support beyond the 
support that state agencies can provide.
    <bullet> Minnesota which has targeted parents through distance 
learning opportunities for strengthening their understanding of and 
participation in Local Wellness Policy development and implementation.
    <bullet> New Hampshire which has raised funds through grants and 
fundraisers and helped to support the construction of walking tracks, 
the development of walking programs and expand access to healthy food 
choices. The Team has also trained teachers to administer and use the 
data from the Fitnessgram.
    <bullet> New Mexico where the Action for Healthy Kids Team is 
working to help schools develop and implement healthy fundraisers using 
healthy, locally produced foods.
    <bullet> New York where a Team in New York City is piloting a new 
research-based parent engagement program in schools to train parents as 
advocates and leaders for good nutrition and physical activity.
    <bullet> In Ohio, the Action for Healthy Kids Team worked with the 
Ohio Department of Education to provide Wellness Policy trainers to 
support the development of the policies. These trainers reached every 
school district in the state. The Team has worked as part of a state 
wide effort to expand access to healthy school breakfasts. These 
efforts enrolled almost 30,000 additional students in school breakfast.
    <bullet> Tennessee is working with their state office of 
coordinated school health to implement coordinated school health 
programs in every school district. In the upcoming school year the 
Action for Healthy Kids Team will be promoting and providing training 
in the Take 10! physical activity curriculum.
    <bullet> Texas has worked with partners including, Texas School 
Boards Association, the American Cancer Society and the Departments of 
Health and Agriculture to provide technical assistance and model policy 
language to school districts. In the upcoming school year the Texas 
Team will be replicating a Massachusetts project ``Students Taking 
Charge'' which trains students to be school-based leaders.
    National Action for Healthy Kids continues to provide information 
and resources through our publications and monthly phone symposia to 
help our Teams continue their work.
What Agencies and Organizations are Doing to Support Implementation
    State government and agencies including education, health and 
agriculture are providing assistance and accountability. A soon-to-be-
released study from the National Association of State Boards of 
Education found that at least 45 states are actively providing 
assistance to local school districts. Many have also passed legislation 
or state board policies that provide further direction on standards in 
both physical activity and nutrition. Among the states and their 
actions:
    <bullet> Arkansas, Kentucky, Rhode Island, and South Carolina are 
incorporating reporting and accountability for implementation into 
their existing school improvement plans and reporting.
    <bullet> Kansas, Pennsylvania, New Mexico, and New Jersey all 
required some level of review of the policies as part of the policy 
development process.
    <bullet> Kentucky, Nevada, North Carolina, Oklahoma, Tennessee, and 
Virginia have established requirements for districts to report to the 
state on implementation, however the state does not provide an 
evaluation or review.
    <bullet> Florida, Indiana, Kentucky, New Mexico, and Tennessee 
require school districts to establish ongoing local level 
accountability through reporting and review at the district level.
    <bullet> All states are working with a range of partners and 
programs to ensure that districts get help in implementation and 
beyond:
    <bullet> Requirements for additional contents in the policies;
    <bullet> Resolutions that encourage districts;
    <bullet> Policy guidelines;
    <bullet> State level advisory councils.
    Federal agencies including USDA and CDC/DASH are critical to 
helping states provide the support they need:
    <bullet> USDA's Local Wellness Demonstration Project grants in 
California, Iowa, and Pennsylvania are a cooperative agreement with 
Food and Nutrition Service and will do the following:
    <bullet> Assess local wellness policy activities in selected school 
districts;
    <bullet> Document the process used by these school districts to 
develop, implement and measure the implementation of a locally adopted 
school wellness policy;
    <bullet> Document any school environmental change;
    <bullet> Assess the level and types of technical assistance 
necessary to implement and evaluation a local wellness policy.
    <bullet> USDA, in partnership with the CDC and the Office of Safe 
and Drug Free Schools has compiled and continues to update extensive 
web-based resources for districts.
    <bullet> CDC's Coordinated School Health Program, with its 
resources such as the School Health Index provides an important 
framework for districts and schools to ensure the changes made under 
this requirement are part of a coordinated effort to address the school 
environment and its contribution to childhood obesity.
    <bullet> CDC/DASH has convened state education agency staff and 
others at a School Wellness Institute in January 2006 at which 
resources were disseminated and shared. CDC continues to provide 
assistance through its Coordinated School Health Programs.
    <bullet> The Office of Safe and Drug Free Schools (U.S. Department 
of Education) also recognizes the importance of these policies and is 
including sessions on the policies and on healthy eating in their 
annual grantees conference this summer.
    Other national organizations are also taking on the challenge of 
working to support these policies. One of the most innovative efforts 
is a partnership between the National League of Cities and the American 
Association of School Administrators. At a Leadership Academy in 
February, these two organizations brought together city administrators 
and school leaders to look at what the cities could do to support 
schools, but also to look at how the Local Wellness Policies could be 
expanded to address the larger community in which children live. 
Fifteen districts attended the academy, which mixed presentations from 
experts with time for the participants to network, to learn from each 
other and to focus on planning time. Currently, districts that attended 
are submitting applications for additional funding to help them to 
implement their plans. The partnership will be funding five or six of 
these applications.
    The National Association of State Boards of Education is providing 
support to state school boards and state education agencies for their 
leadership role in this area. In the first year of this project, they 
have produced the comprehensive overview on state strategies reference 
above. They have also hosted a policy symposium for interested state 
school board members and their partners.
Conclusion
    Thank you again for the opportunity to share this testimony. Action 
for Healthy Kids is committed to supporting the nation's states, 
districts and school in the development, implementation and monitoring 
of the Local School Wellness Policies. Creating healthy school 
environments, that provide sound nutritional options, multiple 
opportunities for physical activity, high quality physical education 
and nutrition education as part of comprehensive health education and 
the ongoing involvement of families and communities will make a 
difference in the future of our nation's children.
                                 ______
                                 

 Wellness Policy Fundamentals: Key Considerations as You Develop Your 
                         Local Wellness Policy

Local Wellness Policy Area 1: Setting Nutrition Education Goals
    The primary goal of nutrition education, which may be defined as 
``any set of learning experiences designed to facilitate the voluntary 
adoption of eating and other nutrition-related behaviors conducive to 
health and well-being,'' (ADA 1996) is to influence students' eating 
behaviors.
    a) Classroom teaching: classroom based nutrition education that 
includes requirements that the subject be taught, follows standards, 
and/or addresses specified learning outcomes
    b) Education, marketing and promotions outside classroom links with 
school: nutrition education that occurs outside the classroom, or that 
links classroom nutrition education to the larger school community, 
such as school gardens and cafeteria-based nutrition education
    c) Teacher training: requirements for professional preparation or 
ongoing professional development for teaching nutrition
Local Wellness Policy Area 2: Setting Physical Activity Goals
    The primary goal for a school's physical activity component is to 
provide opportunities for every student to develop the knowledge and 
skills for specific physical activities, maintain physical fitness, 
regularly participate in physical activity, and understand the short- 
and long-term benefits of a physically active and healthy lifestyle.
    A comprehensive physical activity program encompasses a variety of 
opportunities for students to be physically active, including: physical 
education, recess, walk-to-school programs, after-school physical 
activity programs, health education that includes physical activity as 
a main component, and physical activity breaks within regular 
classrooms.
    a) Physical education (high school graduation requirements): 
indicates whether physical education is required for graduation or the 
amount of physical education that is required to graduate
    b) Physical Education (classroom format and instruction): the 
number of minutes per day or week that physical education is required; 
the number of days per week physical education is required; the 
intensity of physical activity during physical education class; 
prohibiting the use of physical activity as punishment
    c) Physical education (teacher-to-student ratio): the number of 
students permitted per teacher for a physical education class
    d) Physical Education (standards/requirements-based; curriculum 
requirements): the use of national or state-developed standards for 
physical education; the use of a specified curriculum for physical 
education.
    e) Physical education (staff training/certification): requirements 
for professional preparation or ongoing professional development for 
teaching physical education
    f) Physical activity outside of physical education: number of days 
per week, minutes or hours per day, or classroom-based physical 
activities outside of physical education requirements
    g) Recess to promote physical activity: number of days per week, 
minutes per day, or type of recess or free-play time during the school 
day and outside of physical education
    h) Walking or biking to school to promote physical activity: safer 
routes to school for pedestrians and bicyclists, walk-to-school days, 
walking or biking safety policies
Local Wellness Policy Area 3: Establishing Nutrition Standards for All 
        Foods Available on School Campus during the School Day
    Students' lifelong eating habits are greatly influenced by the 
types of foods and beverages available to them. Schools must establish 
standards to address all foods and beverages sold or served to 
students, including those available outside of the school meal 
programs. The standards should focus on increasing nutrient density, 
decreasing fat and added sugars, and moderating portion size.
    a) Nutritional value of foods and beverages: foods or beverages 
that should or should not be made available to students, standards for 
nutrient levels for foods or beverages, and/or times those items may be 
made available
    b) Portion size: the per serving amount of a food or beverage to 
offer to students
    c) A la carte, vending, student stores, or concession stands: types 
of foods or beverages or nutrient standards for items that may be 
offered to students from these venues
    d) After-school programs, field trips, or school events: types of 
foods or beverages or nutrient standards for items that may be offered 
to students from these venues
    e) Parties, celebrations, or meetings: types of foods or beverages 
or nutrient standards for items that may be offered to students on 
these occasions
    f) Food rewards: use of food as a reward or punishment
    g) Food-related fundraising: use of food sales in schools
    h) Food or beverage contracts: agreements with food or vending 
companies to sell foods or beverages in schools
    i) Qualifications of food service staff: requirements for 
professional preparation or ongoing professional development for 
foodservice staff
Local Wellness Policy Area 4: Setting Goals in the School Meals 
        Programs
    Schools play a role in helping students make healthy food choices. 
At a minimum, schools must serve reimbursable meals that meet USDA's 
requirements as well as follow principles of the Dietary Guidelines for 
Americans.
    a) Developing goals that exceed minimum nutrition standards set by 
USDA set forth under the 7 CFR Part 210 and Part 220, and meet the more 
rigid HealthierUS School Challenge menu criteria, could have a positive 
impact on lunch menus and childhood obesity (http://
teamnutrition.usda.gov/HealthierUS/criteria--instructions.pdf)
    b) Access to school nutrition programs: all children who require 
food are able to obtain it in a non-stigmatizing manner
    c) Time and scheduling for meals: time allotted for students to 
eat, and the scheduling of mealtimes that might interfere with 
students' participation in school nutrition programs
    d) Surroundings for eating: the physical setting in which students 
eat
Local Wellness Policy Area 5: Setting Goals for Other School-Based 
        Activities Designed to Promote Student Wellness
    a) Marketing of food and/or beverages: locations for food and 
beverage marketing activities and types of marketing permitted to 
students, strategies to increase the appeal of healthful food and 
beverage items
    b) Sustainable food practices: environmentally-friendly practices 
such as the use of locally grown and seasonal foods, school gardens, 
and non-disposable tableware
    c) Access to facilities for physical activity after school hours: 
access by students, families, or community groups to a school's 
physical activity facilities
    d) After-school programs: physical activity or nutrition-related 
components of school-based programs for students that occur after 
school hours
    e) Coordinated School Health approach: a model to guide school 
decision-making related to physical activity and nutrition that 
encompasses all aspects of the school--from education to staff wellness 
to addressing smoking and tobacco
    f) School health councils: the establishment of committees that 
help oversee and coordinate physical activity and/or nutrition or other 
aspects of student health
    g) Community/family involvement: communications to families on 
health or nutrition topics (including body mass index results), the 
involvement of family or community members in school health councils or 
taskforces
    h) Staff wellness: physical activities and/or nutrition services or 
programs designed to benefit the health of the staff
    i) Education Links with schools: curriculum integrates physical 
activity and nutrition education in all subjects, such as math and 
science, as much as possible throughout the school day
                                 ______
                                 

Local Wellness Policies One Year Later: Showing Improvements in School 
                    Nutrition and Physical Activity

Background
    Action for Healthy Kids--a national grassroots organization leading 
the ``Campaign for School Wellness''--is committed to providing 
resources that support schools in their efforts to implement wellness 
practices of sound nutrition and good physical activity. Action for 
Healthy Kids has spearheaded a project to collect, review, and analyze 
Local Wellness Policies with the intent to establish a process to 
monitor and assess policy implementation. The objectives of this effort 
are to better understand and be able to communicate what is included in 
the policies and the plans for implementation and monitoring, and to 
provide a tool for those working with and in school districts to track 
implementation and evaluation of policies.
    The Child Nutrition and Special Supplemental Nutrition Program 
(WIC) Reauthorization Act of 2004 mandates that every school district 
participating in the federal meal program implement a Local Wellness 
Policy by the start of this school year. Each policy must include, at a 
minimum:
    <bullet> Goals for nutrition education, physical activity, and 
other school-based activities designed to promote student wellness in a 
manner the local educational agency determines appropriate;
    <bullet> Nutrition guidelines for all foods available on the school 
campus during the school day;
    <bullet> Guidelines for school meals not to be less restrictive 
than federal standards;
    <bullet> A plan for measuring implementation of the Local Wellness 
Policies and specification of a person responsible; and
    <bullet> The involvement of parents, students, representatives of 
the school food authority, the school board, school administrators, and 
the public in the development of the policies.
    The mandate does not include extensive standards within each of 
these areas; therefore, schools have some freedom in the development of 
these guidelines. Policies vary widely.
Methods
    The 144 policies collected between October 2006 and February 2007 
were added to the 112 policies collected in the first phase of analysis 
in summer 2006, to provide a larger information base for research. A 
total of 256 policies from 49 states (a final and approved policy from 
Hawaii was not available for this study) are included. The policy 
sample represents urban, suburban, and rural school districts ranging 
in size between 69 students and 1,100,000 students:
    <bullet> 67 policies from small districts (up to 2500 students);
    <bullet> 90 policies from medium districts (2501-20,000 students); 
and
    <bullet> 99 policies from large districts (over 20,000 students).
    The analysis includes policies from each size category for 36 out 
of the 41 states that have districts representing each of the 
categories. Only approved policies were included in the final sample, 
and at least three policies were obtained from every state, with the 
exception of Hawaii and the District of Columbia. Because urban school 
systems are often more systemically complex, and have significant 
numbers of children at risk, Action for Healthy Kids attempted to 
collect as may policies from the largest school districts as possible.
Policy Evaluation
    Each policy was assessed using the Wellness Policy Fundamentals on 
the Action for Healthy Kids website (www.ActionForHealthyKids.org) to 
evaluate whether the policy meets the minimum requirements, and to 
benchmark the policy against model Local Wellness Policies. A checklist 
was then developed to include the requirements of Wellness Policies as 
established by The Child Nutrition and WIC Reauthorization Act of 2004. 
Action for Healthy Kids used its Wellness Policy Fundamentals to expand 
on these categories by including specific goals districts should state 
in the policies to ensure the overall recommendations stated by the WIC 
Reauthorization Act were met.
Results & Key Findings
    Results of the Local Wellness Policy analysis revealed that:
    <bullet> 81% address goals for nutrition education;
    <bullet> 79% address goals for physical education;
    <bullet> 88% address other school-based activities designed to 
promote student wellness by establishing school health councils or 
wellness teams;
    <bullet> 81% involve the community and/or students' families; and
    <bullet> 78% set school meal standards based on Dietary Guidelines 
for Americans.
Physical Education and Activity
    In the physical education and activity sections of the policies, 
only 15% require physical education to be aligned with national 
standards, and only 35% mention qualifications of physical education 
staff. Over half of the policies (58%) discuss the availability of 
physical activity outside of scheduled physical education, often by 
making school facilities available to students and families for 
exercise before and after school, making opportunities for other 
activities outside of school hours such as non-competitive sports, and 
integrating physical activity breaks and recess into the day.
Nutrition Education and Standards
    More than 60% of policies reviewed discuss integrating nutrition 
education with other health education and the general curriculum, and 
40% require teacher training in nutrition education. Only 40% 
explicitly promote whole grains, low-fat/non-fat dairy, and fresh 
fruits and vegetables in the nutrition education programs or in school 
meals. Nearly 85% of policies specifically state what venues are 
covered by the policy in the areas of nutrition standards (e.g., 
concession stands, vending machines, fundraising), and 56% of those 
policies declare that venues outside of school meals are also subject 
to meeting or exceeding the dietary guidelines set by the USDA. Only 
22% of policies are making efforts to holding recess before lunch, 
however, 57% mention guidelines for allowing adequate time for meals, 
and 58% address avoiding the use of food as a punishment and/or 
discouraging using food as a reward. Only 20% of the policies require 
making nutritional information available to students and families.
Implementation and Evaluation
    The analysis indicated that 73% of policies provide some detail 
regarding implementation:
    <bullet> 66% state who is responsible for implementation (most 
often the superintendent, principal, or school wellness team);
    <bullet> only 20% offer a timeframe for implementation; and
    <bullet> less than 20% of the policies discuss how implementation 
will be tracked.
    Over half of the policies (58%) address evaluation, but the 
evaluation component was often not very detailed. While 52% of the 
policies meet the minimum requirements of identifying who is 
responsible for the evaluation, only 31% of policies discuss the 
process for evaluation. Of the 256 policies reviewed, only eight 
include measurable objectives and only four state how funding will be 
made available for implementation and evaluation of the policy.
Conclusion
    This assessment and review is a first look at the content of Local 
Wellness Policies for the 2006 school year, and is only a snapshot of 
what was completed by school districts during the first year. The hope 
is that these policies are setting high goals and standards, and giving 
measurable and quantifiable times and goals.
    The lack of implementation and evaluation procedures for a 
significant number of policies is a major concern. With no plan or 
process to ensure implementation and evaluation, Wellness Policies 
cannot be truly effective. Some of these gaps may be remedied in the 
development of the regulations or guidelines that will support and 
expand these policies. Implementation and evaluation will be an area 
where Action for Healthy Kids will focus efforts to educate schools on 
``best practices''. School boards and wellness committees will continue 
to refine their policies, measure the impact of the policies on the 
school health environment, and continue to make changes to improve the 
health of children and adolescents. Action for Healthy Kids will be 
there to provide them with the support and tools needed to do so.
About Action for Healthy Kids
    Action for Healthy Kids is a national, grassroots, nonprofit 
organization that addresses the epidemic of overweight, undernourished 
and sedentary youth by focusing on changes within schools. Action for 
Healthy Kids is a public-private partnership of nearly 60 organizations 
and government agencies which supports the efforts of Teams--comprised 
of more than 9,000 volunteers--in all states and the District of 
Columbia.
    Action for Healthy Kids was founded in 2002 by former U.S. Surgeon 
General David Satcher, in response to the Surgeon General's Call to 
Action to Prevent and Decrease Overweight and Obesity, which identified 
the school environment as one of five key sites of change. To learn 
more, visit www.ActionForHealthyKids.org
Appendix
         table 1: descriptive statistics of collected policies
Mean..........................................................  39549.86
Standard Error................................................ 16049.933
Median........................................................   11921.5
Mode..........................................................     34000
Standard Deviation............................................  96798.92
Sample Variance...............................................  9.37E+09
Kurtosis......................................................  66.91564
Skewness......................................................  7.202327
Range.........................................................   1099931
Minimum.......................................................        69
Maximum.......................................................   1100000
Sum...........................................................  10124763
Count.........................................................       256

                    TABLE 2: POLICIES REVIEWED THAT INCLUDED CONTENT ADDRESSING THESE ISSUES
----------------------------------------------------------------------------------------------------------------
                                                               All policies collected    Policies collected Jun-
                                                             --------------------------    Aug 2006 (phase 1)
                                                                                       -------------------------
                                                                 No. of     Percentage                Percentage
                           Content                              policies     of total      No. of      of total
                                                               addressing    policies     policies     policies
                                                               this issue    reviewed    addressing    reviewed
                                                                             (n=256)     this issue    (n=112)
----------------------------------------------------------------------------------------------------------------
NUTRITION EDUCATION:
    All grade levels included...............................           90        35.4%           39        34.8%
    Teacher training........................................          104        40.9%           40        35.7%
    Aligned w/other health education/integrated across                153        60.2%           67        59.8%
     curriculum.............................................
    Promote whole grains, low-fat/non-fat dairy, fresh                103        40.6%           47        42.0%
     fruits and vegetables..................................
    Total mentioning one or more of the four items for                208        81.9%           94        83.9%
     nutrition education....................................
PHYSICAL EDUCATION AND ACTIVITY:
    All grade levels included...............................          130        51.2%           54        48.2%
    Qualifications of P.E. staff............................           90        35.4%           36        32.1%
    Aligned to national standards...........................           38        15.0%           13        11.6%
    Hours outside of P.E. for physical activity.............          149        58.7%           58        51.8%
    Total mentioning one or more of the four items for                202        79.5%           85        75.9%
     physical education and activity........................
NUTRITION STANDARDS:
    Description of what venues are covered in the policy....          216        85.0%          101        90.2%
    Standards reflect or exceed dietary guidelines from USDA          124        48.8%           65        58.0%
    Nutrition information available on products served......           51        20.1%           10         8.9%
    Food not used as a reward or punishment.................          148        58.3%           68        60.7%
    Total mentioning one or more of the four items for                232        91.3%          105        93.8%
     nutrition standards....................................
SCHOOL MEALS:
    Access to breakfast, lunch, and after-school snacks.....          196        77.2%           77        68.8%
    Time for meals..........................................          147        57.9%           61        54.5%
    Recess before lunch.....................................           57        22.4%           25        22.3%
    Standards meet or exceed dietary guidelines set by the            198        78.0%           83        74.1%
     USDA...................................................
    Total mentioning one or more of the four items for                241        94.9%          104        92.9%
     school meals...........................................
OTHER SCHOOL HEALTH:
    School health council/wellness team.....................          152        59.8%           68        60.7%
    Community/Family involvement............................          207        81.5%           90        80.4%
    Coordinated school health approach......................           50        19.7%           24        21.4%
    Total mentioning one or more of the three items for               225        88.6%           97        86.6%
     other school health....................................
IMPLEMENTATION:
    Responsibility..........................................          169        66.5%           69        61.6%
    Time frame..............................................           51        20.1%           15        13.4%
    How implementation will be tracked......................           49        19.3%           19        17.0%
    Total mentioning one or more of the three items for               186        73.2%           77        68.8%
     implementation.........................................
MEASURABILITY/EVALUATION:
    Measurable objectives...................................            8         3.1%            0         0.0%
    Process for evaluation..................................           81        31.9%           19        17.0%
    Responsibility for evaluation...........................          132        52.0%           42        37.5%
    Tool for measuring environmental change (i.e., SHI).....           33        13.0%            7         6.3%
    Funding support.........................................            4         1.6%            1         0.9%
    Total mentioning one or more of the five items for                149        58.7%           46        41.1%
     implementation.........................................
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Mr. Lawler?

 STATEMENT OF PHIL LAWLER, DIRECTOR OF OUTREACH AND TRAINING, 
                            PE4LIFE

    Mr. Lawler. Thank you, Madam Chairman.
    And thank you, Congresswoman Biggert.
    My name is Phil Lawler. I am not Lance Armstrong, but I am 
a two-time cancer survivor. The meaning of good health has very 
deep meaning for me.
    Personally, I am the PE4LIFE Academy director in 
Naperville, Illinois, which is a nationally recognized model 
program. PE4LIFE is a non-profit organization. We are training 
schools around the country to understand the value of quality 
daily physical education.
    The last 4 years, I have trained schools from 35 states and 
actually five foreign countries. Obesity is spreading 
worldwide.
    I have got 35 years of experience of teaching physical 
education, but the last 15 I have been focusing on a program 
that is focusing on the health of children.
    I was initially trained--my ultimate goal was to teach 
sports skills to every child that walked in the door. That 
system didn't work. There was lots of students that weren't 
interested in sports. In many cases, sometime we actually 
turned students off to exercise.
    I think back 10 years ago when I put a heart rate monitor 
on a young girl doing a mile run. And her time was 13.5 
minutes. She walked most of it.
    Under the sports model, she failed miserably. I downloaded 
that heart rate monitor. Her average heart rate for 13 minutes 
was 187. By a health and wellness model, she worked too hard.
    During the last 15 years, obviously, the world has changed. 
And fortunately, physical education has changed with it. We now 
have national standards.
    During this period of time, when I first started teaching, 
we weren't a fast food nation. Children actually went outside 
and played.
    Well, with this change in physical education, the PE4LIFE 
model has proved some amazing results. Granted, it is one 
community, but the program is spreading nationwide.
    If you include overweight and obese, it is running about 35 
percent in our school-age children. Three years ago, we tested 
1,500 freshmen in our community. Our rate of overweight and 
obese combined was 3 percent. I will repeat that, 3 percent.
    I thought for surveillance the rest of the nation would 
jump on board and bring back daily physical education at every 
school in the country, but I was wrong.
    Because of No Child Left Behind--and I know that is not the 
intent of it, but every administrator in the country is 
focusing on reading, math and science. So I knew we had to come 
up with another direction to sell the public on the importance 
of physical activity for kids.
    The last 3 years, I have been working very closely with a 
gentleman by the name of Dr. John Ratey, one of the to brain 
research specialists at Harvard. There is new and growing 
evidence--there is no question--that a fit child learns better.
    We just finished a pilot program in our community over the 
last 2 years. We took a group of students that were below 
grade-level reading. We improved their reading skills a half a 
grade level in one semester using physical activity. We found 
the same was true with our math scores.
    There is even more. We opened up a PE4LIFE Academy in 
Kansas City, in an urban setting, 97 percent free lunch. The 
only change made in the entire school day was physical 
education went from 1 day a week to 5 days a week.
    Cardiovascular fitness improved 200 percent in 1 year. But 
the administration was excited about the fact there was a 63 
percent decrease in disciplinary referrals to the main office.
    School violence is an issue. Fit kids behave better. There 
are so many benefits to physical activity. The science and 
medicine has proven that. We have got to focus on it.
    Schools do not receive funds and schools are not evaluated 
whether their children are healthy or not. I applaud Congress 
for the PEP Grant.
    The PEP Grant has allowed schools to jump-start their 
wellness programs. It has allowed schools to become models for 
other schools in the country, to develop and put a focus on 
children's health.
    I think the wellness plan is very similar to where we were 
with smoking 20 years ago, 30 years ago. I think today with the 
school wellness plans we have put the warning label on the 
schools.
    We need an action plan where now we have states banning 
smoking indoors. We have to get the entire country focusing on 
getting daily physical education back into our schools.
    I would like to close with quoting Dr. Kenneth Cooper, the 
father of aerobics: ``The PE4LIFE approach is exactly what we 
need to happen if we are going to have any hope of avoiding a 
medical disaster for this generation of children.''
    Thank you.
    [The statement of Mr. Lawler follows:]

 Prepared Statement of Phil Lawler, Director, PE4life Instruction and 
                                Outreach

    I want to thank the members of the panel for allowing me the 
opportunity to speak today about an issue that I am very passionate 
about. I firmly believe that physical education must play a critical 
role in attacking the childhood obesity crisis negatively impacting our 
young people.
    My name is Phil Lawler. I am Director of Instruction and Outreach 
for PE4life. PE4life is a non-profit whose mission is to inspire 
active, healthy living by advancing the development of daily, health-
and-wellness-based physical education programs for all children, not 
just the athletically inclined. Not only am I convinced that the 
``PE4life Way'' can greatly increase the fitness levels of students, K-
12, across the country, I believe that the PE4life approach to physical 
education can enhance academic performance and reduce discipline issues 
in schools. I'll address those two issues later in my testimony.
    For 35 years, I served as a physical education teacher in 
Naperville, IL. I'm proud to say that our physical education program 
evolved into one of the most respected PE programs in the country over 
the last 15 years. In fact, our program was chosen by PE4life to be the 
country's first PE4life Academy. PE4life Academies are exemplary, daily 
physical education programs that also serve as training centers for 
other schools and communities.
    However, our Naperville physical education program wasn't always as 
effective as it is today. And I wasn't always as passionate about 
health-and-wellness-based physical education as I am today. In fact, at 
one time, I was one of the staunchest supporters of the ``old PE,'' a 
model built around sports skills and athletic performance. I'm sure 
many of you here today can relate to the ``old PE'' model of physical 
education, which also included humiliating activities like dodge ball.
    Let me give you a quick example of when I saw the light. Our 
department had acquired a single heart rate monitor. I hadn't used it 
but one day I took it out and put it on a girl I didn't believe was 
working very hard in class. In the old days of PE assessment, we said, 
``let's run a mile, and if you can't run a mile under eight minutes, 
you're a failure.'' How many people in this country were turned off to 
exercise by those standards? I put the heart rate monitor on a young 
lady who didn't have asthma and wasn't overweight. So, based on her 
13.5-minute mile, I deemed her a failure. But when I downloaded her 
heart rate monitor, her average heart rate was 187. By just using my 
observation as a physical education instructor she wasn't doing 
anything, she wasn't expending any effort. But in reality, the heart 
rate monitor told me she was working too hard.
    Now with this technology, we won't make that mistake again. We will 
personalize PE and we'll give kids credit for what they do and the 
effort they expend. Technology like heart rate monitors, pedometers, 
and interactive exer-games are definitely part of the PE4life Way 
today.
    We have all heard the scary statistics about the health crisis 
facing our nation's youth. You'll hear plenty more today. But suffice 
it to say, we're facing a major challenge in this country with our 
children. To me, however, the numbers are too impersonal. They're 
shocking but they don't hit home. But I came across a couple quotes 
that hit me like a ton of bricks. I think they really drive home the 
challenge we're all facing today.
    According to Dr. William J. Klish, professor of pediatrics at 
Baylor College of Medicine, ``Children today have a shorter life 
expectancy than their parents for the first time in 100 years.'' Think 
about that, given the medical and technological advancements of the 
last several decades. ``Children today have a shorter life expectancy 
than their parents for the first time in 100 years.'' That's a scary 
but powerful statement.
    Dr. K.M. Venkat Narayan, diabetes epidemiologist for the Centers 
for Disease Control and Prevention (CDC) stated, ``One in every three 
U.S. children born after 2000 will become diabetic unless many more 
people start eating less and exercising more.'' One in every three!
    I think former surgeon general, Dr. Richard Carmona, summarized the 
situation the best when he said, ``As we look to the future and where 
childhood obesity will be in 20 years * * * it is every bit as 
threatening to us as is the terrorist threat we face today. It is the 
threat from within.''
    Physical education can be a key part of the solution to that 
threat, maybe the most important part of the solution. However, for 
that to be the case, several issues must be addressed. At PE4life, we 
see three key problems with our nation's current physical education 
system: 1) The dramatic decline in the number of students taking 
physical education classes on a daily basis; 2) The continued emphasis 
on the ``sports model'' of physical education that overemphasizes team 
sports skill development and participation at the expense of health and 
wellness education and lifelong physical activity skill development and 
participation; and 3) Grading students based on skills and innate 
abilities versus effort and progress toward individualized goals.
    To combat these problems, the PE4life program is about getting kids 
active now and instilling the lifetime benefits of health and wellness. 
It's about enabling each student to maintain a physically-active 
lifestyle forever. It means emphasizing fitness and well-being, not 
athleticism. It eliminates practices that humiliate students. And it 
assesses students on their progress in reaching personal physical 
activity and fitness goals. A P.E.4life program exposes kids to the fun 
and long-term benefits of movement--it's really that simple.
    That said, while our emphasis is teaching the lifetime health-and-
wellness benefits of physical activity, PE4ife programs still teach 
team sports but the focus is on small-sided sports: four-on-four 
football; three-on-three basketball, four-on-four soccer, so more kids 
get involved, touch the ball more often, and move to a greater degree.
    PE4life advocates exposing students to a variety of sports and 
fitness activities through physical education so our children can make 
educated choices about the physical activities that are most 
appropriate for their personalities and lifestyles.
    I think if there was one thing I would like children to take away 
from their PE4life experience, it would be the importance of regular 
exercise. Quality, health-and-wellness-based physical education is 
crucial in helping children reap the long-term benefits of physical 
fitness and in establishing this healthy habit for life.
    An important point of my testimony today is that this isn't just a 
theoretical philosophy. The PE4life model is working in real schools, 
with real students. We have strong evidence that the PE4life Way 
improves students' health and wellness. And increasingly, we're 
building the research support for the PE4life model's impact on 
academic performance and discipline issues as well.
    I'm going to give you a brief overview of some of the exciting 
research PE4life's compiling. The nationally-respected Fitnessgram 
assessment, which evaluates students in six fitness-related categories, 
was used to compare the physical fitness levels of 9th grade students 
in Naperville, IL (once again, home to the first P.E.4life Academy) 
with their 9th grade, non-P.E.4life counterparts in California. In all 
six categories, the Naperville students far out-paced their 
counterparts in California. In the two most significant categories, 
``aerobic capacity'' and ``body composition,'' the results were 
significantly in favor of the Naperville kids. For example, of the 
1,500 freshmen in Naperville, only 3% were found to be overweight or 
obese. On the other hand, 32% of their 9th grade counterparts in 
California, were overweight or obese. In the ``aerobic capacity'' 
category, 80% of Naperville freshmen were in the ``healthy fitness 
zone'' versus only 50% of the California students.
    As a result of performances like that, parents of the students at 
Madison Junior High School, my former school and home base for the 
Naperville PE4ife Academy, voted physical education the #1 curriculum 
in the school.
    Other PE4life Academies around the country, all of which have been 
recipients of the Carol M. White PEP grant, are seeing similar results 
in the areas of fitness and health and wellness. But the research 
that's really starting to get me excited is the findings showing that 
physically-fit kids perform better academically.
    In a California Department of Education study looking at 5th, 7th, 
and 9th graders, based on the same Fitnessgram assessment that I just 
cited, the students that were the most fit also performed the best on 
math and reading assessments.
    In another study, undertaken at a PE4life Academy, high school 
students that took a fitness-based physical education course before the 
regular school day began, in addition to a literacy class, improved 
their reading and comprehension scores by 1.4 years on a grade-level 
equivalency scale. That represented a 50% greater improvement in 
reading and comprehension scores than seen by the students in the study 
who took the literacy class alone.
    The bottom line is, fit kids perform better academically. This is a 
critical point in this era of No Child Left Behind. Despite the 
worsening childhood obesity epidemic in this country, many physical 
education programs are being dropped or significantly scaled back. And 
the reason given by school administrators and board members? Academic 
pressures that stem primarily from federal No Child Left Behind 
mandates and state standardized academic assessments.
    As Dr. John Ratey, an expert on exercise's impact on the brain from 
Harvard Medical School says, ``The greatest fallacy in American 
education today is that dropping physical education will improve 
academic performance.''
    In fact, Ratey goes on to say that ``exercise is the one thing we 
know that optimizes brain function. It's so good, it's like Miracle-
Gro.''
    Another exciting piece of PE4life research comes from our PE4life 
Academy in urban Kansas City, Missouri. The study at Woodland 
Elementary School looked at discipline issues before and after the 
implementation of a daily PE4life program at the school. Suspension 
days dropped from 1,177 to 392 (a 67% decrease). Discipline incidents 
(fighting, etc.) dropped from 228 to 94 (a 59% decrease). The only 
significant difference from one year to the next at Woodland was the 
implementation of a daily PE4life program.
    Woodland's principal, Craig Rupert said, ``PE4life has had a 
tremendous positive influence on the lives of the students at Woodland 
Elementary School. It has not just increased the levels of fitness we 
are seeing in our kids, but they are also more motivated throughout the 
day. Enthusiasm is way up and office referrals are way down.''
    Much more research needs to be done in the area of quality physical 
education and its impact on discipline issues but this is exciting 
stuff.
    I would like to take just a minute to discuss how well PE4life is 
positioned to be an ideal School Wellness plan implementation partner 
for schools across the nation. For the 2006-2007 school year, school 
districts were required to have a wellness policy in place.
    Undoubtedly, getting to this point was a big challenge. 
Nevertheless, a bigger challenge is now staring schools in the face: 
How do we most effectively implement these policies?
    The School Wellness law was designed to be an important new tool to 
promote wellness-based physical education programs, healthy eating and 
other school-based physical activities. In order to enhance the chances 
of success, the legislation also requires that local wellness policies 
have an implementation plan in place. This can't simply be a ``get the 
policy done and place it on the shelf'' exercise. These plans must be 
implemented and then evaluated on a regular basis. Additionally, the 
law requires that a broad group of local stakeholders be involved in 
the development and execution of the wellness policy.
    From its inception, the ``PE4life Way'' has been a community-based, 
stakeholder-driven approach to quality physical education focused on 
measurable outcomes. Our Academies provide training to a wide-variety 
of school and community leaders in the development of their own PE4life 
programs, including a step-by-step implementation plan for their School 
Wellness initiatives. Moreover, PE4life helps Academy trainees 
cultivate partnerships designed to advocate for change in their 
communities, along with finding the community funding to make change 
real and lasting. The PE4life Way is all about getting local 
stakeholders involved.
    It's also important to note that while we believe physical 
inactivity is the primary culprit in the childhood obesity epidemic, 
nutrition education is an important component of PE4life programs. In 
fact, we are partnering with the American Council on Fitness and 
Nutrition (ACFN) and the American Dietetics Foundation on a nutrition 
pilot study this fall.
    PE4life is a young organization. We were founded in 2000. 
Nevertheless, we've made a tremendous impact. Our five PE4life 
Academies have hosted school/community teams from 34 states (and five 
countries), impacting 1,639 urban, suburban, rural, private and public 
schools and reaching 1.7 million students. Of the 188 school/community 
teams that PE4life Academies have trained, 60 of them have been Carol 
M. White PEP grant winners.
    It's important to note that schools that have benefited from 
receiving a PEP grant have had a jump start in effectively implementing 
their School Wellness plans.
    Each of our five PE4life Academies have themselves been recipients 
of a PEP grant. They are enjoying increases in fitness scores, 
decreases in discipline problems, and increases in academic 
performance. In turn, these Academies, as model physical education 
programs and training facilities for other schools, have been effective 
in helping other schools implement their Wellness policies.
    Nevertheless, given the magnitude of this country's problem with 
sedentary young people, there is no doubt that PE4life needs to scale 
up quicker.
    Ultimately, our goal is to have at least one PE4life Academy in 
every state. Over the next three years, our goal is to expand the 
number of PE4life Academies by 25 in order to positively impact the 
lives of thousands of additional students.
    So, that's what we're all about. Our plan is to create ``change 
agents'' through our training programs. We see the PE4life Academies as 
change-agent factories, where community teams made up of 
administrators, board members, teachers, parents, health care 
professionals, and other community leaders come to learn about a seven-
step plan for transforming the health and wellness of young people in 
their communities.
    I know the PE 4life Way works. But I'm biased.
    So, I'll let the ``Father of Aerobics,'' Dr. Kenneth Cooper, from 
the Cooper Aerobics Center in Dallas, Texas, have the final word: ``The 
PE4life approach is exactly what we need to happen if we are to have 
any hope of avoiding a medical disaster with this generation of 
children.''
    I want to thank the Committee for your leadership on the School 
Wellness Program and for this opportunity to testify. I also want to 
thank you for your ongoing support of the Carol M White PEP grant 
program in No Child Left Behind. As a PEP grant recipient, and someone 
who has worked closely with others who have received these grants, I 
know first hand how much this funding has done to energize and improve 
the quality of physical education throughout the country. This is the 
type of critical financial support we need as state budgets for 
education decline.
    PE4life has set the stage for the type of health-and-wellness-based 
physical education our children need and programs like PEP go a long 
way toward helping us succeed. Schools that receive PEP grants are well 
positioned to implement successful School Wellness plans and become 
role models for other schools.
    I know that No Child Left Behind is up for reauthorization this 
year. As you consider this important legislation, it is our hope that 
you include PEP with a significant authorization so more schools can 
provide the kind of physical education that will positively impact our 
children for the rest of their lives. The PEP program works. It needs 
to grow.
    I look forward to answering any questions you may have.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, and thank you for your 
testimony.
    I thank all of you for your testimony.
    I had talked to a number of you earlier before we started, 
and I had said that I was shocked on all the research that we 
started doing, you know, a few months ago when we knew we were 
going to have this hearing.
    In my area, we do have physical education. I didn't know 
that so many schools had dropped physical education from their 
program, because I happen to believe that physical education 
does--number one, we all know that it certainly makes you feel 
healthier. It builds up the appetite, so hopefully we go to 
better foods.
    And so all this information that you have put in front of 
us is something that I hope that all of us can work on and get 
a better program out there.
    Mr. Chase, you know, you and your wife had talked about 
your program is part of getting parents involved. We are 
legislators. You know, we can't mandate--we can't certainly 
make a law to make parents do the right thing by their children 
by example or even anything else.
    So how do you go about educating parents to do the right 
thing for their children and make them aware of what they need 
to do?
    Mr. Chase. Well, when you say how do you, how do I, or how 
does one?
    Chairwoman McCarthy. How does your program encourage that?
    Mr. Chase. Well, the Center for Environmental Education is 
wide-ranging in what it does. But it basically enables teachers 
from any part of any school, from kindergarten up, to find what 
resources they need through a library that we have set up at 
Antioch College.
    It is a difficult question to answer. Excuse me a second. 
My wife is going to answer it for me, I have a feeling. One 
second.
    My wife says we infiltrate the home through the kids. It is 
a good answer.
    Chairwoman McCarthy. Very good answer, and it goes back to 
what I had said earlier. If we would listen to our children a 
little bit more, we would actually be a little bit further 
ahead.
    Ms. Converse, how did you start working with your school to 
get them to be more aware, listening to you?
    Actually, reading your testimony, you brought in that you 
basically were shocked that a lot of the physical education 
teachers, a lot of the teachers themselves, didn't even know 
they had a wellness program going on.
    How did you make them aware of it?
    Ms. Converse. Well, my initiative basically started by me 
speaking to my school board about it, so they became aware 
about the issue that we currently have.
    And then from there, I have gotten chances to speak for 
obesity summits and such things, so I have taken a lot of my 
information and sent it back through the schools, as many 
people as I can touch.
    But you know, I am only one person. I need the help of 
people like you--grownups, if you will--to spread the word as 
well. And I am hoping kids will join me in this initiative that 
I have got going, so it will be more widespread that way.
    Chairwoman McCarthy. We have found, certainly, working 
with--I am in schools, basically, almost every single Monday. 
And I had found if we find some key young people and make them 
the ambassador, they can spread the message among their 
classmates a lot faster than me saying to a young person, 
``Hey, you should be doing this.''
    Hopefully, maybe that is some way we can work that in to 
what we are going to be doing.
    You know, when you talk about--with this particular job, 
you have the opportunity to travel around the world. Last year, 
I was in China.
    And one of the things that did shock me is we were doing an 
educational tour on how many of the youngest of the young and 
then the high school and the college students are extremely 
obese. And it is just something that we were not expecting.
    And when I talked to the minister of education, I brought 
it up. And he said, ``It is all your fault. We have McDonald's. 
We have Burger King.''
    And yet when you went out to the province, you know, here 
they didn't have these particular things, you basically saw 
that the young people were healthier. They were eating their 
vegetables. They didn't have any of the candies, sodas and 
things like that.
    So it is something that we all need to work on a little bit 
better.
    And, Mr. Lawler, as far as--I grew up with learning 
disabilities. I will be very honest with you. The only thing 
that, certainly, worked for me--I happen to be a great athlete.
    That did help me with my improvement in school, and it gave 
me self-confidence, which I think a lot of kids are lacking 
these days, too.
    So if you could expand on your program.
    Mr. Lawler. There is no question that the self-confidence 
issue goes along with it. It reaches out in so many directions, 
even special education.
    There is a gentleman in New York by the name of Dr. Wendt 
who did some research specifically with ADHD, which is a major 
impact on our schools today. And one of the conclusions of the 
study--that 12 minutes of aerobic activity had the same effect 
on the body as a dose of Ritalin.
    We all want that instant gratification. It is a lot easier 
to take a pill than it is to exercise. But I think we are going 
to see dramatic changes in the world--in our country if we get 
people to exercise.
    Every branch of education that has good programs in place--
it doesn't do us any good unless those kids are healthy. If we 
don't get blood flow to the brain, oxygen to the brain and 
hydrate the brain, they are not listening. And so we are 
definitely seeing a difference.
    And as far as getting to the parents, I believe it is 
true--we call what we have a trickling up effect. The more we 
have focused on physical education, the more the parents are 
understanding.
    In our community, in a survey, parents rated physical 
education the number one curriculum in our district for 
satisfaction. They understand the importance of children's 
health.
    Chairwoman McCarthy. Thank you.
    I now recognize Ranking Member Platts for 5 minutes.
    Mr. Platts. Thank you, Madam Chair.
    And again, my sincere thanks also to all of the witnesses 
here today.
    First, with Ms. Converse, I don't think you will just be 
voting in 3 years at age 18. You are going to soon be running 
for office, I believe. [Laughter.]
    And Mr. Price isn't here, but it is a good thing you have 
to be 25 to run for Congress, or I think Tom would be in 
trouble.
    There seems to be a number of issues here that we are 
trying to address. One is the nutrition standards and 
requirements we have in our schools, and then the second one is 
physical education requirements.
    And then within both of those, there are sub-issues. And 
with nutrition, it is the USDA standards that are in place.
    And, Mr. Chase, as you referenced, they haven't been 
updated in 30 years.
    And then what additional standards should we perhaps put in 
place as far as what can be sold?
    What I want to try to pursue quickly in my time is the 
interaction between those, nutrition and physical education.
    And I want to start, Dr. Marks--you referenced the Arkansas 
study or action, and I am curious, because I am not familiar 
with that.
    Has there been a comparison of what Arkansas did to what is 
being proposed in Ms. Woolsey's legislation, how they align? 
Does it go farther? Is it not as much as what we would be 
requiring?
    Dr. Marks. The Arkansas legislation was a comprehensive 
school health bill that changed the vending machine policies, 
changed the policies so that they have P.E. in the schools, and 
changed the school nutrition programs.
    And in addition, it measured and weighed children and let 
the parents know how their children's weight and their body 
mass index are rated.
    And so Congresswoman Woolsey's bill looks specifically at 
the standards for competitive foods and so is only part of the 
comprehensive school policy changes that are needed.
    And in that sense, that is why I framed it as a good step, 
but we need many more steps.
    Mr. Platts. On the specific issue of the competitive foods 
aspect of Congresswoman Woolsey's--did Arkansas go farther 
than----
    Dr. Marks. It has many more elements.
    Mr. Platts. Okay.
    Dr. Marks. And it did not have the specific parts about--
that she has in her bill about the standards for minimally 
nutritious foods.
    Mr. Platts. Okay. One other part of your testimony--and it 
is one of the challenges here--is your comments about schools 
are a central place to start.
    They certainly are an important place, but I would back 
up--as, you know, parents being the first place to start, and 
part of that is from being in my children's school on a regular 
basis in the lunch room.
    And I am one who, if someone else is cooking, I am always 
happy to eat, so I like school lunches.
    But I watch what is consumed at that table, and 
especially--one of the issues why focusing on parent education 
is because how many of my--of my two children, my 10-year-old 
packs. My 8-year-old usually buys.
    And when Leslie, my wife, packs--trying to have a good, 
balanced nutrition. But also, when I go in and watch what my 
son would eat if I wasn't there versus what, you know, he is 
eating with me present--but I watch his classmates, because 
their parent isn't there.
    And I am usually shocked at what is in their lunch bag that 
they brought from home, not what the school is selling them--
and that we need to really get to that education, and a 
national public education effort, because I think the obesity 
numbers are more and more common, but we haven't really taken 
those numbers and gone farther.
    And what you are trying to do, I think, through your 
foundation's efforts is the education of using that knowledge 
now to tell kids--or parents hey, you are making sure your 
child's seat belt is on--but you are making sure they are 
eating healthy at lunch or all of their meals.
    Dr. Marks. That is a great analogy that you drew there 
right at the end. For parents, we have to make the healthier 
choices easier for them to make and for their children to make.
    If they go to schools and all the food offerings are 
unhealthy, what are they going to choose? They have no choice, 
only unhealthy options.
    Mr. Platts. The one choice they would have--and I won't 
leave parents off the hook--is they could make sure their child 
packs a healthy lunch.
    Dr. Marks. And I would urge that they look at the policies 
at their schools as well, so that their child----
    Mr. Platts. Agreed.
    Dr. Marks.--healthy lunch they can eat it. Your example 
with the seat belts, though, is great. How many people would 
use seat belts if they weren't required that they be in cars? A 
lot fewer.
    And so it has always been an important role that we have 
for our society to say what are the things that are most 
important. Do we make those choices the easier choice, so that 
people then, when they make that choice, it is right there for 
them?
    Mr. Platts. I am going to try to squeeze in one other 
question. I am not sure if we are going to come back for a 
second round.
    Mr. Lawler, real quickly, your numbers are staggering of 
what your school has done. And there is a whole host of issues 
I want to pursue about your program.
    But one in particular I will start with and, if we get a 
chance, come back, is the comparison of your school to the 
California school district--the difference in, you know, 3 
percent of your entering freshmen of 1,500--a large group, too; 
a large sampling--were found to be overweight or obese, and 32 
percent of the California school.
    Was there a follow-up or an additional comparison, not just 
comparing what your phys ed program is doing to California's, 
but also of your school's nutrition standards in the 
cafeterias, or what they are selling, you know, vending 
machine, compared to the other school to have both sides 
compared? Or was it more just on the phys ed side?
    Mr. Lawler. It was mainly on the physical education side, 
and it is an interesting point. And we obviously have to make 
changes in our vending machines at school.
    But you mentioned a very, very important part, the 
education part of it. Prohibition doesn't work. We have to be 
educating these children about making good choices.
    We had some of those numbers even with vending machines in 
our school. With every choice out there, the number one seller 
in our vending machines for beverage by our students was water, 
because they have been educated.
    Now, another thing is, remember, our program started 15 
years ago, before this obesity crisis was there. We started to 
focus on children's health.
    We have really dedicated--now, remember, Illinois is one of 
those few states--it is the only state that mandates daily 
physical education. So we have the students every day to get a 
chance to make a difference with them.
    Mr. Platts. I will hopefully have a chance to come back. I 
would just add your example of the water is--I used to consume 
about a case of soda a week till 3 years ago. And then sitting 
at the dinner table, my then-4-year-old, 4.5-year-old, said--
they had milk or water, and I had my soda--``Dad, if it is so 
bad for me, why are you drinking so much?'' And so I drink 
nothing but water now. Went cold turkey. I got educated by my 
4-year-old.
    So thank you, Madam Chair.
    Chairwoman McCarthy. See? Listen to your kids.
    Mr. Yarmuth from Kentucky?
    Mr. Yarmuth. Thank you, Madam Chair.
    And thanks to all the witnesses.
    I would say in relation to drinking bottled water that I 
have had several groups of dentists, including pediatric 
dentists, recently in my office who say one of the biggest 
problems they face now with kids is that they are drinking so 
much bottled water that they are not drinking the water that 
has fluoride in it, and so they have--so I mean, you pick up 
some, and you lose some.
    I do come from a state that I think ranks number one in 
childhood obesity. If not, it is very close to it. It is not 
nearly as impressive as our basketball teams.
    And it seems that while we are talking about schools and 
their role in combating childhood obesity--and I think that is 
very appropriate--if the numbers are right that 35 percent to 
50 percent of food is consumed by kids in schools, that means 
50 percent to 65 percent is consumed outside of the school.
    And it seems to me that this is a very difficult problem. 
For instance, I have talked to many people in my district, an 
urban district, who say that in some of the lower income areas 
there is no availability of fresh food and fresh vegetables.
    And it seems to me that there are so many factors here that 
we have to rely on some universal approach to get at this 
problem.
    And I would kind of leave this as an open-ended question 
for the panel as to who much of this problem relates to factors 
such as economics, such as lifestyle, where parents don't have 
time enough at night to do anything more than put macaroni and 
cheese on the stove to feed to their kids.
    And so, certainly, we can't rely exclusively on schools, 
and I am just kind of wondering whether you can assess the 
relative importance of these non-educational factors as well.
    Dr. Stallings, please go ahead.
    Dr. Stallings. Well, I think your overview is absolutely 
true, and any of us in sort of the business looking at obesity 
and health in children--and in fact, in adults--recognizes 
right off the bat that it is very complex.
    And the causes are relatively complex, and the solutions 
certainly will be. And the panel is well constructed, because 
it is about energy in and energy out, the activity and the 
food.
    I think keeping all of the stakeholders involved--and 
really, a lot of work has been done really over the last 5 
years to make the whole country understand that childhood 
obesity actually, first, does exist, and second, is important.
    And I think that work has been done, and some of the work 
that Robert Wood Johnson and others are going to do is just 
phenomenal.
    But I would contend that one of the few opportunities we 
have where we have virtually all children, regardless if they 
are urban or rural, if they come from a high-income or a low-
income setting--that we have an opportunity to use the school 
setting as one of the steps in the right direction.
    Over the course of about a year, about half of the eating 
opportunities are in a school setting, and about half are at 
home. Now, that is not necessarily calories, but eating 
opportunities--meals and snacks.
    So our committee and, I think, Congress, through the 
request of the report, recognizes that schools have a unique 
role in some of the steps forward.
    But I agree completely, we should not target any one part 
of our complex society of food and activity and work and play 
and expect one to pull it off.
    But there really isn't anything else where we can model 
good food behavior--we can have some influence on the food that 
is provided--than the school system.
    Dr. Marks. If I could just----
    Mr. Yarmuth. Dr. Marks, yes, go ahead.
    Dr. Marks.--thank you--add a little bit to that, it is very 
clear that to solve this it is going to require efforts from 
all of the parts of our society and not just schools.
    One of the things I did want to comment on is that we also 
have been concerned that in some of the poorer inner-city 
neighborhoods there are not fresh fruits and vegetables.
    And we have supported a group called the Food Trust that, 
in Philadelphia, worked to put together to bring back a grocery 
store to an area that didn't have one.
    I visited an elementary school there and talked to a 3rd-
grade young girl who had a new favorite fruit. It was a banana. 
She had never had one before, because the corner stores can't 
stock perishable foods.
    And even if she had wanted to, or her parents, they 
couldn't have gotten it very easily. There is good data that 
when there is a grocery store that serves fresh fruits and 
vegetables that people in that neighborhood buy and consume 
more.
    In addition, part of the way the Food Trust made the case 
in inner-city Philadelphia was these were jobs that would be in 
that neighborhood. They might not be the best ones, but they 
are good for an area that had very few.
    So they helped make that case with the city council on an 
economic and development point of view as well. And we are 
supporting that group to now go to other cities as well.
    Mr. Yarmuth. Thank you.
    Chairwoman McCarthy. The gentlelady from Illinois, Ms. 
Biggert.
    Mrs. Biggert. Thank you, Madam Chairman.
    I have been to visit Mr. Lawler at the middle school, and I 
had the opportunity to ride on the bikes and race against one 
of the 7th-graders. Guess who won? And I am competitive.
    But what intrigued me about so much of this program is that 
it really engaged all of the students.
    And you know, you have always got the athletes that are way 
into sports, but so many times we lose, I think, kids that 
really are not--not to say that they are not competitive, but 
they don't think that they are good at sports. And this program 
is so good to reach all the students.
    And maybe, Mr. Lawler, you could tell us a little bit how 
the program--what you use in P.E.
    And the other thing that I have to say is that we in 
Illinois are so fortunate to have daily P.E. And I know in 
serving in the state legislature there was always somebody that 
wanted to take it away, and we wanted to make sure that they 
didn't.
    But if you could just talk a little bit about the different 
things--and how kids know how they are doing, the data that 
comes out after your participation.
    Mr. Lawler. We are, again, fortunate. Without a daily 
physical education program, we couldn't be providing--we 
wouldn't have the numbers of data that shows the results 
without that potential.
    But one of the things I comment about our program is that 
the biggest difference between the old physical education that 
I used to teach and the one we have now is every child feels 
comfortable about being there, and they know why they are 
there.
    We are educating them that every choice they make every day 
is going to affect their health the rest of their life.
    And we are not molding each student into becoming an 
athlete anymore. We still use the sports model for some people, 
but we are also providing a lot of other choices.
    To be honest, walking may be the best exercise ever 
invented. As Dr. Cooper says, walk your dog every day, even if 
you don't have one.
    So I guess the variety--but the educational part of turning 
the responsibility of the health over to the children 
themselves, letting them know that every decision they make 
every day is going to have consequences--and our students have 
really bought into that. They really are. They are truly taking 
ownership of their own health.
    Mrs. Biggert. Well, I was thinking of, you know, something 
like the elliptical or the treadmill, and how they see over the 
year that they really----
    Mr. Lawler. It is just one dimension of our program. We 
have gone to a focus of using a health club concept that as 
adults a lot of them won't be playing sports when they are 
older.
    Now, we do something very unique, and I don't necessarily 
recommend this for all schools, but we have taken one of the 
enemies, interactive video games--our kids will actually get on 
a bike that plays PlayStation, but they have to ride in order 
to play it. It only plays racing games.
    I think the invention of this new game Wii--I have not used 
it yet, but that is the dimension--the video game industry has 
a responsibility of helping us fight this also.
    And I am using eight different companies right now that are 
getting into physical activity, what we are calling exer-
gaming.
    Mrs. Biggert. We have had a couple of hearings on this in 
the past 2 years, and so many of the states say, ``Well, we 
can't afford it. We can't afford to have the P.E. every day or 
even twice a week or three times a week.''
    Ms. Howley, do you have any recommendations on how we can 
change the minds of some of these schools?
    Ms. Howley. Well, I think there is a couple of things, 
Congresswoman. I think one is, you know, we know from survey 
data that parents want this. Parents are the first taxpayers in 
their school districts.
    We fund our schools locally, and so parents who are the 
taxpayers have to demand that this is where their resources are 
going to go.
    I think secondly, you know, there is a lot of 
responsibility on states to equalize spending. And so parents 
have to speak to their state legislators and their state 
leaders about this is what we want our schools to look like.
    You know, from our perspective, the power of the wellness 
policy mandate is as much about what is in any individual 
policy as it is about the process of bringing parents and other 
community members together to address these problems 
comprehensively.
    We have been able to work with the National League of 
Cities and the American Association of School Administrators to 
bring together school leaders and city leaders to talk about 
the kinds of comprehensive solutions that are needed in a 
community, including how do we fund the things we need, whether 
it is the P.E. teachers, or the equipment or the space when we 
are building new schools. I mean, we don't build schools with 
gyms anymore. We need to do that again.
    We will pay for this, whether we pay for it now in terms 
of, you know, the cost of our buildings or our staff, or in 
terms of our health care costs.
    And I think, obviously, there is going to be a role--this 
is not my area of what the delineation of federal, state or 
local roles should be, but since many of those health care 
costs will sit at the federal government through Medicare and 
Medicaid, there is probably a role of the federal government as 
well in helping to equalize some of the spending and looking at 
those opportunities.
    But we know it is what families want.
    Mrs. Biggert. Thank you.
    I yield back.
    Chairwoman McCarthy. Thank you.
    The gentlelady from New York, Ms. Clarke?
    Ms. Clarke. Thank you very much, Madam Chair, and to all of 
our witnesses today. This has been a very stimulating 
conversation.
    And it is really putting this issue on the front burner and 
putting a spotlight on what I consider to be, really, a 
national challenge.
    As you well know, New York City is our nation's largest 
school system, and this is really presenting a challenge for us 
in many directions.
    As I think Ms. Howley just stated, we constructed many of 
our public schools without gymnasiums, and our school play lots 
are now parking lots for a lot of the school personnel.
    So to a large extent, we kind of fed into what has become 
this challenge around dealing with childhood obesity. Just to 
give you some statistical data, 43 percent of the elementary 
school children in New York City's public schools are either 
overweight and/or obese.
    That means that nearly one out of four of New York City 
elementary school children--these are our babies--translating 
to 100,000 students, are categorized as obese.
    And so we are looking to many different tactics for really 
addressing this head on. Some of it, I believe, as Mr. Yarmuth 
has said, is socioeconomic.
    In many of our communities, we are not having access to 
fresh vegetables and produce, and so to begin just that 
behavioral shift for many families--you are talking about 
generations of people who have not been eating properly for 
quite some time.
    And then you don't have the encouragement in the schools 
anymore for physical activity.
    What are some of the practical day-to-day measures--I mean, 
we are trying to use a school program, lunch and a snack 
program, to begin to infiltrate.
    And I think it was you, Dr. Marks, that said well, we can 
get the kids to help the parents to change the way that people 
address their eating habits, their nutrition and need for 
physical activity.
    Can we talk about some real practical day-to-day--what we 
can do in an area like New York City? And let me also add that 
a large part of the students in our public school system, over 
50 percent, are children of color. Many are immigrants. I mean, 
there are so many dynamics.
    I would like to see or hear from you some of what, in a 
multicultural type of environment, in a socioeconomic lower 
income environment, where the investments have not been made, 
the behavioral modification needs to take place, what has been 
done, how we track it, and how we can pursue it much more 
vigorously.
    Dr. Marks. Thank you. I mentioned already the issue about 
bringing supermarkets that sell fresh fruits and vegetables 
into neighborhoods that don't have them.
    Also, I wanted to share with you, I was just 10 days ago in 
Seattle in an elementary school that was just as you described, 
largely minority, very poor, approaching 90 percent on free and 
reduced lunch.
    It was a place that we had also helped put together a 
program in support, and they have done remarkably well. They 
had purchased a salad bar server so that everybody in the 
school could get them, and all the children did it, and so 
could the faculty.
    They incorporated nutrition education in the art program, 
so the day we were there, they were having them experiment with 
Ethiopian food. For those of you who haven't had it, it is 
served on a large, round bread with vegetables around.
    They had to draw it, and describe it, and figure out which 
ones they thought they were going to like ahead of time, and 
then they ate it and had to decide whether they were right or 
not.
    I talked to the librarian. He said that they no longer have 
and expect cupcakes or things like that as the snacks around 
birthdays. It is almost all fresh fruit. And no one asks for 
that anymore. It is just the fresh fruit.
    They have in their--at the end of the day, and at a break 
during the day, sliced apples and oranges and grapefruit that--
the kids come by the bins and get them and eat a couple.
    They have an assembly where a new vegetable is tried, and 
the children try it, and then they line up behind a smiley face 
if they like it and a frowning face if they don't.
    And they had a mini-farmers' market in the school in the 
evening that the parents came for, and they had vendors there, 
and the children had Monopoly-type money that they would use to 
decide what to buy, and the parents went along and would gather 
that up, and it was free for the parents.
    It has been evaluated, and they have said that more 
children at that school than others are eating three or more 
fresh fruits and vegetables a day. The parents talk about with 
the children, talking about it when they get home, wanting to 
go shopping so they can help select that.
    Now, that is not something that is everywhere. But that 
school has been so successful, other schools in the Seattle 
area are going to be trying to do it.
    They can use some WIC money. That is, when they teach about 
nutrition, that can be used to help support the person in the 
school that is doing it.
    But it is the kind of model that we are very excited about. 
There are models like this scattered about. They are not all 
evaluated. But we have a long way to go.
    And as I said in the beginning about the Institute of 
Medicine's previous report, there are too few, they are too 
small, they are too scattered, and there is not the national 
and state-level leadership to really pull these things 
together.
    Chairwoman McCarthy. Thank you.
    Mr. Sarbanes from Maryland?
    Mr. Sarbanes. Thank you, Madam Chair, and thanks for 
holding this hearing.
    And thank you to the panel. I have one question, a quick 
question. The fast food industry is a huge food distribution 
system. And I would like to hear your description of what is 
happening in that industry. Is anybody doing anything so they 
have some insight into it?
    Who are the actors who are stepping up? You can describe 
categories if you don't want to get into specific names.
    And how are they stepping up? What are the ways in which 
there is enlightenment, if it exists, within that industry with 
respect to the issues that we are talking about?
    And how can enlightened companies step off the cover of 
Fortune magazine and onto the cover of Life and Time magazine 
because they are being good corporate citizens with respect to 
this issue? Anybody.
    Mr. Chase. Anybody? Well, I am assuming you have read the 
book Fast Food Nation.
    Mr. Sarbanes. Excerpts.
    Mr. Chase. Excerpts. I would recommend we all take another 
look at that book. It is very interesting.
    I want to also mention that I am from New York. I grew up 
in New York City. And as usual, the poorest people--and as 
usual, the poorest are generally people of color--have the 
least access to sliced oranges, if, in fact, they have a school 
yard to play in and a halftime during a game they can have a 
snack. That would be valuable.
    And as Dr. Marks has already stated in his example in 
Seattle--which is not exactly the same as East Harlem, which is 
where I grew up, just of the cusp, and Harlem, but it is still 
a very poor area, the area that you spoke of. That would be a 
major issue.
    I think that kids have to learn at home, to begin with, 
that no, we are not going to, if I may say, McDonald's, for 
instance, tonight. It may seem cheaper, but in the end, it is 
going to be a lot more expensive, because in the end we are 
talking about diabetes.
    In the end, we are talking about not just No Child Left 
Behind, but no child's left behind should be larger than the 
child's left and right behind combined. That is what we see in 
this country.
    So you know, I think this is a question of education in the 
family and beginning there, but also access to fresh fruits. 
Oranges are not a big deal. I know that bananas can be.
    But there are also--let me just mention this one thing, and 
I am not really addressing your question exactly, but I am a 
fairly wealthy guy. I have made movies that have made all of 
you laugh, and I think you all owe me a little bit more respect 
than you have given me today. [Laughter.]
    And we live up in the country, Jayni and I, with our three 
daughters, but when it comes to having dinner, we go into our 
canned food area sometimes, and we just take out a can of 
beans, and we find an old onion, and we find a tomato that may 
be just at the edge, and we chop it all up and put it in a 
frying pan.
    And I will tell you, that is very, very healthy. There are 
things in cans that can be quite healthy and good, and that is 
a way of educating your kids how to cook, how to do it on a 
very low budget.
    I am just telling you what I know in my life. Otherwise I 
have nothing else to say, because, really, my wife put me up to 
this, and you know, I have got to get to California and get 
some work, and--no, I just want you to know that there are 
things to do.
    And also, I want to just emphasize with Congresslady 
Clarke, because I understand that it is the poorest of the poor 
who are getting the bad shake. And I think bills of the nature 
that we are talking about address those people. Thank you.
    Dr. Marks. I was just going to comment--following Chevy is 
a little difficult, but in the area of industry, fast food and 
other food industry, they are going to have to be part of the 
solution.
    They have to view this as in their interest. Part of that 
is what the public will buy. We are starting to see some of 
those changes. But they also have to have a profit.
    Some of them are recognizing that the healthier-for-you 
foods are where some of their increased profit growth is coming 
from. That is terrific.
    But there are other things that they could do that might 
speed this along. So for example, when you go into fast food 
and you purchase a special meal for your child, perhaps the 
default could be water and fruit slices, or carrots, and you 
have to ask especially for soda or french fries.
    It would change what people would buy just by adding that 
little extra bit, I believe.
    I think if children get healthier foods at schools, they 
are likely to look for that when they go out to eat with their 
family. So we have to make this a push-pull. But we can't do 
this without industry taking it seriously and being part of the 
solution.
    And I know that in industry there are some parts and some 
individuals who want very much to be part of the solution and 
others that are finding that hard to embrace and finding that 
they are not yet ready for it.
    And it will eventually be the public that tells them they 
have to be ready.
    Mr. Sarbanes. Thank you.
    Chairwoman McCarthy. Thank you. As you can tell by the 
bells going off, we do have a vote coming up.
    But Mr. Platts and I were speaking, and we want to follow 
up with one more question, so we are using our power.
    And, Mr. Chase, you have made us laugh, but we do 
appreciate your time here. And obviously, you listen to your 
wife, so you have to be a good guy. [Laughter.]
    Mr. Chase. Thank you very much for having me.
    Mr. Platts. Mr. Chase, what I was going to say is not only 
are you a funny gentleman, but a wise--because listening to our 
wives is very important, so I do appreciate you and all here.
    In fact, sitting here, I was--how can I bring all of you to 
my district and, you know, in the education, Mr. Chase, you 
will bring everybody out to get the public's attention, and 
then we have got the phys ed expertise, we have got the student 
who can connect with her peers on the importance of this, and 
we have got the medical and research community that are all 
represented, in how to do this back home, because what each of 
you have shared is really what we need to replicate at every 
level and across every state.
    And I am not sure who just referenced--but we can either 
pay a little bit now or a lot more down the road.
    And so it is one of the wisdoms of--I am a fan of Ronald 
Reagan, who said, you know, if we want to do something for our 
nation's future, we need to do something for our nation's 
children, because they are the future, as our great example 
right here exemplifies.
    But a quick question on the phys ed side. I wanted to 
follow up with Mr. Lawler. I want to make sure I understand. In 
Illinois, it is a state mandate for daily phys ed class?
    Mr. Lawler. It has been a state mandate in Illinois for 
years. We are the only state. But let me tell you the reality 
of it. The government got involved. We have a waiver process. 
The reality is there are a lot of schools in Illinois that are 
not offering daily P.E. That is a reality.
    But there are a lot of schools that are, especially at the 
high school level. It is almost a dinosaur at the high school 
level anymore.
    Mr. Platts. And you are in Naperville. It is every day.
    Mr. Lawler. At the high school, we have 3,000 students that 
take daily physical education all 4 years.
    Mr. Platts. Okay. How long of a class--you know, what does 
that mean?
    Mr. Lawler. Oh, it is the same as all other subject areas.
    Mr. Platts. Okay.
    Mr. Lawler. It is about a 50-minute period. At the middle 
school level, it is a 40-minute period. And they have it daily.
    Mr. Platts. And the specific program, the PE4LIFE--was that 
a result of school board action saying, ``This is what our 
program is,'' or is it more at the teacher level saying, ``Hey, 
this is how we are going to do it?''
    Mr. Lawler. It was bottom up. Physical education was not an 
important part of our community earlier. It is now part of our 
community culture, just like it should eventually become part 
of the national culture. It is definitely accepted and 
respected.
    When I first started teaching, you know, I was the Rodney 
Dangerfield of education--absolutely no respect for what I did. 
But it has truly changed. We changed the delivery, and people 
really value it.
    Mr. Platts. Well, hopefully, as we move forward, you know, 
we are going to take what you share with us and put it to good 
success for our children across the nation, all of you.
    Mr. Lawler. And I would be glad--you contact me. I would be 
glad to bring this information back to the district that your 
children are in.
    Mr. Platts. Gettysburg, York, Central Pennsylvania. We need 
it. You know, we want to do right by children throughout the 
country. So again, my thanks.
    Madam Chair, thanks for allowing me that second round.
    Chairwoman McCarthy. Just to follow up, how long is your 
school day?
    Mr. Lawler. Our high school starts at 7:45, and the 
dismissal time is 3:10.
    Chairwoman McCarthy. Okay.
    I want to thank everybody for being here. You know, a lot 
of things that you talked about, we are already working on.
    The Agricultural Committee, the Ag Committee, has put money 
in especially for underserved schools so that we will have 
fresh fruit into those particular schools. So we are taking not 
only what we are doing here, it is in other committees that are 
working and looking at how can we make our children healthier.
    I live in a suburban area, and yet I am surrounded by low-
income schools. And I see, number one, with those particular 
children, they already have a higher rate--whether it is 
asthma, whether it is diabetes.
    And certainly, if you look at their parents, they have 
higher rates of heart disease, diabetes--which, unfortunately, 
leads to dialysis, which is costing this nation too much money 
because it is all preventable.
    And there are three nurses here in Congress. I am one of 
them. We are trying to educate our members that it might cost a 
little bit more in the beginning, but what it can cost--save 
money in the future is a tremendous amount of money.
    But more than that, we will have a healthy country. And if 
you want to talk about homeland security, if our children are 
healthy and our nation is healthy, we are more secure.
    So we have already--you know, and you saw us talking back 
and forth. We are looking at, again, things that we might not 
be able to do in this particular committee, but hopefully we 
could follow through and leave no child behind.
    This committee is very dedicated to the children, and 
everybody on this committee--and I have said this before--we 
care about the issues. We are here because we want to be here.
    So I thank you for your tolerance for us being late. I 
thank you for your testimony. We will take it. We will use it. 
And you have to remember one other thing. The wellness program 
is only 1 year old, and that is--you know, in our time down 
here, that is nothing.
    So we can build upon it. We can make it better. And we have 
all of you as resources. So give us time. We will keep building 
on it. Hopefully, we will make this a better nation for all of 
us. I thank you again.
    Oh, yes, I have to say we adjourn the hearing.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Madam Chairwoman, for holding this important hearing 
today on how we can best use School Wellness Programs to fight 
childhood obesity.
    I would like to extend a warm welcome to today's witnesses. I 
appreciate all of you for taking the time to be here and look forward 
to hearing from you.
    Stopping the increasing rate of childhood obesity and improving our 
entire nations health is an issue of great importance to me. This week 
the House of Representatives passed H. Res 371, a resolution sponsored 
by me recognizing the first week in May as National Physical Education 
and Sports Week. The goal of this resolution is to bring increased 
awareness about the importance of physical activity to all people but 
in particular to children.
    The lack of physical activity by our nation's young people is one 
of the key factors that has contributed to the dramatic rise in 
childhood obesity. It is recommended by the Center for Disease Control 
that children and teenagers get at least 60 minutes of physical 
activity a day. Currently, only 25% of children in this nation get at 
least 20 minutes of physical activity a day. Clearly, we are falling 
woefully short in terms of providing our nation's children with 
opportunities to be physically active and the education that being 
physically active is important.
    School Wellness Programs provide an opportunity to fight childhood 
obesity by providing increased opportunity for physical activity as 
well as by helping students develop other healthy habits. Today, I look 
forward to hearing how these plans can be used more effectively to 
reduce childhood obesity.
    Thank you again, Madam Chairwomen, for having this important 
hearing and for your support of my efforts in this area. I yield back 
the balance of my time.
                                 ______
                                 
    [Additional materials submitted by Mrs. McCarthy follow:]

Prepared Statement of Kathy Cloninger, President & CEO, Girl Scouts of 
                                the USA

    Girl Scouts of the USA respectfully submits this testimony to the 
Subcommittee on Healthy Families and Communities of the House Education 
and Labor Committee.
Introduction
    Girl Scouts of the USA (GSUSA) is the world's preeminent 
organization dedicated solely to girls, serving 2.9 million girl 
members in every corner of the United States, Puerto Rico, and the 
Virgin Islands. GSUSA has a long standing commitment to the well-being 
of girls and continues to be an authority on their healthy growth and 
development. With over 60 badges related to healthy living and a 
historic emphasis on health in the Girl Scout experience, girls are 
educated and empowered to take action to strengthen their physical and 
emotional health and positively impact their communities and the world.
    Our original research report released earlier this year entitled 
The New Normal? What Girls Say About Healthy Living confirmed that 
girls believe being healthy is not just about physical health, but also 
emotional and social health. The report combined focus group research 
with surveys of more than 2,000 eight- to 17-year-old girls. We learned 
that teaching girls about making healthy decisions is about teaching 
them how to decide, not about telling girls what to decide.
    Through its long history, GSUSA has learned that comprehensive 
approaches are the most effective in combating obesity and instilling 
positive health choices in girls. Physical fitness must be combined 
with good nutrition skills, a healthy body image and an overall healthy 
lifestyle. Since adequate progress is not being made to ensure our 
young people live healthy lives and we believe all sectors must be 
involved in developing solutions, GSUSA is looking for opportunities to 
assist Congress in improving how we as a country promote the health of 
young people, especially girls. In order to best meet the needs of 
girls and youth, GSUSA recommends the following principles on healthy 
living:
    1. Policy solutions should embrace a holistic definition of health 
rather than focusing on a single aspect of children's health.
    2. Community based organizations that serve youth should be seen as 
vital partners in developing solutions in the area of health. Schools 
cannot address this crisis alone.
    GSUSA urges this committee to consider these principles when making 
all decisions impacting young people. These principles are especially 
relevant to the debate on No Child Left Behind (NCLB), and NCLB 
provides a prime opportunity to positively impact the health of all 
girls. GSUSA is seeking other legislative developments through which to 
recommend these principles. The expansion of the local school wellness 
policies is one such development that could be revised to positively 
impact the health of youth.
Request to Expand Local School Wellness Policies
    Under the No Child Left Behind reauthorization, the Safe Schools/
Healthy Students Initiative could be revised to include an incentive to 
schools to revisit and refine their school wellness plans. Schools 
should be urged to make more comprehensive wellness plans and utilize 
the resources of outside community partners. Activities related to 
establishing and implementing a local wellness policy would be eligible 
for funding from this discretionary grant program.
    Childhood obesity is a multi-faceted problem that must be viewed by 
communities on various levels. Since children spend much of their day 
in school, nutrition standards and the amount of time children engage 
in physical activity are two areas that deserve special attention, but 
they must not be the only areas under consideration.
Conclusion
    Girl Scouts is a powerful community building tool and we seek to be 
a part of the solution to promoting healthy living in your important 
work ahead. GSUSA would like to thank this committee for its 
willingness to examine this important issue.
                                 ______
                                 

Prepared Statement of Howell Wechsler, Ed.D, MPH, Director, Division of 
     Adolescent and School Health, Centers for Disease Control and 
        Prevention, U.S. Department of Health and Human Services

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to provide this Statement for the Record for today's 
hearing on using school wellness plans to fight childhood obesity. I am 
Dr. Howell Wechsler, Director of the Division of Adolescent and School 
Health at the Centers for Disease Control and Prevention, U.S. 
Department of Health and Human Services (HHS). My statement discusses 
what we know about the implementation of local school wellness policies 
mandated by the Child Nutrition and Women, Infants, and Children (WIC) 
Reauthorization Act of 2004, along with complementary school-based 
efforts to address obesity among children and adolescents.
Analyzing the Early Stages of Local Wellness Policies
    The mandate required local educational agencies, usually school 
districts that participate in federally-funded school meal programs, to 
have wellness policies in place by the beginning of the 2006-2007 
school year. It is still much too early to draw conclusions about the 
effectiveness of the law in spurring the adoption of scientifically 
sound and effective policies or, more importantly, in leading to the 
actual establishment of health promoting school environments. A number 
of data collection efforts and research studies are under way, but it 
will be some time before they are completed and published. In the 
meantime, I will share with you the limited information we do have 
about the adoption of school wellness policies.
    Two national non-profit organizations--Action for Healthy Kids 
(AFHK) and the School Nutrition Association (SNA)--are dedicated to 
protecting and promoting the health of the nation's youth. These 
organizations have conducted analyses of wellness policy adoption 
during this school year. AFHK analyzed wellness policy adoption and 
content in 112 urban, suburban, and rural school districts, and SNA 
looked at the 100 largest school districts in the Nation. From these 
two analyses, it appears that the overwhelming majority of school 
districts have indeed adopted wellness policies as the law requires and 
that the policies they have adopted do include most but not all of the 
components required by the law. That is they address: 1) goals for 
nutrition education, physical activity, and other wellness activities; 
2) nutrition guidelines for all foods and beverages outside of school 
meals; 3) guidelines for school meals that are no less restrictive than 
federal requirements; 4) a plan for measuring implementation of local 
wellness policy, including designation of a coordinator; and, 5) 
involvement from parents, students, community members, and others. The 
law does not specify what the policies need to say, only that they need 
to address these issues.
    These two early analyses did show that some district policies are 
lacking some of the components required by the law. For example, AFHK 
found that many of the policies they analyzed lacked timeframes and 
measurable objectives to evaluate; 40 percent of the policies did not 
specify who was responsible for implementation. In addition, some 
policies do not address some of the more recognized components of a 
comprehensive school-based approach to wellness promotion and obesity 
prevention. For example, the SNA found that about half of the policies 
they analyzed did not include a requirement for recess in elementary 
schools, which can provide children with opportunities for physical 
activity.
    The analyses found a range of approaches to policy content. In the 
SNA analysis, 37 percent of the districts had a broad policy with no 
procedures for implementation included, while 35 percent included some 
specific procedures, and 26 percent included a great deal of 
specificity about procedures for implementation. This range of 
specificity is not surprising, because school boards tend to vary 
substantially in the degree of specificity of their policies on other 
educational issues as well. The wellness policies ranged in length from 
less than one page to 20 pages, with the average length of a policy 
being five pages.
    All in all, it seems that the wellness policy adoption process is 
off to a good start, though many school districts could certainly 
benefit from further technical assistance on policy development. 
Wellness policy adoption is clearly feasible for school districts. It 
is also clear that a great many school districts have engaged in 
thoughtful and diligent processes to craft policies that are consistent 
with the science-based recommendations that CDC, the US Department of 
Agriculture (USDA), other federal agencies, and trusted scientific 
organizations such as the Institute of Medicine have established. AFHK 
has a local wellness policy database on its website that highlights 
policies from school districts across the nation, and a number of 
states have developed similar online databases of thoughtful policies 
from school districts in their states.
Research in the Field
    The most rigorous and comprehensive analysis of wellness policies 
to date is currently being conducted by university researchers with 
funding support from the Robert Wood Johnson Foundation (RWJF). This 
study will analyze the content of wellness policies in a nationally 
representative sample of 585 school districts. Findings should be 
available sometime in 2008. RWJF is also supporting several other 
studies that will yield additional information on the impact of 
wellness policies and effective strategies for promoting policy 
implementation.
    USDA is currently supporting the Wellness Policy Demonstration 
Project, which is analyzing wellness policy adoption and implementation 
in California, Iowa, and Pennsylvania to: 1) assess local wellness 
policy activities in selected school districts; 2) document the process 
used by these school districts to develop, implement, and measure 
policy implementation; 3) document changes resulting from policy 
adoption in the school physical activity and nutrition environment; 
and, 4) assess the types of technical assistance necessary to help 
school districts implement and evaluate a local wellness policy. 
Findings from this three year study won't be available until 2009.
    We have received many positive reports that strong policies have 
been effectively implemented in some school districts, but it will be 
some time before we know the magnitude of change in school policies and 
practices. For example, CDC's School Health Profiles survey collects 
data on physical activity and nutrition policies and practices in 
schools across participating states and cities. CDC conducts this 
survey every other year, and it will be conducted again in 2008 with 
final data available in 2009.
State Actions
    The wellness policy law makes no mention of a role for state 
agencies in promoting school wellness policies; however, the law has 
had a profound effect in stimulating action by states to help school 
districts adopt and implement scientifically sound wellness policies. 
For example, at least 40 states have produced policy guidance documents 
and resources to aid local education agencies in creating wellness 
policies, and state agencies in at least 18 states disseminate their 
own model wellness policies. At least nine states have passed laws or 
adopted regulations that reference the wellness policies required by 
the Child Nutrition and WIC Reauthorization of 2004 and establish 
content requirements that go beyond those required by the federal 
government.
    Many states have gone beyond issues of policy content to address 
the critical challenge of how to ensure that scientifically sound 
policies that are adopted by school boards actually get implemented in 
schools. At least 15 state legislatures or state boards of education 
have adopted requirements intended to strengthen policy evaluation and 
accountability, including mandating that school districts report to the 
state on policy implementation and requiring ongoing local level 
accountability for implementation of wellness policies.
    Strong actions have been taken in the 23 states that CDC supports 
to implement coordinated school health programs that promote physical 
activity and healthy eating. For example, Arkansas, Rhode Island, and 
South Carolina have integrated local wellness policies into their 
general accountability system. Arkansas' Consolidated School 
Improvement Plan requires each district to incorporate a Wellness 
Priority into each of their School Improvement Plans. Rhode Island 
mandates that each school district establish a district-wide 
coordinated school health and wellness subcommittee that is responsible 
for the development of policies, strategies, and implementation plans 
that meet the requirements of the Child Nutrition and WIC 
Reauthorization Act of 2004. South Carolina requires each school 
district to establish and maintain a Coordinated School Health Advisory 
Council (CSHAC), charged with implementing and monitoring health 
policies and programs, including the district wellness policy. 
Districts must collaborate with the CSHAC to develop a school health 
improvement plan that addresses strategies for improving student 
nutrition, health, and physical activity and is integrated into the 
district's five-year strategic improvement plan.
    Many of these state-level efforts were stimulated by the January 
2006 School Wellness Policy Institute in Atlanta, sponsored by CDC in 
collaboration with the USDA and the National Governor's Association. 
This meeting brought together teams of education and health agency 
officials and representatives of governors' offices from 44 states to 
develop collaborative efforts to meet the technical assistance needs of 
school districts in their states related to wellness policy adoption 
and implementation.
    State agency professionals who lead school physical activity and 
nutrition programs tell me that the local wellness policy requirements 
have been a very positive development. I have also heard from many 
school health professionals, as well as from principals, 
superintendents, and school board members, who tell me the local 
wellness policy requirement was the tipping point for their district, 
the decisive factor that prompted educational policy makers to help 
schools strongly and consistently promote healthy eating and physical 
activity.
Evidence Base for Effective Strategies and Tools for Implementation
    The local school wellness policy law builds upon strong progress 
achieved in recent years in developing an evidence base that describes 
the policies and practices schools can implement to effectively promote 
physical activity and healthy eating. CDC has reviewed the research 
literature and consulted with leading researchers and practitioners to 
identify 10 critical strategies: http://www.cdc.gov/healthyyouth/
keystrategies/index.htm.
    <bullet> Address physical activity and nutrition through a 
Coordinated School Health Program (CSHP).
    <bullet> Designate a school health coordinator and maintain an 
active school health council.
    <bullet> Assess the school's health policies and programs and 
develop a plan for improvements.
    <bullet> Strengthen the school's nutrition and physical activity 
policies.
    <bullet> Implement a high-quality health promotion program for 
school staff.
    <bullet> Implement a high-quality course of study in health 
education.
    <bullet> Implement a high-quality course of study in physical 
education
    <bullet> Increase opportunities for students to engage in physical 
activity.
    <bullet> Implement a quality school meals program.
    <bullet> Ensure that students have appealing, healthy choices in 
foods and beverages offered outside of the school meals program.
    In addition, CDC and other federal agencies have, in recent years, 
developed a strong product line of technical assistance tools that 
support wellness policy implementation by empowering schools and school 
districts with guidance on how to effectively implement these 
recommended policies and practices. These tools include:
    <bullet> CDC's School Health Index (SHI), a self-assessment and 
planning tool that enables schools to identify the strengths and 
weaknesses of their health promotion policies and programs, and use 
those findings to develop an action plan for improving student health;
    <bullet> Fit Healthy and Ready to Learn, a school health policy 
guide developed with CDC support by the National Association of State 
Boards of Education, that provides education policymakers and 
administrators with sample physical activity and nutrition policies and 
information to support the policies;
    <bullet> CDC's Physical Education Curriculum Analysis Tool (PECAT), 
which enables educators to evaluate and improve physical education 
curricula based on the extent to which the curricula align with the 
National Standards for Physical Education developed by the National 
Association of Sport and Physical Education (NASPE) guidelines and best 
practices for quality physical education programs;
    <bullet> CDC's Building a Healthier Future Through School Health 
Programs, which describes promising practices that states should 
consider when planning school-based policies and programs to help young 
people avoid behaviors that increase their risk for obesity; and
    <bullet> Making It Happen: School Nutrition Success Stories, 
developed by CDC and USDA in partnership the U.S. Department of 
Education, describes six key strategies used to improve the nutritional 
quality of foods and beverages offered on school campuses and 
highlights 32 schools or school districts that have implemented 
important improvements in the quality of their nutritional environment.
    CDC also provided support to the Institute of Medicine of the 
National Academies to carry out a Congressionally-mandated study to 
develop scientifically sound guidance on what foods and beverages 
should be offered and sold at schools. The study focused on identifying 
nutritional standards for ``competitive'' foods; these are foods and 
beverages sold at school in competition with the nutritious meals 
offered through the federal school lunch and breakfast program. The IOM 
report, Nutrition Standards for Foods in Schools: Leading the Way 
toward Healthier Youth, was released in April 2007 and emphasizes the 
importance of offering healthful snack foods and drinks, such as 
fruits, vegetables, whole grains, and nonfat or low-fat dairy products, 
that are consistent with the 2005 Dietary Guidelines for Americans 
(DGA).
    In addition, the USDA supports efforts to improve school nutrition 
through its Team Nutrition program and dissemination of a tremendous 
variety of high quality technical assistance resources. Many federal 
agencies, such as the National Institutes of Health (NIH), Food and 
Drug Administration (FDA), and the President's Council on Physical 
Fitness and Sports, have developed and disseminate high quality health 
curricula, instructional materials, and after school programs for 
elementary and secondary schools.
Challenges Remain
    In recent years CDC has helped to develop a much stronger knowledge 
base on what constitutes effective policies and practices schools can 
implement to help students develop and maintain physically active and 
nutritionally sound lifestyles. We have translated that knowledge into 
effective tools that make it easier for schools to implement these 
policies and practices. At the federal and state levels, our greatest 
challenge continues to be the dissemination of this knowledge and these 
tools into the more than 14,000 public school districts, and over 
120,000 schools across our Nation. At CDC our primary vehicle for 
dissemination is the support we provide to state education and health 
agencies to deliver the scientifically sound training, technical 
assistance, and supportive state policies that local school districts 
and schools urgently need.
    Another vehicle for dissemination is Secretary Leavitt's Adolescent 
Health Promotion Initiative which aims to create a national culture of 
wellness that helps young people take responsibility for personal 
health through actions such as regular physical activity, healthy 
eating, and injury prevention. The School Health Index is central to 
this initiative and will enable schools to assess their policies and 
programs and develop action plans for improvement. After developing 
action plans that include specific research-tested strategies schools 
will be able to apply to their State Education Agency for a School 
Culture of Wellness Grant. These grants will support the implementation 
of HHS-developed tools relevant to the school wellness improvements 
featured in their action plans.
    At a time when schools are relentlessly focused on student 
achievement so they can ensure no child is left behind, it is important 
to remember that wellness policies can help students be healthy and 
ready to learn. In fact, a growing number of educators have come to 
realize that strong school wellness policies can enhance academic 
performance, as well as critical health outcomes. The Association for 
Supervision and Curriculum Development (ASCD) asserts that decisions 
about education policy and practice should begin with strategies that 
are comprehensive in nature. ASCD is working to recast the definition 
of a successful learner from one whose achievement is measured solely 
by academic tests, to one who is knowledgeable, emotionally and 
physically healthy, civically inspired, engaged in the arts, prepared 
for work and economic self-sufficiency, and ready for the world beyond 
formal schooling. The Council of Chief State School Officers and the 
Association of State and Territorial Health Officials affirm that 
policies and programs built through a coordinated approach to school 
health will make a significant contribution not only to individual 
students, but also to entire communities, and that these initiatives 
will clearly demonstrate that healthy kids make better students and 
better students make healthy communities. The National Association of 
State Boards of Education maintains that coordinated school health 
programs can help young people achieve higher standards of health and 
learning through improving health knowledge, attitudes, skills, and 
behaviors, and improving health education and social outcomes.
    With the requirement for wellness policies and the work of the CDC-
funded state programs in coordinated school health, CDC has seen a 
growing number of educators who appreciate the important role of health 
and wellness in the mission of our schools. As a nation, we have a long 
way to go and many critical barriers to overcome, but some important 
progress is being made. I recently had the privilege of visiting a 
school in Wisconsin that had just been named the winner of the 
Governor's School Health Award, which recognizes and celebrates schools 
with policies, programs, and the infrastructure to support and promote 
healthy eating; physical activity; alcohol-, tobacco-, and drug-free 
lifestyles; and parental and community involvement. In the previous two 
years, they had adopted a strong wellness program that included more 
time for students to engage in physical activity, enhanced nutrition 
education efforts for students and their families, and distribution of 
fruits and vegetables as snacks during the school day. I asked the 
principal of this school how he could justify spending so much time and 
resources on wellness when he, along with all principals, was under 
great pressure to improve the academic performance so critical to 
students' future success. ``I have no doubt,'' he replied, ``that these 
measures we've taken to promote physical activity and nutrition will 
help our students' academic performance. And, besides, it's good for 
the kids.''
                                 ______
                                 

    Prepared Statement of Monica Garrett, Sr. Manager, US Corporate 
                    Responsibility, NikeGO Programs

    Chairperson Rep. McCarthy and other distinguished Members of the 
Committee, thank you for the opportunity to address the important role 
public-private partnerships play in tackling this issue. The severity 
of this epidemic and its impact on our children's future requires new 
thinking and new approaches. This hearing presents a unique opportunity 
for schools and communities to develop and implement real solutions to 
promote increased physical activity, reduce and prevent unhealthy 
weight in children, and improve nutritional choices in schools.
    Like all of you, we at Nike are very concerned about the current 
epidemic of youth inactivity among children in the United States. It is 
a troubling fact that as a result of inactivity and diet, today parents 
have a longer life expectancy than their children. As the world's 
leading sports and fitness company, we are passionate about finding a 
solution to this national health crisis and are proud to bring the 
commitment of Nike to work with you and others on this issue.
The Challenge
    Today, physical inactivity plays a major role in fueling this 
national epidemic that that threatens our youth. Health professionals 
agree that kids should take part in a minimum of 30 minutes of moderate 
to vigorous physical activity daily. Only one in four U.S. public 
school students attends regular P.E. classes. A recent study conducted 
by the CDC found that less than one in 10 elementary schools and 
roughly one in 20 junior and senior high schools provide daily P.E. all 
year in all grades.
    We know the benefits of regular physical activity. Children who are 
physically active:
    <bullet> reduce their risk of cancer and their vulnerability to 
depression, anxiety and low self-esteem;
    <bullet> are more likely to graduate from high school;
    <bullet> are less likely to use drugs;
    <bullet> are less likely to have an unwanted pregnancy;
    <bullet> are less likely to join gangs; and
    <bullet> are less likely to develop an eating disorder.
Nike's Response
    In many ways, Nike's own thinking and approach toward addressing 
this national epidemic are very similar. Nike has a long history of 
supporting sport and physical activity programs. But six years ago, as 
we began to get a better understanding of the scope and scale of this 
health problem, we raised the stakes. We started by talking to experts 
in the field about the root causes and cures, and the role Nike could 
play in helping to address the issue. We evaluated the most effective 
programs that address youth inactivity and unhealthy weight. We looked 
for innovative and creative approaches that address youth physical 
inactivity from all directions and at all stages of childhood.
    As a sports and fitness company, we know firsthand the value that 
daily physical activity can offer--both to kids and adults. And we 
recognize that through the power of our brand, we are in an excellent 
position to help tackle this issue. But we realize that as passionate 
as we are about getting kids active, we simply can't do this alone.
    That is why we created a long-term, multi-stakeholder initiative to 
address youth inactivity called NikeGO. We have partnered with 
organizations whose expertise brings greater impact to the programs we 
build for inactive kids and the parents, teachers and coaches who 
influence their behavior. And we are using this same partnership 
strategy with the advocacy efforts we launch regionally and nationally 
to drive policy-level changes on this issue and I would like to talk to 
you about three NikeGO programs.
NIKEGO PE
    Nationwide, kids are rapidly turning into the least physically fit 
generation in history, which has implications for their health and 
academic performance. In addition, many schools across the nation are 
drastically reducing or eliminating physical education and physical 
activity from their budgets. In 2003, to help address this problem, 
Nike, in partnership with SPARK (Sports, Play, and Active Recreation 
for Kids), launched NikeGO PE, a program designed to increase the 
quality and quantity of physical activity in America's schools. SPARK 
is a research-based organization (of San Diego State University and 
Sportime, LLC, a member of the School Specialty Family of companies), 
dedicated to creating, implementing, and evaluating programs that 
promote lifelong wellness. SPARK strives to improve the health of 
children and adolescents by disseminating evidence-based physical 
activity and nutrition programs that provide curriculum, staff 
development, follow-up support, and equipment to teachers of Pre-K 
through 12th grade students.
    Unfortunately, in many school districts across the country, the 
role of the PE specialist has been eliminated or drastically reduced. 
With recent national guidelines recommending that young people 
accumulate at least 60 minutes of physical activity daily, having a 
quality physical education program in every school should be a national 
priority. Through NikeGO PE, Nike seeks to increase the quality and 
quantity of PE in schools
    NikeGO PE is part of the ``New P.E.,'' a movement where students no 
longer stand on the sidelines or in line waiting for a turn to play. 
All kids get the same opportunities to participate, develop skills and 
feel successful, and all kids are moving for the full 30 minutes.
    NikeGO PE is an innovative physical education program designed to 
increase the quality and quantity of physical activity in America's 
schools with an end goal of improving children's activity levels. 
NikeGO PE accomplishes this task by providing ``the essential 
components'': curriculum, teacher training, equipment, and follow up 
support to elementary PE specialists and classroom teachers. Classroom 
teachers are involved because in many districts PE specialists see 
students only once a week--insufficient frequency and duration to 
achieve health benefits.
    Since its inception in 2003, the program has been implemented in 
more than 400 public schools, reaching more than 75,000 students. The 
program is available in six US cities: Akron, Chicago, Los Angeles, New 
York, Memphis and Portland.
Reuse-A-Shoe/Nike Grind
    Nike Reuse-A-Shoe takes old, worn-out athletic shoes and other 
footwear manufacturing materials, grinds it up into Nike Grind, and 
then works with industry leading sports surfacing companies to use Nike 
Grind in high quality sports and play surfaces. Many of these fields, 
courts, tracks and playgrounds are already installed in top sports 
facilities around the world. Then as part of its community investment 
strategy, donations are made by Nike to bring some of these surfaces to 
communities where new facilities are really needed and kids can enjoy 
the many physical and social benefits of play and sport. Since 1993, 
Nike has contributed to more than 250 surfaces around the world and 
recycled nearly 20 million pairs of athletic shoes.
    Reuse-A-Shoe is an integral part of Nike's long-term commitment to 
promote healthier lifestyles for kids through physical activity. Kids 
win because many of these sports surfaces are donated in communities 
where they wouldn't otherwise have access to high-performance sports 
surfaces. It's also a win for the environment, as thousands of pairs of 
athletic shoes are diverted from landfills and kids learn about the 
need to protect the Earth's resources in an exciting and inspirational 
way. On May 11, 2007 in Washington D.C. at the Boys & Girls Club, 
Clubhouse #11 in Anacostia, in partnership with the U.S. Soccer 
Foundation, Nike will be dedicating a new mini soccer field made using 
Nike Grind Rubber and you are all welcome to attend and encouraged to 
visit.
Native American Diabetes Prevention Program and NikeGO in Indian 
        Country
    Under the leadership of Indian Health Services, Nike Native 
American community program helped forge a unique partnership with IHS, 
with the signing of an important Memorandum of Understanding (MOU) in 
November of 2003. Nike and IHS signed the MOU to collaborate on a 
promotion of healthy lifestyles and healthy choices for all American 
Indian and Alaska Natives. The MOU is a voluntary collaboration between 
business and government that aims to dramatically increase the amount 
of health information available in American Indian and Alaska Native 
communities. The goal of the MOU is to help those communities gain a 
better understanding of the importance of exercise at any age, 
particularly for those individuals with diabetes.
    The MOU supports the President of the United States' ``Healthier 
U.S. Initiative,'' the Secretary of Health & Human Services' 
Preventative Initiative ``Steps to a Healthier U.S.'' and the Indian 
Health Services' ``Health Promotion/Disease Prevention Initiative.''
    Nike stands by the words of co-founder Bill Bowerman who said that 
if you have a body, you are an athlete. Applying this thinking in 
conjunction with the goal of the MOU and through deeper understanding 
in working with the IHS, Nike is developing an innovative new shoe that 
offers increased comfort and a new fit, uniquely designed for Native 
Americans. Nike's goal with this product is to encourage and motivate 
these citizens to exercise and maintain their physical fitness by 
providing comfortable, appropriate athletic footwear. The shoe is still 
in development and will be offered through limited distribution to 
qualified Native American Business partners.
    Nike's U.S. Community Affairs program has also partnered with 
several national stakeholders and government officials to introduce the 
NikeGO on Native Lands. Through this pilot program, NikeGO provides a 
culturally relevant physical activity curriculum, training, equipment 
and incentives, all designed to help Native American youth ages 8-15 
discover the joy of movement and the fun of physical activity. Since 
2004, NikeGO on Native Lands has expanded to include grants to 67 Boys 
and Girls Clubs on Indian Reservation across 20 states. Fifteen of 
those grants were awarded this year. Last year, Nike donated more than 
$1 million in product to support this program.
Closing
    By inspiring, enabling, and encouraging kids to be physically 
active, Nike has an opportunity to shape kids lives now, and help them 
form positive habits and attitudes that last a lifetime. This 
opportunity can be realized in traditional ways--through products that 
perform well, images that show movement and athleticism--and through 
innovative community affairs programs that provide the resources, 
facilities, gear and coaching that kid's need. Through reaching out to 
partners in the corporate, nonprofit and government arenas, we can help 
kids make changes and choices that remove obstacles between young 
people and physical activity. If we do, we can all help kids lead 
physically healthier lives and leave a legacy of strong mental, social 
and physical health. We thank you for your leadership on this issue and 
look forward to working with you.
                                 ______
                                 

         Prepared Statement of the School Nutrition Association

    Madam Chairwoman, Members of the Committee, the School Nutrition 
Association (SNA) appreciates this hearing and your interest in a major 
public heath challenge: childhood obesity. As we all know, the cause of 
the problem is complex and there is no easy solution. It will take a 
multi-disciplinary approach and full a court press on many fronts.
    Our 55,000 SNA members serve over 30 million school lunches a day, 
plus almost 10 million breakfasts. Our members are, literally, on the 
front line in the fight against childhood obesity. We are also at the 
forefront of child nutrition policy.
    <bullet> In 1994, SNA urged the Congress to require all schools to 
follow the Dietary Guidelines for Americans.
    <bullet> Since the 1983 Court of Appeals decision in National Soft 
Drink Association v. Block, SNA has urged the Congress to expand the 
``time and place'' rule so that the Secretary would have the legal 
authority to regulate the sale of all foods and beverages sold in 
school, throughout the day and the entire campus. Under current law, as 
interpreted by the court decision, the Secretary only has authority to 
regulate foods sold in the cafeteria as a part of the school meal 
program.
    Studies indicate that the school meal program has improved greatly 
and does follow the Dietary Guidelines. In fact, the meals are more 
nutritious than they appear, so children will eat them. A few of the 
many examples of the improvements schools are making include:
    1. The use of low fat cheese and whole-wheat flour in pizza.
    2. ``Fried'' chicken with whole grain breading and French Fries 
that are baked.
    3. Hamburg patties that are mixed with soy, or fruit to cut the 
fat.
    4. Wide use of salad bars, ``shaker'' salads and fruit and yogurt 
parfaits.
    5. More fresh fruits and vegetables served.
    6. More training for employees on healthy food preparation 
techniques.
    7. Products from manufacturers processed to contain lower fat, 
sodium, and sugars while still meeting the ``student acceptance'' test.
    Nonetheless, as the IOM report, and other studies indicate, we must 
do more. Further, the effort must be consistent throughout the country 
and we must practice what we preach. It is not enough to teach 
nutrition education and have nutritious reimbursable meals if the foods 
sold outside of the cafeteria are sending a different message.
    SNA supports several specific actions that we believe would help in 
the fight against childhood obesity.
    First, we urge the Congress to reactivate the Nutrition Education 
Program. Nutrition Education has gone from an entitlement program to an 
authorized program without any funding.
    Second, we urge the Congress to expand the time and place rule as 
called for in the Child Nutrition Promotion and School Lunch Protection 
Act of 2007 pending in both the House and Senate.
    Third, we ask that whatever nutrition rules are adopted by the 
Secretary, after a public rulemaking period, are implemented 
nationwide. Our goal is one single uniform national nutrition standard 
for all foods and beverages sold in school during the entire day.
    In recent years, many States and local school boards, despite the 
best intentions, have gone off in very different directions regarding 
how to implement the Dietary Guidelines. Some states are concerned 
about sodium, and some are more concerned about fat. Some jurisdictions 
average the nutrients over a week, while some require administrators to 
follow the Dietary Guidelines on a daily basis.
    In America, we have a wonderful tradition of deferring to local 
jurisdictions on education. However, children need the same nutrients 
whether they live in New York, California or South Dakota.
    Allowing every State and local jurisdiction to each interpret the 
Dietary Guidelines differently is creating a very practical problem. As 
you know, the federal reimbursement rate for each meal served is very 
limited. The diversity in standards is driving up costs significantly. 
If this trend continues it will force schools out of the federal 
program and then there will not be any nutrition standard in that 
school.
    We are urging the Congress to require USDA to establish one uniform 
national standard for all meals. USDA should then be required to 
enforce that standard. States or local communities that want to deviate 
from the federal standard should have to seek a waiver based on sound 
science.
    The ideas we have shared here today will not, of course, solve the 
obesity epidemic in America. While the role of parents should not be 
ignored, schools have an important role to play. The current generation 
of children has been identified as having the greatest obstacles to 
overcome regarding obesity and diabetes. However, they are not the 
first generation to overcome such obstacles as their parents before 
them are a part of the ``super size'' generation.
    Recent research from Ohio State concluded that children gain weight 
during the summer and lose or maintain weight during the school year 
when they have access to healthy school meals and organized physical 
activity. We now need to educate children and parents as to proper 
portion and caloric intake. Children are eating more and more of their 
meals at school as society changes and both parent's work outside the 
home. In addition, we must recognize the important role schools play in 
nutrition education and incorporate greater physical education. I am 
referring to both the formal role we play by what is taught in the 
classroom and the example set by what foods and beverages we allow to 
be served and placed in the vending machines.
    We hope you will agree that the time to act is now. Thank you very 
much.
    For more information, please contact:
    Cathy Schuchart, SVP, Child Nutrition and Policy Center, SNA, 703-
739-3900, ext. 113 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a594959524f59525b484e7a495952555556544f4e48534e5355541455485d">[email&#160;protected]</a>
                              attachments
    1. Proposed Amendment: National Nutrition Standards for School 
Meals
    2. Correspondence from Industry Members Supporting a National 
Nutrition Standard
    3. A Foundation for the Future: Analysis of Local Wellness Policies 
from the 100 Largest School Districts (October 2006)
    4. A Foundation for the Future II: Analysis of Local Wellness 
Policies from 140 School Districts in 49 States (December 2006)
                                 ______
                                 

                           PROPOSED AMENDMENT

             National Nutrition Standards for School Meals

    Section 9 (f) of the Richard B. Russell National School Lunch Act 
is amended by adding----
    1. A new subsection (3) (A) (iii) as follows:
    ``(iii) enforce the current nutritional requirements in order to 
implement the Dietary Guidelines for Americans and Recommended Daily 
Allowances in a uniform manner for all meals provided under this Act, 
averaged over each week; and''
    2. A new subsection (6) as follows:
    ``(6) WAIVER OF NATIONAL NUTRITION STANDARDS.----
    Effective upon enactment, notwithstanding any other provision of 
law, in order for a state or local school foodservice authority to 
deviate from the nutrition standards established by the Secretary, the 
state or local food service authority must seek a waiver from the 
Secretary.''
              richard b. russell national school lunch act
Sec. 9
            SEC. 9. (f)
    (1) NUTRITIONAL REQUIREMENTS.--Except as provided in paragraph (2), 
not later than the first day of the 1996-1997 school year, schools that 
are participating in the school lunch or school breakfast program shall 
serve lunches and breakfasts under the program that----
    (A) are consistent with the goals of the most recent Dietary 
Guidelines for Americans published under section 301 of the National 
Nutrition Monitoring and Related Research Act of 1990 (7 U.S.C. 5341); 
and
    (B) provide, on the average over each week, at least----
    (i) with respect to school lunches, 1/3 of the daily recommended 
dietary allowance established by the Food and Nutrition Board of the 
National Research Council of the National Academy of Sciences; and
    (ii) with respect to school breakfasts, 1/4 of the daily 
recommended dietary allowance established by the Food and Nutrition 
Board of the National Research Council of the National Academy of 
Sciences.
    (2) State educational agencies may grant waivers from the 
requirements of paragraph (1) subject to criteria established by the 
appropriate State education agency. The waivers shall not permit 
schools to implement the requirements later than July 1, 1998, or a 
later date determined by the Secretary.
    (3) To assist schools in meeting the requirements of this 
subsection, the Secretary----
    (A) shall----
    (i) develop, and provide to schools, standardized recipes, menu 
cycles, and food product specification and preparation techniques; and
    (ii) provide to schools information regarding nutrient standard 
menu planning, assisted nutrient standard menu planning, and food-based 
menu systems; and
    (iii) enforce the current nutritional requirements in order to 
implement the Dietary Guidelines for Americans and Recommended Daily 
Allowances in a uniform manner for all meals provided under this Act, 
averaged over each week; and
    (B) may provide to schools information regarding other approaches, 
as determined by the Secretary.
    (4) USE OF ANY REASONABLE APPROACH.----
    (A) IN GENERAL.--A school food service authority may use any 
reasonable approach, within guidelines established by the Secretary in 
a timely manner, to meet the requirements of this subsection, 
including----
    (i) using the school nutrition meal pattern in effect for the 1994-
1995 school year; and
    (ii) using any of the approaches described in paragraph (3).
    (B) NUTRIENT ANALYSIS.--The Secretary may not require a school to 
conduct or use a nutrient analysis to meet the requirements of this 
subsection.
    (5) WAIVER OF REQUIREMENT FOR WEIGHTED AVERAGES FOR NUTRIENT 
ANALYSIS.--During the period pending on September 30, 2009, the 
Secretary shall not require the use of weighted averages for nutrient 
analysis of menu items and foods offered or served as part of a meal 
offered or served under the school lunch program under this Act or the 
school breakfast program under section 4 of the Child Nutrition Act of 
1966 (42 U.S.C. 1773).
    (6) WAIVER OF NATIONAL NUTRITION STANDARDS.----
    Effective upon enactment, notwithstanding any other provision of 
law, in order for a state or local school foodservice authority to 
deviate from the nutrition standards established by the Secretary, the 
state or local food service authority must seek a waiver from the 
Secretary.
                                 ______
                                 

 A Foundation for the Future: Analysis of Local Wellness Policies from 
                    the 100 Largest School Districts

Executive Summary
    From Los Angeles to Miami, most of the nation's 100 largest school 
districts by enrollment are requiring nutrition education, adding 
recess and tightening nutrition standards. More than 92% of these 
districts, which educate 23% of American students, have passed a local 
wellness policy that addresses nutrition standards for a la carte foods 
and beverages, according to new analysis conducted by the School 
Nutrition Association (SNA).
    School nutrition professionals continue to play leadership roles in 
the ongoing trend toward healthy school environments and the 
development of mandated local wellness policies. Section 204 of the 
Child Nutrition and WIC Reauthorization Act of 2004 required that all 
school districts that participate in the National School Lunch Program 
approve a local wellness policy by July 1, 2006. The law mandates that 
these policies include goals for nutrition education, physical activity 
and other school-based activities, as well as nutrition guidelines for 
all foods and beverages available on school campuses.
    A Foundation for the Future outlines key characteristics of local 
wellness policies approved by the largest 100 school districts by 
enrollment in the United States. According to the National Center for 
Education Statistics, the top 100 school districts make up less than 1% 
of the school districts in the nation but account for 16% of the 
schools, 21% of the teachers and 23% of the nation's K-12 students.*
---------------------------------------------------------------------------
    *Dalton, B., Sable, J., and Hoffman, L. (2006). Characteristics of 
the 100 Largest Public Elementary and Secondary School Districts in the 
United States: 2003-04 (NCES 2006-329). U.S. Department of Education. 
Washington, DC: National Center for Education Statistics
---------------------------------------------------------------------------
    Among the key findings, of the local wellness policies approved by 
the top 100 school districts are the following:
    <bullet> 99% address school meal nutrition standards. (Note that 
the U.S. Department of Agriculture has set federal nutrition standards 
for meals served through the National School Lunch Program and School 
Breakfast Program.)
    <bullet> 93% address nutrition standards for a la carte foods and 
beverages.
    <bullet> 92% address nutrition standards for foods and beverages 
available in vending machines.
    <bullet> 65% address nutrition standards/guidelines for fundraisers 
held during school hours.
    <bullet> 63% address nutrition standards/guidelines for classroom 
celebrations or parties.
    <bullet> 65% address nutrition standards/guidelines for teachers 
using foods as rewards in the classroom.
    <bullet> 50% of school districts address a recess requirement for 
at least elementary grade levels.
    <bullet> 96% require physical activity for at least some grade 
levels.
    <bullet> 97% require nutrition education for at least some grade 
levels.
    <bullet> 95% outlined a plan for implementation and evaluation, 
utilizing the superintendent, school nutrition director or wellness 
policy task force as the entity responsible for monitoring the policy.
                                 ______
                                 

  A Foundation for the Future II: Analysis of Local Wellness Policies 
                 from 140 School Districts in 49 States

Executive Summary
    During 2006 the nation's school boards approved local wellness 
policies that require nutrition education, add recess and tighten 
nutrition standards for foods and beverages available in schools. 
School nutrition professionals continue to play leadership roles in the 
ongoing trend toward healthy school environments and the development 
and implementation of mandated local wellness policies. Section 204 of 
the Child Nutrition and WIC Reauthorization Act of 2004 required that 
all school districts that participate in the National School Lunch 
Program approve a local wellness policy by July 1, 2006. The law 
mandates that these policies include goals for nutrition education, 
physical activity and other school-based activities, as well as 
nutrition guidelines for all foods and beverages available on school 
campuses.
    A Foundation for the Future II outlines key characteristics of 
local wellness policies approved by a sample of 140 school districts in 
seven regions of the United States. These districts account for 3.5% of 
the nation's K-12 students. This report follows the release in October 
2006 by SNA of an analysis of the local wellness policies approved for 
the 100 largest school districts by enrollment.
    Among the key findings of this second report on the local wellness 
policies approved by 140 school districts in 49 states:
    <bullet> 98.6% address school meal nutrition standards. (Note that 
the U.S. Department of Agriculture has set federal nutrition standards 
for meals served through the National School Lunch Program and School 
Breakfast Program.)
    <bullet> 88.6% address nutrition standards for a la carte foods and 
beverages.
    <bullet> 87% address nutrition standards for foods and beverages 
available in vending machines.
    <bullet> 69% address nutrition standards/guidelines for fundraisers 
held during school hours.
    <bullet> 65.7% address nutrition standards/guidelines for classroom 
celebrations or parties.
    <bullet> 55% address nutrition standards/guidelines for teachers 
using food as rewards in the classroom.
    <bullet> 72.5% of school districts address a recess requirement for 
at least elementary grade levels.
    <bullet> 91.7% require physical activity for at least some grade 
levels.
    <bullet> 95% require nutrition education for at least some grade 
levels.
    <bullet> 89% outlined a plan for implementation and evaluation, 
utilizing the superintendent, school nutrition director or wellness 
policy task force as the entity responsible for monitoring the policy.
                                 ______
                                 
    [Whereupon, at 5:21 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
